APPENDIX

APPENDIX CONTENTS
Findings of Fact and Conclusions of Law, United States District Court for the
Middle District of Tennessee, dated October 14, 2020 ...................................... 1a
Final Judgment and Permanent Injunction, United States District Court for the
Middle District of Tennessee, dated October 14, 2020 .................................. 137a
Order Denying Stay Pending Appeal, United States District Court for the
Middle District of Tennessee, dated December 14, 2020 .............................. 138a
Order Denying Stay Pending Appeal, United States Court of Appeals for the
Sixth Circuit, dated February 19, 2021........................................................... 144a

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
ADAMS & BOYLE, P.C., 1 et al.,
Plaintiffs,

Civil Action No. 3:15-cv-00705

vs.

HON. BERNARD A. FRIEDMAN

HERBERT H. SLATERY, III, et al.,
Defendants.
_____________________________/
FINDINGS OF FACT AND CONCLUSIONS OF LAW
Plaintiffs in this matter are Tennessee abortion providers who challenge a
Tennessee statute, Tenn. Code Ann. § 39-15-202(a)-(h), which requires women seeking an
abortion to receive certain information beforehand in person from the attending physician
performing the abortion, or a referring physician, and to then wait at least 48 hours after receiving
the information – subject to a strict medical emergency exception – before undergoing the
procedure. Plaintiffs, suing on their own behalf and on behalf of their patients, argue that § 3915-202(a)-(h) violates the Due Process and Equal Protection Clauses of the Fourteenth
Amendment to the United States Constitution. They seek to enjoin its enforcement.
Having reviewed the evidence presented at trial, including the testimony of various
expert witnesses, the exhibits, and the stipulations, and having considered all of the issues
involved, the Court concludes that the mandatory waiting period required by § 39-15-202(a)-(h)
is unconstitutional and shall enjoin its enforcement.

1

On June 29, 2020, the Court granted plaintiffs’ unopposed motion to replace Adams &
Boyle, P.C., with Bristol Regional Women’s Center, P.C. [docket entry 267].

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 1 of 136 PageID #: 6509

1a

I.

Background
On June 25, 2015, plaintiffs Adams & Boyle, P.C. (“Adams & Boyle”), Wesley F.

Adams Jr., M.D. (“Adams”), and Memphis Center for Reproductive Health (“Choices Memphis”)
filed a complaint on behalf of themselves and their patients in which they challenged three
statutory requirements concerning abortions in Tennessee: (1) that doctors’ offices that perform
more than fifty surgical abortions annually become licensed as ambulatory surgical treatment
centers (“ASTC”), 2015 Tenn. Pub. Acts Chapter 419 (later codified at Tenn. Code Ann. § 68-11201); (2) that doctors who perform abortions have hospital admitting privileges in the county
where the abortion is performed or an adjacent county, 2012 Tenn. Pub. Acts Chapter 1008
(originally codified at Tenn. Code Ann. § 39-15-202(h), later codified at Tenn. Code Ann. § 3915-202(j)); and (3) that abortion patients attend an in-person meeting with a doctor to receive
certain information at least 48 hours before obtaining the abortion, 2015 Tenn. Pub. Acts Chapter
473 § 1(a)-(h) (later codified at Tenn. Code Ann. § 39-15-202(a)-(h)). Compl. ¶¶ 2, 7 [docket
entry 1]. Plaintiffs alleged that these restrictions violated the Fourteenth Amendment’s Due
Process and Equal Protection Clauses, and they sought declaratory and injunctive relief
permanently enjoining their enforcement.
On June 26, 2015, the Court issued a temporary restraining order (“TRO”)
enjoining “Defendants . . . from enforcing . . . [the ASTC requirement], as applied to Plaintiffs
Adams & Boyle and Adams,” pending a July 9, 2015, hearing. TRO at 2-3 [docket entry 13]. On
July 15, 2015, the Court renewed the TRO until August 10, 2015 [docket entry 23]. On August
10, plaintiffs filed an amended complaint that challenged the same three restrictions and added
defendants. On August 14, 2015, the Court issued a preliminary injunction enjoining defendants
from enforcing the ASTC requirement pending resolution of the litigation.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 2 of 136 PageID #: 6510

2a

On December 17, 2015, the Court stayed “all proceedings in this matter” pending
the Supreme Court’s decision in Whole Woman’s Health v. Cole, 790 F.3d 563 (5th Cir. 2015)
(per curiam), modified, 790 F.3d 598 (5th Cir. 2015) (mem.), cert. granted, No. 15-274 (U.S. Nov.
13, 2015). Stay Order at 1-2 [docket entry 45]. On April 14, 2017, the Court lifted the stay and
entered a partial judgment on consent. In light of the Supreme Court’s ruling in Whole Woman’s
Health and the agreement of the parties, the Court “enter[ed] a final judgment as to Plaintiffs’
claims for statewide injunctive relief concerning enforcement of” the ASTC and admittingprivileges requirements. Partial J. on Consent at 3 [docket entry 60]. The Court indicated that
“nothing in this [judgment] shall affect adjudication of Plaintiffs’ claims concerning what
Plaintiffs reference as the ‘Delay Requirement’ and Defendants reference as the ‘Notice and
Waiting Period Requirement’ . . . .” Id.
On August 22, 2017, plaintiffs filed a second amended complaint challenging the
validity of § 39-15-202(a)-(h) on both due process and equal protection grounds. Plaintiffs, suing
on their own behalf and on behalf of their patients, are Adams & Boyle, 2 Choices Memphis, and
Planned Parenthood of Tennessee and North Mississippi (“PPTNM”). 3 Defendants are the
Tennessee Attorney General and various other state and county officials. 4

2

As noted, on June 29, 2020, the Court granted plaintiffs’ unopposed motion to substitute
Bristol Regional Women’s Center, P.C., for Adams & Boyle, P.C. [docket entry 267].
3

PPTNM substituted for plaintiffs Planned Parenthood Greater Memphis Region
(“PPGMR”) and Planned Parenthood of Middle and East Tennessee (“PPMET”) on September 6,
2018 [docket entry 116]. Wesley F. Adams Jr., M.D., is no longer a plaintiff in the case. The
second amended complaint added Knoxville Center for Reproductive Health, Inc., as a plaintiff;
however, on March 5, 2018, the Court granted this party’s motion for voluntary dismissal [docket
entry 87].
4

Defendants, all of whom are being sued in their official capacities, are Attorney General
of Tennessee Herbert H. Slatery III; Commissioner of the Tennessee Department of Health John
Dreyzehner; President of the Tennessee Board of Medical Examiners Michael D. Zanolli, M.D.;

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 3 of 136 PageID #: 6511

3a

The parties have filed deposition designations [docket entries 197, 203, 204, 217],
motions in limine [docket entries 143, 145, 147, 149, 151, 153, 155, 157, 158, 162, 164, 166, 168,
172, 195, 208], and pretrial briefs [docket entries 179, 180]. Following a four-day bench trial, the
parties submitted proposed findings of fact and conclusions of law [docket entries 226, 227].
II.

Tenn. Code Ann. § 39-15-202(a)-(h)
A.

Text of § 39-15-202(a)-(h)
Section 39-15-202(a)-(h), which went into effect on July 1, 2015, states:
(a) Except in a medical emergency that prevents compliance with this
subsection (a), no abortion shall be performed or induced upon a pregnant
woman unless the woman has provided her informed written consent, given
freely and without coercion. Such consent shall be treated as confidential.
(b) In order to ensure that a consent for an abortion is truly informed
consent, except in a medical emergency that prevents compliance with this
subsection (b) or any of the requirements of subdivisions (b)(1)-(5), no
abortion shall be performed or induced upon a pregnant woman unless she
has first been informed orally and in person by the attending physician who
is to perform the abortion, or by the referring physician, of the following
facts and has signed a consent form acknowledging that she has been
informed as follows:
(1) That according to the best judgment of her attending physician or
referring physician she is pregnant;
(2) The probable gestational age of the unborn child at the time the abortion
is to be performed, based upon the information provided by her as to the
time of her last menstrual period or after a history, physical examination,
and appropriate laboratory tests;
(3) That if twenty-four (24) or more weeks have elapsed from the first day
of her last menstrual period or twenty-two (22) or more weeks have elapsed

District Attorney General of Nashville Glenn R. Funk; District Attorney General of Shelby County
Amy Weirich; District Attorney General of Sullivan County Barry P. Staubus; and District
Attorney General of Knox County Charme P. Allen. On September 20, 2017, Dr. Zanolli was
replaced by Subhi D. Ali, M.D., as the President of the Tennessee Board of Medical Examiners
[docket entry 82]. On August 28, 2019, Dr. Ali was replaced by W. Reeves Johnson Jr., M.D.,
and former Commissioner of the Tennessee Department of Health Dreyzehner was replaced by the
current commissioner, Lisa Piercey, M.D. [docket entry 199].

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 4 of 136 PageID #: 6512

4a

from the time of conception, her unborn child may be viable, that is, capable
of sustained survival outside of the womb, with or without medical
assistance, and that if a viable child is prematurely born alive in the course
of an abortion, the physician performing the abortion has a legal obligation
to take steps to preserve the life and health of the child;
(4) That numerous public and private agencies and services are available to
assist her during her pregnancy and after the birth of her child, if she chooses
not to have the abortion, whether she wishes to keep her child or place the
child for adoption, and that her attending physician or referring physician
will provide her with a list of the agencies and the services available if she
so requests; and
(5) The normal and reasonably foreseeable medical benefits, risks, or both
of undergoing an abortion or continuing the pregnancy to term.
(c) Except in a medical emergency that prevents compliance with this
subsection (c), at the same time the attending physician or referring
physician provides the information required by subsection (b), that
physician shall inform the pregnant woman of the particular risks associated
with her pregnancy and continuing the pregnancy to term, based upon the
information known to the physician, as well as the risks of undergoing an
abortion, along with a general description of the method of abortion to be
used and the medical instructions to be followed subsequent to the abortion.
(d)(1) Except in a medical emergency that prevents compliance with this
subdivision (d)(1), no abortion shall be performed until a waiting period of
forty-eight (48) hours has elapsed after the attending physician or referring
physician has provided the information required by subsections (b) and (c),
including the day on which the information was provided. After the fortyeight (48) hours have elapsed and prior to the performance of the abortion,
the patient shall sign the consent form required by subsection (b).
(2) If any court temporarily, preliminarily, or permanently enjoins
enforcement of subdivision (d)(1) or declares it unconstitutional, then the
waiting period imposed by subdivision (d)(1) shall be twenty-four (24)
hours, subject to the same medical emergency exception. If the injunction
or declaration is subsequently vacated or reversed, the waiting period shall
revert to forty-eight (48) hours.
(e) Except in a medical emergency that prevents compliance with
subsection (b), the physician performing or inducing the abortion shall
provide the pregnant woman with a duplicate copy of the consent form
signed by her.
(f)(1) For purposes of subsections (a), (b), (c), (d), and (e), a medical

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 5 of 136 PageID #: 6513

5a

emergency is a condition that, on the basis of the physician’s good faith
medical judgment, so complicates a medical condition of a pregnant woman
as to necessitate an immediate abortion of her pregnancy to avert her death
or for which a delay will create serious risk of substantial and irreversible
impairment of major bodily function.
(2) When a medical emergency compels the performance of an abortion, the
physician shall inform the woman, prior to the abortion if possible, of the
medical reasons supporting the physician’s judgment that an abortion is
necessary to avert her death or to avert substantial and irreversible
impairment of major bodily function.
(3) In any case in which a physician has determined that a medical
emergency exists that excuses compliance with subsection (a), (b), (c), or
(d), the physician shall state in the pregnant woman’s medical records the
basis for such determination.
(g) For purposes of this section, “the physician”, “the attending physician”,
or “the referring physician” means any person who is licensed to practice
medicine or osteopathy in this state.
(h)(1) An intentional or knowing violation of subsection (a), (b), (c), or (d),
or subdivision (f)(2) by a physician is a Class E felony.
(2) An intentional, knowing, or reckless violation of subsection (e) or
subdivision (f)(3) by a physician is a Class A misdemeanor.
(3) In addition to subdivisions (h)(1) and (2), any physician who
intentionally, knowingly, or recklessly violates this section is guilty of
unprofessional conduct and such physician’s license for the practice of
medicine and surgery or osteopathy shall be subject to suspension or
revocation in accordance with the procedures provided under title 63,
chapters 6 and 9.
JX1.
Plaintiffs state that the challenged statute
has three components: (1) it requires that an abortion patient receive certain
information “orally and in person” prior to her procedure; (2) it requires that
the information be provided by “the attending physician who is to perform
the abortion” or “the referring physician”; and (3) it delays the patient from
having an abortion “until a waiting period of forty-eight (48) hours has
elapsed after the attending physician or referring physician has provided the
information required [by the statute].” Tenn. Code Ann. § 39-15-202(b),
(d)(1).

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 6 of 136 PageID #: 6514

6a

Second Am. Compl. (“SAC”) ¶ 47. Plaintiffs claim that these provisions unduly burden women’s
access to abortion in Tennessee.
B.

Legislative History of § 39-15-202(a)-(h)
On March 24, 2015, § 39-15-202(a)-(h) (previously House Bill 977 and Senate Bill

1222) was considered by the House Health Subcommittee; on April 1 and 8, 2015, it was
considered by the House Health Committee; on April 7, 2015, it was considered by the Senate
Judiciary Committee; on April 15, 2015, it was considered in the House calendar and rules and on
the Senate floor; and on April 21, 2015, it was considered on the House floor. See DX5 at 2.
The proposed statute was presented in the legislature in “direct response” to the
adoption of Amendment 1 by Tennessee voters. 5 Id. at 5, 89, 98, 173-74, 180, 249-50, 252. The
proposed statute’s language was adapted from a 1978 Tennessee statute that imposed a two-day
waiting period and was invalidated in 2000. 6 See id. at 11-13, 25-26, 38, 98, 180, 252. The

5

Amendment 1 was a proposed amendment to the Tennessee Constitution that received a
majority of votes in favor of its adoption in Tennessee’s general election on November 4, 2014.
See George v. Haslam, 112 F. Supp. 3d 700, 703-04 (M.D. Tenn. 2015). As a result of this voter
approval, the following section was added to Article I of the Tennessee Constitution:
Nothing in this Constitution secures or protects a right to abortion or
requires the funding of an abortion. The people retain the right through their
elected state representatives and state senators to enact, amend, or repeal
statutes regarding abortion, including, but not limited to, circumstances of
pregnancy resulting from rape or incest or when necessary to save the life
of the mother.
Tenn. Const. art. I, § 36.
6

The legislative transcript indicates that Tennessee’s waiting period enacted in 1978 was
invalidated in a case referred to only as “Planned Parenthood v. Sundquist.” DX5 at 11, 180.
Presumably this is a reference to Planned Parenthood of Middle Tenn. v. Sundquist, 38 S.W.3d 1,
22-25 (Tenn. 2000), in which the Tennessee Supreme Court concluded that the mandatory waiting
period requirement (as it appeared in a prior version of Tenn. Code Ann. § 39-15-202(d)(1)), as
well as other abortion statutes at issue in the case, were unconstitutional under the Tennessee

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 7 of 136 PageID #: 6515

7a

legislature heard testimony that the purpose of the proposed statute was to protect women and
girls, to provide them with all of the facts and information available and necessary to make a
careful and fully informed decision, and to give them sufficient time to consider the information
provided, as well as other options, “for the well-being of both her and her unborn child.” Id. at 89, 25, 27, 38, 98, 152-53, 161, 171-72, 191, 207, 220, 251, 258, 275-79. The proposed statute also
was intended to reduce the number of coerced abortions. See id. at 251. Its requirement that
physicians provide information to patients in person at the first visit was meant “to ensure that all
of the accurate medical information is given” and that patients receive answers to any medical
questions or concerns. Id. at 166-69. Some legislators indicated that the purpose of the proposed
statute was not to restrict access to an abortion, to place an obstacle in the path of women seeking
an abortion, or to create increased costs or an undue burden. See id. at 8, 13, 35, 171, 191, 260,
263, 275, 277. However, the legislature heard testimony that “[f]orcing women to wait for an
abortion before they legally terminate their pregnancy causes undue and excessive hardships [that
are] emotionally and financially burdensome on women” and may result in women having later
abortions, “which may compromise their health” or may result in unsafe abortions. Id. at 258-59.
The legislature also heard testimony that restrictions on abortion do not cause women to change
their decisions to terminate their pregnancies. See id. at 259.
The legislature heard testimony that an abortion is a serious and irreversible

Constitution “because the[y] are not narrowly tailored to further compelling state interests.” With
respect to the mandatory waiting period, the court “likewise conclude[d] that the two-day waiting
period has the effect of placing ‘a substantial obstacle in the path of a woman seeking an abortion,’
and therefore fails to pass muster under an undue burden analysis.” Id. at 24 (quoting Planned
Parenthood of Se. Pa. v. Casey, 505 U.S. 833, 878 (1992)). The waiting period requirement
invalidated by Sundquist stated: “There shall be a two-day waiting period after the physician
provides the required information, excluding the day on which such information was given. On
the third day following the day such information was given, the patient may return to the physician
and sign a consent form.” Id. at 20.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 8 of 136 PageID #: 6516

8a

medical procedure with physical and psychological health risks. See id. at 7-8, 25-27, 45, 83, 88,
97-98, 152, 162-63, 212, 219-20, 250, 264, 266. Some representatives commented that abortion
is not safe for “the unborn child” and that it is a “deadly procedure” that “tak[es] a life.” Id. at 14
(comment by Rep. Hill); id. at 105 (Rep. Faison); id. at 119 (Rep. Holsclaw); id. at 161 (Rep. Hill);
id. at 266 (Rep. Terry).
The legislature heard testimony that over 90% of abortions in Tennessee occur in
the first trimester (i.e., in the first 13 weeks of pregnancy), see id. at 16, 111, 159-60, 238, and that
80% of those procedures are performed within the first 9 weeks of pregnancy. See id. at 111. The
legislature considered whether the proposed statute might restrict the options, due to the passage
of time, as to the type of procedure available. See id. at 30-35, 246.
The legislature heard testimony that as of July 2014, 42% of women obtaining
abortions had incomes below 100% of the federal poverty level and 27% of women obtaining
abortions had incomes between 100% and 199% of the federal poverty level. See id. at 170. Some
legislators believed that the proposed statute “works disproportionately against poor women,” id.
at 255-56 (Rep. Turner); id. at 259-60 (Rep. Gilmore), as well as against “young women,
unmarried women, women of color, immigrant women, and women living in rural areas.” Id. at
260 (Rep. Gilmore). It heard testimony that the passage of the proposed statute would result in
additional costs for women and families from having to take time off from work, arrange for
childcare, and pay for transportation for more than one trip to the clinic. See id. at 170-71, 275. It
considered the cost of an abortion in Tennessee, see id. at 112, 250, and whether the proposed
statute might require women to incur additional medical expenses. See id. at 18-20. It considered
whether the proposed statute burdened and discriminated against women and whether similar
standards should be imposed on men seeking a vasectomy. See id. at 66-71.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 9 of 136 PageID #: 6517

9a

The proposed statute was characterized as requiring informed consent, as is
required for other procedures. See id. at 35-37, 89, 207. The legislature heard testimony that
Tennessee already had informed consent laws, but the laws did not specifically cover abortions.
See id. at 28. The proposed statute was said to be different from other informed consent laws
because it requires physicians to disclose information beyond the risks and benefits of the
procedure; it “goes a little bit further” by requiring physicians to “provide information [to a
woman] should she decide to go forward with the pregnancy.” Id. at 209.
The legislature had no data suggesting that women seeking abortions lacked the
information necessary for responsible decision-making or that medical professionals had identified
a problem regarding a lack of information. See id. at 9, 37-45. The legislature heard testimony
that patients seeking an abortion had enough time to ask questions and that some patients changed
their mind. See id. at 235. The legislature did not consult with medical associations regarding
their recommendations concerning the proposed statute. See id. at 41. According to Sen. Beavers,
a 48-hour waiting period was chosen because it is a “sensible, reasonable [amount of] time,” and
if it were 24 hours instead, “it’s probably going to be too late in the day for the abortion to be
performed and would be pushed into the next day anyway.” Id. at 28-29. The Tennessee
Department of Health did not consult with legislators regarding the waiting period requirement in
the proposed statute. 7 See Nagoshiner Dep. at 54-55.
The legislature heard that Tennessee did not have a waiting period for abortion, but

7

The Tennessee Department of Health’s Office of Legislative Affairs did comment on
draft versions of the waiting period requirement, and it sought “rulemaking authority [to be]
specifically stated in the bill.” Nagoshiner Dep. at 55-56; see also Reed Dep. at 18-24. Other than
“request[ing] the addition of the rulemaking within the . . . bill that was introduced,” the Tennessee
Department of Health “did not have any other involvement in the passage of the waiting period
requirement bill.” Nagoshiner Dep. at 69-70.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 10 of 136 PageID #: 6518

10a

its surrounding states did. See DX5 at 6, 12, 26-27, 151, 277. A Right to Life representative told
the legislature that “at a very minimum” a 48-hour waiting period in Tennessee was necessary if
it no longer wanted to be an “abortion destination.” Id. at 27, 47-48, 221 (stating that North
Carolina was considering adopting a 72-hour waiting period, Missouri had a 72-hour waiting
period, and Arkansas had a 48-hour waiting period). The legislature considered the Supreme
Court’s decisions, including Planned Parenthood of Se. Pa. v. Casey, 505 U.S. 833 (1992),
upholding the constitutionality of certain statutory requirements relating to abortions. See DX5 at
26, 60-61, 83-84, 127-29, 150-51, 195, 198, 220, 237, 274-75, 277-78.
A different provision of the Tennessee Code, § 56-7-2355, defines “emergency
medical condition,” but the proposed statute included its own definition of a medical emergency.
Id. at 162-66. The legislature heard testimony that the proposed statute’s medical emergency
provision gave physicians autonomy to determine the proper course of care or treatment for
patients, see id. at 270, 273, but it also heard testimony that the proposed statute’s definition of a
medical emergency was unnecessary, would narrow access to abortion, and was “setting a trap for
doctors across the state of Tennessee” in terms of giving rise to liability. Id. at 236. The legislature
considered whether the proposed statute’s medical emergency exception was so restrictive that it
might interfere with saving patients’ lives. See id. at 17. Rep. Clemmons noted that no testimony
demonstrated a need for a physician to be present at the first appointment. See id. at 233-34.
The legislature heard testimony from Jeff Teague of Planned Parenthood of Middle
and East Tennessee and Ashley Coffield of Planned Parenthood of Greater Memphis Region. See
id. at 82, 99. Teague indicated that in the previous year, Planned Parenthood in Tennessee had
performed approximately 6,000 abortions. See id. at 119. Teague and Coffield described Planned
Parenthood’s “very strict” and “lengthy” informed consent process, which was required by

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 11 of 136 PageID #: 6519

11a

regulations dealing with informed consent generally in Tennessee. Id. at 49-54, 102, 106-07, 114.
They indicated that “a natural built-in waiting period” resulted in women typically waiting between
four days and two weeks from when they called the clinic to when they obtained the procedure.
Id. at 50, 102, 106-07. Teague stated that “it’s impossible for [women] to schedule an appointment
on the same day that they call.” Id. at 102. Teague and Coffield testified that 35% to 50% of
women who schedule an abortion appointment do not keep that appointment. See id. at 51, 102,
108. Teague testified that the amount of time it takes women to make a decision varies, but “[w]e
know that women spend many hours, days, and often weeks in very thoughtful and prayerful
consideration about what they should do regarding their pregnancies.” Id. at 57, 100-01. Coffield
stated that women spend five to six hours at the clinic and that they “have a lot of time while
they’re there to consider their decision,” in addition to the days or weeks leading up to their
appointment, because Planned Parenthood starts providing information to women during their first
telephone call to the clinic. Id. at 49, 100-01, 107-08.
Teague stated that Planned Parenthood was opposed to the proposed statute because
the informed consent process was already in place and because the proposed statute would interfere
with the doctor-patient relationship, would limit the delivery of care, and would force women to
delay the procedure after they had made a decision, resulting in a more complicated procedure or
an inability to have the procedure at all. See id. at 54-55. Teague indicated that the proposed
statute would require women to receive information that may not be scientifically or medically
accurate and would create barriers to accessing safe and legal abortions in Tennessee. See id. at
55-56, 82-83, 100, 111. Teague testified that an abortion “is already one of the safest medical
procedures that a woman can receive.” Id. at 100-01. Teague also indicated that the “American
Psychological Association and Psychiatric Association have both issued statements saying that

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 12 of 136 PageID #: 6520

12a

women who go through abortion are no more likely to experience mental health [or substance
abuse] issues than . . . other wom[e]n.” Id. at 83.
The legislature heard testimony from Susan Dodd, an obstetrician/gynecologist
who had practiced for thirty years in Knoxville. See id. at 99. Dr. Dodd testified that an abortion
“is an extremely safe procedure” that is “much safer than carrying a pregnancy.” Id. at 118. Dr.
Dodd described the informed consent process at her office, which involved “extensive counseling”
that lasted at least two hours. Id. at 108-09, 114-16. She testified that requiring women to return
after 48 hours is “a big burden for the women of Tennessee” because of the need to attend a second
appointment, which necessitates taking additional time off from work, finding childcare, and
paying for gas, which some of her patients did not have money to cover. Id. at 109-10. She stated
that the proposed statute would “very frequently[] postpone the procedure at least one to two
weeks, which makes the procedure more painful,” causes “the woman have to suffer that much
longer, and it is totally unreasonable in my opinion.” Id. at 101-03. Dr. Dodd testified that about
half of her patients choose to have a medication abortion and that the delay in care caused by the
proposed statute is “going to put [some women] in a different category of abortion and limit their
choices.” Id. at 110-11.
The legislature heard Rebecca Terrell of abortion provider Choices Memphis
describe the clinic’s informed consent process and operations in detail. See id. at 130, 133-34,
145-46, 148-49. Terrell testified that the proposed statute would create an undue burden because
of the cost of lost wages, childcare, and transportation for women to attend a second appointment.
See id. at 131-33. She was aware of no medical reason why physicians, as opposed to other staff,
should have to deliver information about the procedure to patients. See id. at 143.
The legislature rejected amendments that would have broadened who could provide

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 13 of 136 PageID #: 6521

13a

information to patients, required that the information provided be medically accurate, allowed
information to be provided over the telephone or by “Telehealth” (eliminating the in-person
requirement), made the proposed statute’s requirements inapplicable to victims of rape or incest,
or modified the definition of a medical emergency. See id. at 81-84, 92-97, 183-206, 229-31, 23948; see also JX6-JX14.
III.

Trial Proceedings, Summary of Testimony, and Findings of Fact
The parties presented evidence at trial on two issues: (1) whether § 39-15-202(a)-

(h) places an undue burden on the right of women to obtain a pre-viability abortion, and (2) whether
the statute discriminates against women on the basis of sex and gender stereotypes. All of the
parties’ motions in limine to disqualify one another’s witnesses are denied. The parties’ motions
in limine to exclude one another’s exhibits are denied, except that defendants’ motion in limine to
exclude plaintiffs’ journal articles, books, and similar materials [docket entry 166] is denied as
moot (as indicated by plaintiffs in their response [docket entry 194]), and defendants’ motion in
limine to exclude a working paper [docket entry 208] is granted. See Tr. 9/23/19 (Vol. 1) pp. 1314.
Plaintiffs called obstetrician-gynecologist Sarah Wallett as their first witness. Dr.
Wallett testified that on June 8, 2018, Planned Parenthood Greater Memphis Region (“PPGMR”)
and Planned Parenthood of Middle and East Tennessee (“PPMET”) merged to form Planned
Parenthood of Tennessee and North Mississippi (“PPTNM”). 8 See Wallett, Tr. 9/23/19 (Vol. 1)
pp. 32-33. PPTNM provides abortion services at four health centers: two in Memphis (formerly
PPGMR), one in Nashville (formerly PPMET), and one in Knoxville (formerly PPMET). PPTNM

8

Dr. Wallett became the chief medical officer of PPTNM at the time of the merger. See
Wallett, Tr. 9/23/19 (Vol. 1) p. 34. Prior to that, she was the medical director of PPGMR. See id.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 14 of 136 PageID #: 6522

14a

provides approximately 6,500 abortions per year. See id. at 39, 121, 123.
Dr. Wallett testified that PPTNM provides medication abortions up to 10 weeks
LMP 9 and surgical abortions up to 19 weeks and 6 days LMP (the latest gestational age cutoff that
is permitted for surgical abortions in Tennessee). See id. at 38, 41-42. One health center in
Memphis and the health center in Nashville offer both medication and surgical abortions. See id.
at 38. The other health center in Memphis and the health center in Knoxville offer only medication
abortions; however, the health center in Memphis has temporarily suspended this service. Id. at
38-39. Dr. Wallett stated that it was suspended because “in efforts to make sure access is
maintained, . . . all of the abortion [procedures have] been moved to one health center so the other
health center can focus on family planning only.” Id.
Dr. Wallett explained that “a medication abortion involves a woman taking two
medications in order to pass a pregnancy. She will typically take one medication in the clinic, a
medication called mifepristone, and then a second medication [called misoprostol] at home,
typically anywhere up to 48 hours after the first pill.” Id. at 39. The patient will “experience
cramping and bleeding at home,” which “is very equivalent to what a woman might experience
with a miscarriage.” Id. at 40. A medication abortion does not require sedation and is available
up to 10 weeks LMP. See id. at 40, 42. Many patients “strongly prefer[]” a medication abortion
for various reasons: to avoid a procedure or sedation, because its resemblance to a miscarriage
makes it seem “more natural,” or because for certain patients it is medically safer than a surgical
abortion. Id. at 42. A medication abortion would be the medically preferred option for patients
with fibroids or benign uterine tumors or for those with a history of uterine surgery or scarring.

9

Plaintiffs indicate that “‘LMP’ denotes the first day of a pregnant woman’s ‘last menstrual
period.’ It is the standard measure of gestational age used by medical professionals.” SAC ¶ 14
n.1. Defendants do not dispute the meaning or usage of this term.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 15 of 136 PageID #: 6523

15a

See id. at 43-44. Dr. Wallett testified that many women with a history of sexual trauma prefer a
medication abortion because they “find any pelvic exams re-traumatizing.” Id. at 43.
A surgical abortion “involves a patient undergoing a simple aspiration procedure,
usually lasting about five minutes, to remove the contents of her uterus. That procedure may
involve sedation,” and it may be done as an outpatient procedure. Id. at 40. As a pregnancy
progresses, this procedure may take more time and require additional skills, training, and
equipment. See id. at 40-41, 43, 82. Dr. Wallett testified that “[a]lthough surgical abortion at all
times remains very safe, the risk of surgical abortion does go up as the pregnancy gestational age
increases.” Id. at 41-42. After 16 or 17 weeks LMP, a surgical abortion “may typically involve a
two-day procedure, so the woman must come in one day to receive medications or procedures to
help prepare her cervix for the abortion, and then return . . . a second day for that procedure.” Id.
at 42. This two-day procedure became a three-day procedure when § 39-15-202(a)-(h) went into
effect. See id. at 44.
Dr. Wallett testified that “[a]ll types of patients” seek abortion care at PPTNM for
various reasons and that “[i]t’s impossible to name all of the different types of patients that we
take care of.” Id. at 45-46. “Women of all income levels obtain abortions, but abortion is more
common among women with lower income levels, and we did see that at PPTNM.” Id. at 46. As
with other doctors’ appointments, patients commonly do not attend a first or second appointment
for abortion care, but the frequency of “no-shows” for the second appointment is “significantly
less” than for the first appointment. See id. at 85-88. Dr. Wallett testified that between June 13,
2012, and June 30, 2015 (before the challenged statute went into effect on July 1, 2015),
approximately 483 patients obtained an abortion-related ultrasound at PPGMR but did not obtain
an abortion there. See id. at 114; see also JX53 at 10. Between July 1, 2015, and January 31,

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 16 of 136 PageID #: 6524

16a

2018, approximately 729 patients obtained an abortion-related ultrasound at PPGMR but did not
obtain an abortion there. See Wallett, Tr. 9/23/19 (Vol. 1) p. 113; see also JX53 at 2-3, 10; JX57
at 2-3, 9-10 (approximately 309 patients between August 1, 2018, and December 31, 2018,
obtained an abortion-related ultrasound at PPGMR but did not obtain an abortion there).
Dr. Wallett stated that “[i]t’s impossible to know why patients no-show[]” for an
appointment because there are many possible reasons for this: patients could have an appointment
elsewhere, be no longer seeking abortion care, be uncertain, be unable to return to the clinic due
to logistics, or be ineligible to return because of a miscarriage, an ectopic pregnancy, a pregnancy
that is too far along, or because they are not actually pregnant. Wallett, Tr. 9/23/19 (Vol. 1) pp.
85-87, 114-15, 132, 145-46. As a result, the number of patients who are conflicted about the
abortion decision is not directly correlated with the number who do not return for a second
appointment. Id. at 145-46. PPTNM does not track the reasons for “no-shows” out of respect for
patients’ privacy and because it is irrelevant to their medical care. Id. at 86-87. PPGMR did not
track these reasons either. See JX53 at 3; JX57 at 3-4.
Dr. Wallett testified that it is her legal and “ethical obligation [as a physician] to
make sure patients understand any procedure that they’re undergoing” and that “[i]t’s also
important as part of our mission at Planned Parenthood, [for] patients to have all information
available to them to make informed choices.” Wallett, Tr. 9/23/19 (Vol. 1) pp. 51, 146. Prior to
§ 39-15-202(a)-(h) taking effect, a patient who would appear at one of the Memphis health centers
would meet with a trained patient educator for approximately thirty minutes. See id. at 48-49. The
patient educator would obtain the patient’s history and provide information regarding options,
abortion, contraception, as well as counseling and community resources. See id. The patient
would discuss her decision with the patient educator, who would conduct a decision assessment

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 17 of 136 PageID #: 6525

17a

and screen for coercion. See id. at 49. The assessment and screening would involve the patient
educator asking the patient about her decision, if she has support in her decision, and if she is being
pressured to make a certain decision about her pregnancy. See id. at 49-50, 52. A patient would
receive “an extensive packet of materials to also review in writing.” Id. at 49. These materials
would be given to the patient at check-in, would be reviewed with the patient educator, and would
be signed by the patient to indicate she understood the information. See id. at 61-69; PX1. The
patient would have an ultrasound at her visit, with the opportunity to view it and the option to
receive a picture of the ultrasound. See Wallett, Tr. 9/23/19 (Vol. 1) p. 60.
After meeting with the patient educator, the patient would meet individually with
the physician for approximately ten minutes, depending on the patient’s needs, questions, and
concerns. See id. at 50-51. The physician would “confirm informed consent for the procedure and
that the patient understood the risks, benefits, and all the alternatives of proceeding.” Id. at 51.
This would involve reviewing the patient’s medical history, counseling the patient about medical
concerns, answering her questions, and “always review[ing] the patient decision assessment and
assur[ing] that the patient was firm in her choice to have an abortion” “by asking the patient if she
was confident of her decision, if she has support in her decision, and [if] she had any concerns
about proceeding.” Id. at 50-51.
Patient educators who were uncomfortable with a patient’s responses about her
decision would ask the physician to do some additional screening “to ensure that the patient[] w[as]
making decisions on [her] own and . . . w[as] clear about the decision-making process.” Id. at 50.
Patients who were unsure of their decisions would receive counseling, would be encouraged to
take more time, and would not have the abortion on that day. See id. at 59, 70-71. Patients who
changed their minds about the abortion would be free to leave the facility. See id. at 59. Patients

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 18 of 136 PageID #: 6526

18a

who were unsure or who changed their minds would be given information on prenatal care,
parenting, and adoption. See id. at 59, 69.
After § 39-15-202(a)-(h) went into effect, the counseling and informed-consent
process at the Memphis health centers stayed largely the same. Now the patient meets with the
patient educator and the physician at her first appointment, “with the addition of making sure that
the physician provide[s] the state-mandated information as well.” Id. at 60. The patient returns at
least 48 hours later for her second appointment, where her medical history and her decision are
“reverif[ied]” before proceeding with the abortion. Id. at 61. Dr. Wallett testified that apart from
the physician providing the patient with the state-mandated information, the only other change is
the addition of a document entitled “Patient Acknowledgement of Physician Counseling” to the
written materials given to the patient at check-in. Id. at 61-63, 65-66, 70; PX1. This document
contains the state-mandated information and is signed by the patient to confirm that she waited at
least 48 hours before obtaining the abortion. See Wallett, Tr. 9/23/19 (Vol. 1) p. 70.
Dr. Wallett testified that the Memphis health centers record patients’ decision
assessments – i.e., the conversation about decision-making and how patients feel about the
decision – in their electronic health records. See id. at 52. These records show whether the patient
“described being confident and clear in her decision”; the patient “describe[d] being sad, angry, or
ambivalent, but clear in her decision to have an abortion”; the patient was “confused, conflicted,
or undecided”; or the patient was “clear that she did not want to have an abortion.” Id. Dr. Wallett
stated that prior to § 39-15-202(a)-(h) taking effect, “most of the patients [at the Memphis health
centers] were very, very clear about their decision at the time that they arrived at the health center.”
Id. at 52-53. She stated that many patients had already consulted with partners, families, friends,
or religious leaders and that they had enough time to consider their options prior to their

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 19 of 136 PageID #: 6527

19a

appointment because “[p]atients start thinking about their options for pregnancy long before they
enter the doors of the health center.” Id. at 53. Information from PPGMR’s electronic health
records shows that before and after § 39-15-202(a)-(h) took effect, “more than 97 percent” of
patients were “confident and clear” in their decisions, and “a very small percentage” of patients
were uncertain. 10 Id. at 57; see also JX53 at 8-9; JX56 at 13; JX57 at 8. Dr. Wallett testified that
“most women are very confident of their decision when they come in to have an abortion” and for
these women, any delay is not medically necessary and has no medical benefit. Wallett, Tr.
9/23/19 (Vol. 1) p. 71, 107. To the contrary, the medical risks increase as gestational age increases.
See id. Women who are uncertain “always have the option to not proceed” with the procedure.
Id. In her experience, having treated thousands of abortion patients, Dr. Wallet has not observed
patients express regret after the procedure. See id. at 144.
After § 39-15-202(a)-(h)’s enactment, wait times for appointments increased. See
id. at 73. Before it took effect on July 1, 2015, patients had to wait one to two weeks between
scheduling the appointment and having the procedure. See id. After it took effect, patients must
wait two to three weeks for the first appointment. See id. They then must wait an additional one
to two weeks between the first and second appointments. See id. at 74. The wait times are
generally longer in Memphis than in Nashville or Knoxville and depend on whether the patient is
receiving a medication or surgical abortion. See id. at 74-75. Increased wait times can affect
patients’ eligibility for a medication abortion or make it impossible for them to have a surgical

10

These percentages are based on data from the Memphis health centers prior to the
PPGMR/PPMET merger on June 1, 2018, and data from all four PPTNM health centers after the
June 1 merger. See Wallett, Tr. 9/23/19 (Vol. 1) p. 58. From November 2013 to June 2015, 99.9%
of patients at PPGMR were clear in their decisions; from July 2015 to January 2018, 99.6% of
patients were clear in their decisions; from February 2018 to July 2018, 98.4% of patients were
clear in their decisions; and from August 2018 to December 2018, 97.4% of patients were clear in
their decisions. See PDX1 (referencing JX53 at 8, JX56 at 12, JX57 at 8).

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 20 of 136 PageID #: 6528

20a

abortion before the facility’s gestational age cutoffs for these procedures expires. See id. at 75-76.
Dr. Wallett noted an increase in the gestational ages in abortion patients after § 3915-202(a)-(h) went into effect. See id. at 92. In 2014, prior to its enactment, 119 women obtained
an abortion in the fourteenth week of pregnancy. See id. at 94; see also JX49 at 14. In 2016, after
its enactment, 215 women obtained an abortion in the fourteenth week of pregnancy, and 45
women obtained an abortion in their fifteenth week of pregnancy. 11 See Wallett, Tr. 9/23/19 (Vol.
1) p. 94; see also JX49 at 14. In 2017, 151 women obtained an abortion in the fourteenth week of
pregnancy, 143 in the fifteenth week, 24 in the sixteenth week, 12 18 in the seventeenth week, and
1 in the eighteenth week. See Wallett, Tr. 9/23/19 (Vol. 1) p. 94; see also JX49 at 14. Dr. Wallett
testified that delays in abortion care increase the procedure’s risks. See Wallett, Tr. 9/23/19 (Vol.
1) p. 95. Delays in abortion care may also negatively affect the health of patients who have certain
medical conditions, such as hypertension and prior uterine surgery, because these patients are at
risk of their condition worsening as gestational age increases. See id. at 95, 97-99; see also JX53;
JX56; JX57.
Dr. Wallett observed that it is “very difficult” for patients to attend two
appointments because each appointment involves handling numerous logistics – i.e., taking time
off from work, arranging childcare, finding transportation, and coordinating with others. Wallett,
Tr. 9/23/19 (Vol. 1) p. 75. In Dr. Wallett’s experience, patients must manage additional logistics
if they are traveling long distances from home to a clinic. See id. at 99-100. Information from
PPGMR’s electronic records database demonstrates that between July 2015 and December 2018,

11

In May 2016, PPGMR increased its gestational age cutoff from 14 weeks and 6 days
LMP to 15 weeks and 6 days LMP. See JX49 at 14.
12

In October 2017, PPGMR increased its gestational age cutoff from 15 weeks and 6 days
LMP to 17 weeks and 6 days LMP. See JX49 at 14.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 21 of 136 PageID #: 6529

21a

with respect to patients who resided within Tennessee, 13 626 patients resided between 50 and 100
miles from the PPGMR or PPTNM facility where they obtained care, and 489 patients resided at
least 100 miles from the PPGMR or PPTNM facility where they obtained care. 14 See JX53 at 9;
JX56 at 13-14; JX57 at 9. With respect to patients who resided outside of Tennessee, 1,087
patients resided between 50 and 100 miles from the PPGMR or PPTNM facility where they
obtained care, and 674 patients resided at least 100 miles from the PPGMR or PPTNM facility
where they obtained care. See JX53 at 9; JX56 at 13-15; JX57 at 9. In addition to involving
additional logistics, attending two appointments puts patients who are victims of intimate partner
violence “at increased risk of having the people who are perpetrators of that violence know why
they’re there and increases the risk of becoming unsafe.” Wallett, Tr. 9/23/19 (Vol. 1) p. 102.
Dr. Wallett testified that § 39-15-202(a)-(h) has created operational difficulties for
the Memphis health centers. See id. at 72. Seeing each patient twice requires additional clinic
hours, clinic time, and staff time. See id. at 72-73, 89. In May 2017 “PPGMR opened a second
health center in Memphis in part to accommodate the increased need for abortion appointments,”
which “helped” but did not significantly reduce appointment wait times. Id. at 77. The Memphis
health centers adjusted their hours and number of appointment slots to fit in as many patients as
possible, and they increased the number of days per week that they performed abortions, from two
days and every other Saturday before the statute was enacted, to four to five days per week after it

13

The data that is from before the merger on June 1, 2018, includes patients at the Memphis
health centers only. The data that is from after the June 1 merger includes patients at all four
PPTNM health centers.
14

In providing this information in response to an interrogatory, PPGMR explained that
“[t]hese distances were calculated using the county of residence of the patient, and the approximate
driving distance from the county seat to the PPGMR health center where that patient obtained
care.” JX53 at 9; JX56 at 14.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 22 of 136 PageID #: 6530

22a

was enacted. See id. at 77, 85. Additional physicians and staff were hired, 15 and the Memphis
health centers increased the gestational age limits for medication and surgical abortions. 16 See id.
at 78, 80-81, 92. By requiring abortion patients to attend two appointments, the statute also caused
the Memphis health centers to increase their prices by approximately $125 per procedure. See id.
at 89, 91; see also PX3; PX4.
The Court finds Dr. Wallett’s testimony to be fully credible and gives it great
weight. She testified convincingly that an abortion is a safe procedure whose risks increase as
gestational age increases, particularly for women with certain medical conditions. Abortion is
“more common” among women with lower incomes. Id. at 46. “[M]ore than 97 percent” of
patients are “confident and clear” in their decisions when they arrive at the Memphis health centers,
which have an extensive informed consent process that remained largely unchanged after § 39-15-

15

Dr. Wallett testified that it is challenging for Planned Parenthood to recruit physicians
and non-physician staff because “[b]eing a physician who works at Planned Parenthood and an
abortion provider in Tennessee is difficult,” and physicians “face a lot of stigma, harassment, and
fear of harassment.” Wallett, Tr. 9/23/19 (Vol. 1) p. 78. Dr. Wallett indicated that she has faced
harassment at the health center and has “not been welcomed into all medical communities in
Tennessee because of the work that I do.” Id. at 78-79. As a result, “Planned Parenthood has
taken many steps to recruit physicians, including sign-on bonuses, moving expenses, repayment
of student loans, support of continuing medical education, paying for travel and transportation.”
Id. at 79. Dr. Wallett stated that “while those things have been somewhat successful, we remain
in a place where additional providers are difficult to recruit.” Id. Non-physician staff members
also face harassment, such as protesters yelling at them as they walk into the clinic. See id. at 80.
Dr. Wallett stated that a protester “appear[ed] at one of our clinics carrying a handgun, which he
is legally allowed to do in Tennessee, but which, of course, sparked a lot of fear in our clinic staff
to continue to walk through those doors.” Id.
16

After the statute in question went into effect, the Memphis health centers increased the
gestational age limit for a medication abortion from 9 weeks LMP to 10 weeks LMP. See Wallett,
Tr. 9/23/19 (Vol. 1) p. 92. As for surgical abortions, in May 2016, the Memphis health centers
increased the gestational age limit from 14 weeks and 6 days LMP to 15 weeks and 6 days LMP.
In October 2017, they increased the gestational age limit to 17 weeks and 6 days LMP. In
December 2017, they increased the gestational age limit to 19 weeks and 6 days LMP. See id. at
81. These changes were made to the gestational age limit for a surgical abortion “to increase
access to abortion in the second trimester.” Id.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 23 of 136 PageID #: 6531

23a

202(a)-(h) was passed. Id. at 57. Patients who are uncertain “always have the option to not
proceed.” Id. at 71, 107. Dr. Wallett has treated thousands of abortion patients, and none has
expressed regret after the procedure. It is “impossible” to know why some patients do not return
for a second appointment because there are many possible reasons for this, which PPGMR and
PPTNM do not track. Id. at 85-87, 114-15, 132, 145-46. Since § 39-15-202(a)-(h) was enacted,
patients must overcome numerous logistics to attend two appointments, especially if they are
traveling long distances, and wait times for appointments have almost tripled (from waiting one to
two weeks between scheduling the appointment and having the procedure to waiting three to five
weeks between scheduling the first appointment and having the procedure at the second
appointment). These delays contribute to a larger number of abortions being performed at later
gestational ages, and this increases the medical risks to patients. Delays may eliminate patients’
eligibility for a medication abortion or for a surgical abortion in Tennessee entirely. The Memphis
health centers’ operational changes to increase abortion access following the enactment of § 3915-202(a)-(h) have not significantly reduced wait times.
Plaintiffs’ next witness was University of Miami professor Kenneth Goodman,
Ph.D., the founder and director of a university ethics institute and the chair of a hospital ethics
committee. See Goodman, Tr. 9/23/19 (Vol. 1) pp. 148-49, 151. Dr. Goodman defined informed
consent, also referred to as valid consent, as “the way by which free people are able to control
what happens to them.” Id. at 163, 165-66. He testified that “[t]he criteria and standards for
informed consent are well established and universally agreed on.” Id. at 154. He explained that
in bioethics, 17 informed consent has five elements:

(1) disclosure, (2) understanding, (3)

17

Dr. Goodman clarified the difference between medical ethics and bioethics. He stated
that “medical ethics applies to the practice of physicians or medics . . . ; that is to say, the actual
act of practicing medicine as opposed to, for example, nursing ethics, which would apply to nursing

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 24 of 136 PageID #: 6532

24a

voluntariness, (4) competence, and (5) consent. See id. at 165. These five elements can be reduced
to three: (1) adequate information, (2) capacity, and (3) voluntariness. See id. at 166-67, 169.
Adequate information refers to information that “a reasonable person would need” to make a
decision.

Id. at 166-67.

Capacity refers to “the ability to understand and appreciate that

information.” Id. at 167. And voluntariness refers to a lack of coercion or undue influence in
agreeing or consenting, in this case, to a procedure. See id. These elements remain the same
regardless of the tools or method used for the informed consent process. See id. at 185.
In the medical context, adequate information may include information about what
the treatment or procedure consists of, as well as its risks, its potential benefits, and alternatives.
See id. at 166, 169. Adequate information is “fundamental to autonomy, i[s] fundamental to selfdetermination, and it undergirds many of the liberties we enjoy in this country.” Id. at 170, 175.
Dr. Goodman indicated that “[s]eeking out the best way to obtain . . . valid consent is a signal of
respect for [a person’s] autonomy and self-determination,” id. at 177, and that informed consent is
a process, as opposed to a specific event, with opportunities to ask questions and to present new
information that is relevant to the decision. See id. at 178. The purpose of having a patient sign
an informed consent form is to document that the exchange of information has been completed
successfully. See id. at 229. Dr. Goodman testified that his views on the essence of informed
consent are shared by leading medical associations, such as the American Medical Association
and American College of Obstetricians and Gynecologists (“ACOG”). See id. at 170-73, 175-78.
Factors that could impact the informed consent process include the complexity of the information;

practice and so forth.” Goodman, Tr. 9/23/19 (Vol. 1) p. 162. Meanwhile, “[b]ioethics is an
inclusive and much larger term, so it would include . . . medical ethics, nursing ethics, [and] human
subjects protection ethics.” Id. “Bioethics has to do with consent . . . to be touched with a good
intention by a trained professional.” Id. at 244.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 25 of 136 PageID #: 6533

25a

a patient’s educational level, language skills, and social and economic status; and the context in
which this process occurs. See id. at 179-80.
Dr. Goodman testified that § 39-15-202(a)-(h) is unnecessary and undermines
“autonomy, [the] doctor-patient relationship, and the very idea of informed consent.” Id. at 189.
He questioned “what problem it was actually designed to solve” because “the laws of Tennessee
and all our states require that informed consent be obtained from patients before medical
interventions.” Id. at 161. Prior to this statute taking effect, plaintiffs were obligated by other
statutes to follow standard professional practices for obtaining informed consent. 18 See id. at 196.
Because these other statutes already require informed consent, Dr. Goodman expressed concern
that the 48-hour waiting period that applies only to abortions undermines patient autonomy and
intrudes on the physician-patient relationship. Id. at 161. Section 39-15-202(a)-(h) has this effect
because “[i]f I’m an autonomous agent and I understand and appreciate the risk of the case, to say,
well, you can’t go through it now, is insulting and patronizing is what I could argue.” Id. at 181.
Regarding the impact of § 39-15-202(a)-(h) on the physician-patient relationship,
Dr. Goodman stated:
I think[] it’s a little bit like requiring the physician to cross . . . her fingers
behind her back and she’s saying, here’s the deal, here are the risks, benefits,
alternatives. The law requires informed consent, and we’ve done this, and
the patient says, I’m ready now, and the physician then has to say, but, as a
18

Dr. Goodman indicated that a different Tennessee statute, Tenn. Code Ann. § 39-15-202
(effective July 1, 2012, to June 30, 2015) applied specifically to abortion and required physicians
to “follow [the] professional practice for consent.” Goodman, Tr. 9/23/19 (Vol. 1) pp. 195-96;
JX2. Subsection (a)(1) provides that “[a]n abortion otherwise permitted by law shall be performed
or induced only with the informed written consent of the pregnant woman, given freely and without
coercion. Such consent shall be treated as confidential.” Goodman, Tr. 9/23/19 (Vol. 1) p. 195;
JX2. Another Tennessee statute, Tenn. Code Ann. § 29-26-118, imposes liability for the failure
to supply appropriate information in obtaining informed consent. See Goodman, Tr. 9/23/19 (Vol.
1) pp. 193-95; JX3. On cross-examination, Dr. Goodman did not dispute that § 29-26-118 sets the
burden of proof for medical malpractice claims and is not designed to regulate the practice of a
profession. See Goodman, Tr. 9/23/19 (Vol. 1) p. 240.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 26 of 136 PageID #: 6534

26a

matter of fact, the law in Tennessee and other states, . . . says, we’re not
done yet. The law says you and I, in this relationship, are inadequately able
to make a decision that meets the criteria for consent. You need to go away
and come back.
Id. 190-91. Regardless of the duration of the delay (i.e., whether it is 24, 48, or 72 hours), a delay
that is “illicit and inappropriate” communicates “that we don’t trust the medical profession to be
able to get this right, even though we’ve managed to license them according to good general
medical practice.” Id. at 191.
The challenged statute “has the effect of undermining the very idea of the informedconsent process,” id. at 161, 181, and “the protections against bodily integrity infringements.” Id.
at 179. Section 39-15-202(a)-(h) undermines the informed consent process because it “suggest[s]
that there is one way, and only one way to do [informed consent]” and that “something else [other
than what is part of standard medical practice] needs to be done.” Id. at 180-81. Further:
If, in fact, for standard medical procedures, a patient needs to be able to
understand and appreciate the information and be capacitated and be
making a voluntary decision, then I do not understand why any addition to
that or complication of that or embellishment of that would either improve
the process, improve the research, or provide for better medical care.
Id. at 161-62. Dr. Goodman testified that “the professional standards [and] the philosophical
underpinnings of informed consent have been effective for protecting the rights of patients if
followed appropriately for a very long time” and “anything that interferes with that is, therefore,
subversion of that bodily integrity.” Id. at 179. Section 39-15-202(a)-(h) “sullies, violates, [and]
impedes an adequate consent process.” Id. at 182.
Dr. Goodman found it to be a “mystery” “[w]hy any particular embellishment or
addition to the standards would be required for one procedure and not another.” Id. at 179. He
testified that “[t]here’s nothing unique at all about abortion that would require an alteration in the
standards for informed consent,” id. at 182, and nothing “ethically distinctive about the role of

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 27 of 136 PageID #: 6535

27a

consent when it comes to abortion,” as compared with other medical procedures, that affects the
standards or validity of the informed consent process. Id. at 193. Dr. Goodman noted the lack of
evidence that imposing a waiting period requirement for abortion, but not other procedures, results
in better outcomes. See id. at 189. He is not aware of another medical procedure “where consent
is discussed in th[e] granularity” required by § 39-15-202(a)-(h). Id. at 221. He stated that “if we
were so concerned about the credibility of the consent process, we would do it before all
neurosurgery, heart surgery, and organ transplant surgery.” Id. at 192-93. The only other
mandatory waiting period requirement he is aware of applies to Medicaid patients desiring to
undergo a sterilization procedure. See id. at 191-92.
Dr. Goodman testified that the statute’s requirements “that take it out of the typical
context of obtaining valid consent” include an in-person meeting, that the physician be present for
the meeting, and a delay in obtaining the procedure after the consent process has been completed
successfully. Id. at 182-83. His concern with the in-person meeting requirement is that there are
many tools for achieving informed consent (e.g., video, video conference, internet), and what is
most effective depends on the patient population. See id. at 183-86. “In other words, there’s no
required algorithm for delivering the situation that’s essential to the consent process.” Id. at 184.
Dr. Goodman’s concern with the component requiring the physician’s presence is that in some
cases, depending on the patient population, this “may actually impede consent,” such as if a patient
is intimidated by a physician’s social standing and profession. Id. at 186. He testified that “there’s
nothing about the integrity of the consent process that requires the physical presence of a physician
[or any particular individual] for its credibility and reliability.” Id. at 186-87. Dr. Goodman’s
concern with the required delay in obtaining the procedure is that this requirement does not seem
to be based on evidence that supports a 48-hour delay “or any number of hour[s] of delay.” Id. at

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 28 of 136 PageID #: 6536

28a

188. Dr. Goodman explained:
[A]ny law that would say that after you’ve obtained consent, after you’ve
had the relationship that’s governed by statute already, after a patient makes
a voluntary autonomous choice, the idea that someone would say, time out
for two days, go away and come back, strikes me as totally undermining the
consent process, the doctor-patient relationship, and what we thought
counted as autonomy.
Id.
Dr. Goodman could think of no benefits to delaying medical care to patients who
have already provided valid consent. See id. He testified that having patients return at least two
days later “is not voluntary” for informed consent purposes. Id. at 225. Dr. Goodman reviewed
plaintiffs’ informed consent process, prior to the enactment of § 39-15-202(a)-(h), and found it to
be “adequate and exemplary.” Id. at 197. He also expressed concern that the process is now
“impeded” by the statute in question. Id. Additionally, “the entire point of the consent process”
is that patients can change their minds if they no longer wish to have a procedure, and this would
be the case even if § 39-15-202(a)-(h) did not exist. Id. at 244.
The Court finds Dr. Goodman’s testimony to be fully credible and gives it great
weight. He testified convincingly that § 39-15-202(a)-(h) undermines patient autonomy, the
doctor-patient relationship, and the informed consent process. Before the statute was enacted,
Tennessee laws already required medical professionals to obtain informed consent before
performing any medical procedure, including abortion. Nothing about abortion requires the
informed consent process to be altered or prolonged, and there is no evidence that a mandatory
waiting period for this medical procedure, but not others, improves outcomes.

Plaintiffs’

procedures for obtaining informed consent were fully adequate before the challenged statute was
enacted. That statute not only does not improve upon those procedures but actually interferes with
obtaining informed consent by imposing a “one size fits all” model on a process that should be

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 29 of 136 PageID #: 6537

29a

tailored to the patient and her individual circumstances. Dr. Goodman’s opinions concerning
informed consent, which the Court adopts, are applicable to all medical procedures and are not
undermined by the fact that the literature on informed consent that Dr. Goodman reviewed for
purposes of forming his opinions did not address informed consent in the context of abortion. Dr.
Goodman testified that in bioethics “the absence of literature on point in a particular case is not an
impediment to arriving at a reasoned decision that can be useful and acclaimed by all parties.” Id.
at 157-58. He stated that “mapping rules” exist for taking “foundational principles, what we’ve
learned about them and their applicability and how best practices follow from them” and applying
them “to a novel case.” Id. at 158.
The executive director of Choices Memphis (“Choices”), Rebecca Terrell, testified
that this organization provides reproductive healthcare services, including medication abortions
up to 10 weeks LMP and surgical abortions up to 15 weeks LMP. See Terrell, Tr. 9/23/19 (Vol.
1) pp. 246-47, 249. In addition to § 39-15-202(a)-(h), Choices is subject to “all the laws that
govern any kind of medical practice or medical care,” regulations specific to abortion care, and
regulations that apply to it as a licensed ambulatory surgical center. Id. at 252-53. Choices’
website provides information about the different procedures, what to expect, and frequently asked
questions. See id. at 269-70.
Terrell testified that most of Choices’ patients are between eighteen and thirty-five
years old and that “[w]e see people from all classes, all races, religions.” Id. at 249. She testified
that Choices has “many lower-income patients,” with about 80% of them qualifying for “some
kind of financial assistance for their [abortion] medical care,” which Choices attempts to obtain
from various sources. Id. at 250, 287-88. Choices helps patients cover the cost of medical care
but not associated costs such as travel expenses or lost wages. See id.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 30 of 136 PageID #: 6538

30a

Prior to § 39-15-202(a)-(h) taking effect, an abortion patient at Choices would have
her vital signs taken, would have her pregnancy confirmed, and would see a trained patient
educator, who is a college graduate. See id. at 254-55. The patient educator would speak with the
patient about how she is feeling, whether she is certain of her decision, and whether she needs
additional information or more time. See id. at 255, 261. The patient educator would describe the
processes for a medication abortion and a surgical abortion, ensure that the patient understood this
information, and ask her which of the two she preferred. See id. at 255. The patient educator
would also gather information that the physician needs prior to treatment. See id. In addition, the
patient educator would discuss family planning options with the patient. See id. at 255. A patient
who decided to proceed with the abortion after the conversation with the patient educator would
then have lab work done, have an ultrasound, and meet with the physician before the procedure
was performed. See id. at 256. The physician would ask the patient if she had any questions, if
she understood the procedure she was there for, if anyone was coercing her, and if she was making
the decision on her own to have the procedure. See id. If appropriate, the physician would then
perform the procedure. See id.
Patient educators would assess decisional certainty through questions and “by
noting any sort of affect or if the patient seemed upset.” Id. This conversation was accompanied
by a written “Patient Concerns Form,” whose format has evolved over time. Id. at 257; see JX36.
The form acts as a “conversational guide,” ensures the completeness of patient educators’
conversations with patients, and allows patients to identify how they are feeling, for example, by
circling depictions of emotions. Terrell, Tr. 9/23/19 (Vol. 1) pp. 257-58; see JX36. Terrell
indicated that
there’s some confusion sometimes about if a patient is upset, that means
she’s not sure she wants a procedure, and that’s not it at all.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 31 of 136 PageID #: 6539

31a

Often, a patient will be upset that this is a decision she wished she might
not have to make or that she wished her partner was more supportive of or
that she wished she knew how she was going to pay for it. It’s a lot of
reasons that they might be emotionally upset and still very confident that
this is the decision that they want to make about the pregnancy.
Terrell, Tr. 9/23/19 (Vol. 1) p. 256-57. The “Patient Concerns Form” is also used to ask patients
about potential stressors, such as financial responsibilities and parenting and family-relationship
issues, in order to identify specific referral needs. Id. at 258-59; see JX36. Choices keeps “an
ongoing rolling list” of referrals or resources “for helping [patients] in other areas of their lives”
that generally patient educators share with patients. Terrell, Tr. 9/23/19 (Vol. 1) p. 259-60; see
PX10.
Terrell testified that “it was standard practice that if . . . patient[s] showed any
reservation, they didn’t get a procedure that day” and would have the option to return on a different
day. Terrell, Tr. 9/23/19 (Vol. 1) p. 261. Patients would “rare[ly]” change their minds on the day
of the procedure, “but they did.” Id. at 264. When this happened, they would not have the
procedure done on that day and would be refunded the cost of any services that were paid for but
not received. See id. Another reason patients might not have the procedure is that they miscarried
after scheduling an appointment. See id. Patients who expressed an interest in carrying the
pregnancy to term would be offered an opportunity to speak with the midwife at Choices. See id.
at 262. When this situation arose before Choices had its own midwifery practice, patients would
be provided with information about resources for prenatal care, parenting classes, baby supplies,
domestic violence, and adoption. See id. at 262-63; see PX9. Terrell testified that Choices has
had patients switch from abortion care to midwifery care, and from midwifery care to abortion
care, “[s]o women are making these decisions, and they are capable of making these decisions.”
Terrell, Tr. 9/23/19 (Vol. 1) p. 262-63.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 32 of 136 PageID #: 6540

32a

Patient educators at Choices would also screen for possible coercion. See id. at
260. Patients who expressed that someone is coercing them were told that “the law protect[s]
them” and that “no one was allowed to coerce them or force this decision on them.” Id. at 260-61.
They would have a private conversation with Choices’ clinic coordinator, and the procedure would
not be performed if they were not comfortable making the decision on their own. See id. at 261.
Patients who decided not to proceed with the procedure would be refunded any fees they had paid,
and Choices would ensure they were safe in leaving the premises. See id.
Before § 39-15-202(a)-(h) took effect, patients would spend five to six hours at the
clinic, with the procedure itself lasting five to ten minutes. See id. at 264-65. The wait time for
an appointment at Choices was between one week and two weeks, and there were no “walk-in”
appointments for abortion care. Id. at 265.
Certain aspects of Choices’ services remained largely unchanged by § 39-15202(a)-(h). A patient still meets with a patient educator at her first appointment, and the substance
of their conversation is “primarily the same.” Id. at 268. The patient educator goes over a revised
version of the Patient Concerns Form with the patient, and the revised form has her write down
how she feels. See id. at 267; see JX34. The patient educator still asks about coercion and topics
such as reproductive life goals, family planning, and the need for assistance with other issues. See
Terrell, Tr. 9/23/19 (Vol. 1) pp. 267-68. Choices continues to provide patients with a list of
resources. See id. at 260. The counseling and informed consent process changed as a result of the
statute in that some of the counseling and informed consent information that was previously
covered by the patient educator is now delivered by a physician. See id. at 265, 267. The only
portion of the state-mandated information Choices would not otherwise provide to patients is that
which relates to possible viability after 22 weeks since conception or 24 weeks LMP. See Terrell,

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 33 of 136 PageID #: 6541

33a

Tr. 9/23/19 (Vol. 1) p. 266; see Tenn. Code Ann. § 39-15-202(b)(3). Terrell explained that because
Choices provides abortion services only until 15 weeks LMP, that information is “irrelevant to our
patients.” Terrell, Tr. 9/23/19 (Vol. 1) p. 266.
At a patient’s second appointment (the day of the procedure), the physician reviews
a form with the patient entitled “Consent for Treatment or Procedure,” which the physician and
patient both sign. Terrell, Tr. 9/23/19 (Vol. 1) p. 269; see JX35. The purpose of this form is to
“make sure, again, that they had their consent, that they understood the procedure, [and] that they
had met with the physician . . . at least, 48 hours prior . . . .” Terrell, Tr. 9/23/19 (Vol. 1) p. 269;
see JX35. After the procedure is performed, a patient may have a follow-up appointment and is
welcome to call the clinic, but Choices does not follow up with patients unless asked to do so. See
Terrell, Tr. 9/24/19 (Vol. 2) pp. 33-34.
With § 39-15-202(a)-(h) in effect, a first appointment at Choices lasts two to four
hours, and a second appointment lasts another two to four hours. See Terrell, Tr. 9/23/19 (Vol. 1)
pp. 268-69. Terrell estimated that overall, “the majority of our patients are waiting, at least, a
week or two for their procedure” from the time they first call the clinic. Id. at 282. Terrell stated
that patients typically wait one week for the first appointment. See id. at 271. Because the second
appointment depends on factors such as preferred method of abortion, gestational age, schedule
openings, and physician availability, the second appointment is scheduled during the first
appointment. See id. Terrell testified that data from Choices’ electronic health records indicates
that § 39-15-202(a)-(h) being in effect “equates to about half of our patients waiting 3 to 6 days
[between the two appointments] and half of our patients waiting . . . 7 to 14-plus days [between
the two appointments].” Id. at 277-78, 281 (summarizing information in JX41, JX43, and JX45).
Terrell stated that “about 10 percent of our patients wait 14 or more days” between appointments.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 34 of 136 PageID #: 6542

34a

Id. at 281 (summarizing information in JX41, JX43, and JX45). Factors that can extend wait times
include appointment availability, as well as patients’ travel distance, ability to take time off from
work, and ability to raise funds, see id. at 281-82, but Choices does not track the reasons that may
contribute to wait times apart from the 48-hour requirement. See Terrell, Tr. 9/24/19 (Vol. 2) p.
35.
Delays in care negatively affect patients with certain medical conditions that make
it more difficult or riskier to have an abortion or to carry a pregnancy to term. See Terrell, Tr.
9/23/19 (Vol. 1) pp. 293-94. These conditions include sickle cell; pulmonary issues, such as
tuberculosis and asthma; hypertension; hematologic disorders; heart problems; endometriosis;
diabetes; and cancer. See id. at 295; see also PX12; PX13; PX14. Choices’ electronic health
records indicate that at least 343 patients reported a medical condition that was affected or
exacerbated by pregnancy. See Terrell, Tr. 9/23/19 (Vol. 1) p. 296 (referring to plaintiffs’
demonstrative exhibits that summarize information in PX12, PX13, and PX14).
Terrell indicated that there are different reasons why patients attend the first
appointment but either do not schedule a second appointment or do not attend it: they could have
a health issue, they could have miscarried, they could have decided to have the procedure
elsewhere, they could have changed their minds, they could have an event at their child’s school,
or they could lack transportation. See id. at 279-80. Choices does not record this information
because it is not relevant to patients’ medical care. See id.; see also Terrell, Tr. 9/24/19 (Vol. 2)
p. 7. Terrell indicated that from December 2017 to February 2018, 10% of patients (46 of its 462
patients) either did not attend or did not schedule a second appointment; that between March and
August 2018, and between September and December 2018, 148 and 83 patients, respectively,
missed or did not make a second appointment. See Terrell, Tr. 9/24/19 (Vol. 2) pp. 12, 14-16

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 35 of 136 PageID #: 6543

35a

(referencing JX28 at 2, JX30 at 2, JX41, JX43, and JX45).
Terrell testified that long travel distances are “a huge barrier” to patients’ access to
care. Terrell, Tr. 9/23/19 (Vol. 1) p. 286. Choices primarily serves residents of Shelby County
(the county in which Memphis is located), but it also serves patients from surrounding counties
and states. See Terrell, Tr. 9/24/19 (Vol. 2) pp. 17-18. As distance increases, the longer the trip
takes and the more costly it is in terms of transportation and/or lost wages. See Terrell, Tr. 9/23/19
(Vol. 1) p. 286. It can be difficult for a patient to get to one of the few abortion providers in the
state “on a good day, and if you have to drive another hundred miles and then back, and then again
for a second visit, some people just can’t do it.” Id. at 287. Data from Choices’ electronic health
records regarding the distance traveled by patients indicates that “approximately 15 or 16 percent
traveled 50 to 99 miles” one way and that “around 12 percent” of patients traveled 100 miles or
more one way. Id. at 283-86 (summarizing information in PX11, JX42, JX44, and JX46). Terrell
testified that § 39-15-202(a)-(h) has “pushed [patients’ access to care] farther out of reach” because
of the “combination of the additional cost with the additional days.” Id. at 286-87.
Terrell stated that Choices sees patients at their first appointment who, because of
their gestational age and the 48-hour waiting period requirement, cannot be seen for their second
appointment before the clinic’s 15-week LMP gestational age cutoff for surgical abortions expires.
See id. at 288-89. Choices’ records indicate that between December 1, 2017, and December 31,
2018, forty-one patients were unable to obtain a medication abortion because of the waiting period,
and fourteen patients were unable to obtain a surgical abortion because of the waiting period.19
See id. at 289-90 (summarizing information in JX47).

19

Terrell indicated that some patients (eleven in March to December 2018) have appeared
at the first appointment who have already missed the 15-week LMP gestational age cutoff for a
surgical abortion. See Terrell, Tr. 9/24/19 (Vol. 2) pp. 14-16; see also JX28 at 4; JX30 at 3-4.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 36 of 136 PageID #: 6544

36a

Terrell indicated that patients are “incredibly distraught” when they learn they
cannot receive a medication or surgical abortion because they are beyond the gestational age
cutoff. Terrell, Tr. 9/23/19 (Vol. 1) pp. at 291-92. Patients have many reasons for preferring a
medication abortion, including that it may be the safest option for them, which means that many
patients are “also very distraught” when they are told that this type of procedure is no longer
available to them. Id. Asked if there is any benefit to “the mandatory delay and two-trip
requirement,” Terrell answered, “None that I know of. . . . It seems intrusive, it seems demeaning,
it seems contrary to the way we practice healthcare in any other field, and I don’t know of any
benefit.” Id. at 296-97.
Terrell testified that § 39-15-202(a)-(h) has negatively affected Choices’
operations. See id. at 272. The clinic has limited physical space, and because each abortion patient
must be seen twice in the clinic, Choices can no longer provide some of its other services, including
fertility assistance, walk-in STI testing, and HIV testing. See id. To alleviate wait times, Choices
has modified its schedule “a dozen times trying to find the best way to accommodate everybody.”
Id. at 272-73. It hired a full-time physician so that it had one physician for “consult days” and
another for “procedure days,” and it also hired a full-time nurse. Id. at 265. Choices has “gotten
relatively efficient within the constraints that we’re operating under”; however, it is not able to see
patients “much sooner.” Id. at 273.
Choices has increased its prices as a result of § 39-15-202(a)-(h) due to the
additional costs involved in a physician seeing each patient twice. See id. at 274-75. Between
January 2013 and August 2019, the price of an abortion at Choices almost doubled. 20 Terrell

20

Effective January 30, 2013, the cost of an abortion was between $425 for an early
surgical abortion and $525 for a later surgical abortion, with a private appointment costing $1,200.
See Terrell, Tr. 9/23/19 (Vol. 1) p. 275; see JX38. Effective March 1, 2018, after § 39-15-202(a)-

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 37 of 136 PageID #: 6545

37a

testified that price increases affect patients’ ability to access services, especially for patients who
are in the lower-income population that Choices largely serves. See id. at 276. For them, “money
is a huge barrier, and it’s why we devote so much of our staff time to helping them find assistance.”
Id. at 276-77.
The Court finds Terrell’s testimony to be fully credible and gives it great weight.
She testified convincingly that the majority of Choices’ patients have lower incomes, with 80% of
its patients qualifying for financial assistance. Choices has an extensive informed consent process
that was in place before § 39-15-202(a)-(h) was enacted. After its enactment, Choices continues
to assess patients’ decisional certainty, screen them for coercion, and give them as much time as
they need to make a decision. The only information that § 39-15-202(a)-(h) requires Choices to
communicate to patients that it would not otherwise provide is irrelevant to them because of its
gestational age cutoff. Consistent with Dr. Wallett’s testimony, Terrell indicated that several
reasons may explain why patients attend a first appointment but not a second, but one important
reason is the increased time and cost caused by § 39-15-202(a)-(h), which requires them to travel
to the clinic twice and pushes access to care “farther out of reach.” Id. at 286-87. Wait times have
been lengthened since the statute was passed, and delays in care negatively impact patients with
certain medical conditions. The 48-hour waiting period requirement imposed by the statute puts
some patients beyond the 10-week LMP gestational age cutoff for medication abortions and
Choices’ 15-week LMP gestational age cutoff for surgical abortions at the time of their second
appointment. Choices’ efforts to accommodate two visits per abortion patient in its physical space

(h) took effect, the cost of an abortion was between $700 for a medication and early surgical
abortion and $800 for a later surgical abortion, with a private appointment costing $2,000. See
Terrell, Tr. 9/23/19 (Vol. 1) pp. 275-76; see JX39. In approximately August 2019, Choices raised
its prices again, with a 12-to-13-week procedure now costing $800 and a 14-to-15-week procedure
now costing $1,000. See Terrell, Tr. 9/23/19 (Vol. 1) p. 276.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 38 of 136 PageID #: 6546

38a

and schedule have not resulted in patients being seen “much sooner.” Id. at 273.
Obstetrician-gynecologist Jessica Young, plaintiffs’ next witness, has provided
abortion care to over one thousand patients in her career, including abortion patients at the
Nashville and Knoxville health centers of PPMET, which later became part of PPTNM. 21 See
Young, Tr. 9/24/19 (Vol. 2) pp. 47, 54. The Nashville health center provides medication abortions
up to 10 weeks LMP and surgical abortions up to 19 weeks and 6 days LMP (the latest gestational
age cutoff that is permitted for surgical abortions in Tennessee). See id. at 55. The Knoxville
health center provides medication abortions up to 10 weeks LMP. See id. PPMET provided
between 2,500 and 3,000 abortions per year at both its Nashville and Knoxville locations. See id.
at 129.
Dr. Young testified that abortion is a common medical procedure in the United
States; about one in four women will have an abortion in her lifetime. See id. at 57. Abortion is
safe, and it is safer than carrying a pregnancy to term. See id. The risks of abortion “in general,
are rare.” Id. at 58. However, certain risks increase as a pregnancy progresses, which means that
“[t]he earlier in pregnancy that an abortion is done, the safer it is.” Id. Therefore, the timing of a
woman’s access to abortion is medically important. See id. at 64. Timing determines which
abortion procedures may be available to a patient. See id. It also affects the effectiveness of a
medication abortion and the potential risks and complications of a surgical abortion. See id. If a
medication abortion is not medically effective, “then a surgical abortion would be recommended,”
which “would require additional visits.” Id. at 102. Regarding the timing of a surgical abortion,

21

Prior to the merger between PPGMR and PPMET, Dr. Young was a contract physician,
and then medical director, at PPMET. See Young, Tr. 9/24/19 (Vol. 2) pp. 46-47. After the
merger, she was associate medical director, and then a contract physician, at PPTNM. See id. at
47.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 39 of 136 PageID #: 6547

39a

the risks “increase as a pregnancy increases, and so as a woman’s pregnancy progresses, it puts
her at increased risk for hemorrhage, uterine perforation, cervical laceration, [and] retained
products of conception.” Id. at 64. Further, after 16 weeks LMP, a surgical abortion becomes a
lengthier procedure, involving an additional visit after the 48-hour waiting period is over “to dilate
the cervix . . . overnight in order to decrease risks of cervical laceration or heavy bleeding during
the procedure.” Id. at 100-01. As a result, patients who are at least 16 weeks LMP must make a
total of three visits to the health center. See id. at 101.
Dr. Young indicated that there are “certain medical conditions that get worse as
time progresses, like hypertension in pregnancy.” Id. at 83. For women who have had a prior
uterine surgery, such as a cesarean section, “the earlier that they have an abortion procedure, the
safer it is for them” because “particularly if they’ve had multiple C-sections, as they get further
along in their pregnancy, their risk of . . . abnormal placentation increases.” 22 Id. at 127. Between
July 2015 and May 2018, PPMET had at least 1,657 patients seeking an abortion who had medical
conditions for which a delay in care put them at increased medical risk. See id. at 125-26; see also
JX54 at 4-5; JX 56 at 7-8.
Dr. Young stated that PPMET had an extensive counseling and informed-consent
process prior to § 39-15-202(a)-(h) taking effect because it is “an important part of medical care
for a patient to get . . . factual information, to get information about risks and benefits. Really, the

22

Dr. Young explained that abnormal placentation is
the placenta growing into the wall of the uterus, and sometimes even
through the uterus, into the bladder. That condition can be very risky. It
can be life-threatening, and as the pregnancy progresses towards term,
patients are at higher risk. They usually need a hysterectomy. They’re at
higher risk for massive hemorrhage and at risk for death.

Young, Tr. 9/24/19 (Vol. 2) p. 127.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 40 of 136 PageID #: 6548

40a

informed-consent process is a cornerstone in a patient being able to make an autonomous decision
and accurate decision about any kind of medical care.” Young, Tr. 9/24/19 (Vol. 2) p. 73. It is
also important that counseling be “based on what an individual needs and desires in their
[particular] situation.” Id. at 79.
A patient who came to PPMET prior to § 39-15-202(a)-(h) taking effect would have
an ultrasound done to determine gestational age and then would meet with a trained patient
educator for thirty to forty-five minutes. See id. at 69-70. The patient educator would discuss the
patient’s medical history and pregnancy options. See id. at 69. The patient educator would ask
the patient about the certainty of her decision and assess the decision by asking how she feels about
it, what she considered during the decision-making process, if there was anything “particularly
hard or stressful” about her decision, what kind of support systems she had, and if there are people
who supported or opposed her decision. Id. at 72. This information would be recorded in a
decision assessment tool, which classifies a patient’s decision into one of four categories:
“confident and clear in their decision; sad, angry, or ambivalent, but clear in their decision;
confused, conflicted/undecided; or does not want to have an abortion.” Id. at 70-71. In addition,
the patient educator would screen the patient for pressure, coercion, and intimate partner violence.
See id. at 69. The patient would be given a packet to review with information about the procedures
for which she was eligible, the risks and benefits of the procedures, and “the informed-consent
form.” Id.
After meeting with the patient educator and completing lab work or anything else
necessary for the procedure, the patient would meet with the physician. See id. at 70. Depending
on the procedure she was having and the complexity of her medical history or individual situation,
this meeting would last ten minutes to an hour. See id. The physician would review the patient’s

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 41 of 136 PageID #: 6549

41a

medical history with her, as well as her decision and the decision assessment tool. See id. The
physician would screen the patient for decisional certainty by asking some of the same questions
as the patient educator and making sure her answers were consistent with the information recorded
in the decision assessment tool. See id. at 70, 73. The physician also would answer the patient’s
questions and make sure the informed consent form was signed. See id. at 70. “[I]f the physician
was certain that the patient was positive of [her] decision,” the physician would perform the
procedure. Id. at 70-71. However, the physician would not proceed if the patient was unsure of
her decision. See id. at 79. In that event, the patient “would be given more time to decide, to
become more clear, or to make a different decision.” Id.
Regarding the decision assessment tool, Dr. Young testified that in the first two
categories – “confident and clear in their decision” and “sad, angry, or ambivalent, but clear in
their decision” –
the patient is clear that this is the decision that’s best for her. But the second
category, the sad, angry, or ambivalent category, reflects the emotional
context that a patient may be bringing to the encounter, so they may be
certain in their decision but feel sad or feel angry or have other kinds of
external things that are bothering them about the decision, but they still
know that’s the decision they want and feel confident that that’s what they
need to have.
Id. at 71.
Since § 39-15-202(a)-(h) was enacted, each patient is now required to make two
visits to the health center that are at least 48 hours apart. 23 At the first visit, the patient has an

23

Dr. Young testified on cross-examination that prior to § 39-15-202(a)-(h) taking effect,
medication abortions required two visits: one visit to get the pills, and a second visit to make sure
there were no remaining products of conception. See Young, Tr. 9/24/19 (Vol. 2) pp. 148-49. Dr.
Young indicated that making two trips “was [the patients’] choice if they chose that procedure”
and that “[f]or some people who had to travel distances, their follow-up visit could be arranged
closer to home.” Id. at 149. She added on redirect that the follow-up appointment did not delay
the actual procedure and that “there was flexibility in the timing when they could come in for that

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 42 of 136 PageID #: 6550

42a

ultrasound and lab work, provides her medical history, and meets with the patient educator for
counseling. See id. at 80. She then hears the scripted “48-hour statement” from the physician,
who reviews her medical history and decision-making with her. Id. Dr. Young indicated that
“[e]verything was the same [as before] except for the 48-hour statement in counseling,” id., and
except for patients having to listen to state-mandated information that “may not have been relevant
to them.” Id. at 82. At the second visit, the patient has a “repeat ultrasound” and “repeat labs”
depending on how much time has elapsed since her first visit. Id. at 81. Her vital signs are retaken, and her medical history is reviewed for changes. See id. The patient meets with the patient
educator, who reviews how she is feeling about her decision, and the patient signs a 48-hour
consent form. See id. Next, the patient meets with the physician, who also reviews her decision
another time, and then the procedure takes place. See id.
Dr. Young stated that both before and after § 39-15-202(a)-(h) took effect, “all
patients meet one-on-one with the physician” and are “screened by trained staff and counselors for
red flags, for uncertainty and indecision, and . . . for coercion.” Id. at 82-83. There are also
differences. Before § 39-15-202(a)-(h) existed, counseling was “tailored to meet the needs of the
individual patients in terms of where they are in their decision-making process” and the timeline
“was according to the patient’s best interests and needs.” Id. at 81-82. But since its enactment
patients are required to attend two appointments, even though for some it would have previously
been handled at one visit, and “all patients have to wait, regardless of their certainty, regardless of
their individual situation.” Id. The informed-consent process before the statute’s enactment was
similar to that of other outpatient medical procedures. After it took effect, “there is really no other
medical procedure in Tennessee other than abortion that has a blanket waiting period for all

second appointment.” Id. at 169-70.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 43 of 136 PageID #: 6551

43a

patients.” Id. at 82.
According to Dr. Young, before § 39-15-202(a)-(h) was enacted, “[t]he vast
majority of patients . . . were firm in their decision.” Id. at 73. She indicated that it was common
for patients to have discussed their decisions with their partner, family, friends, pastor or church
support person, or gynecologist or internal medicine physician prior to their appointment. See id.
at 74. Patients took their decision-making seriously before coming to the health center and had
sufficient time to consider their options. See id. at 75. Dr. Young stated: “In my experience,
patients have thought very much and were very certain about their options and their decision about
their pregnancy prior to even making an appointment for an abortion.” Id. She stated that regret
“is not common after abortion” and that this has been studied. Id. at 169.
Data from PPMET and PPGMR show that from October 2014 to May 2018, “the
majority of women were confident and clear in their decision to have an abortion” and “the vast
majority of women, even if they were sad, angry, or ambivalent, . . . were still clear about their
decision to have an abortion.” Id. at 78; see also JX54; JX56. Between October 2014 and June
2015, “over 99 percent of patients were clear about the decision,” and “[i]n the latter two time
periods [i.e., July 2015 to January 2018, and February 2018 to May 2018], 96 percent of those
patients were clear in their decision.” Young, Tr. 9/24/19 (Vol. 2) p. 78; see also JX54 at 8-9;
JX56 at 12-13. From October 2014 to June 2015, 99.8% of patients were clear in their decisions;
from July 2015 to January 2018, 96% of patients were clear in their decisions; from February 2018
to May 2018, 96.3% of patients were clear in their decisions. See PDX17 (referencing JX54 at 89, JX56 at 12-13). Dr. Young indicated that between October 2014 and June 2015, 0.2% of patients
were conflicted about their decisions to have an abortion; between July 2015 and January 2018,
4% were conflicted; and between February 2018 and May 2018, 3.7% were conflicted. See Young,

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 44 of 136 PageID #: 6552

44a

Tr. 9/24/19 (Vol. 2) p. 78; see also JX54 at 8; JX56 at 12. In addressing this increase in percentage
of patients who were conflicted, Dr. Young indicated that the first time period was before the
enactment of § 39-15-202(a)-(h) and the other two were after its enactment. See Young, Tr.
9/24/19 (Vol. 2) p. 78. She testified that after it was enacted she saw more women come
to their first abortion appointment visit, that day-one visit, not having made
up their minds yet or still considering their options, and that many of them
expressed that that was because . . . they knew they had to wait and there
would be a delay in making . . . the next appointment, and they wanted to
have their options open, given that they needed to do this 48-hour
counseling prior to having a procedure.
Id. at 79; see also id. at 168-69 (stating that the data reflected “an increased number of women
who presented for day one who were conflicted or undecided after the delay law than before the
delay law”). In Dr. Young’s opinion, “[i]t is always good to learn about a procedure you’re having,
but that doesn’t mean that there needs to be a delay between learning that information and actually
getting the procedure.” Id. at 146.
On cross-examination, Dr. Young indicated that between June 13, 2013, and June
30, 2015 (before § 39-15-202(a)-(h) was enacted), 282 patients received an abortion-related
ultrasound at PPMET but did not return for an abortion. See id. at 134-35; see JX54 at 10. Between
July 1, 2015, and January 31, 2018 (after the statute was enacted), approximately 982 patients
received an abortion-related ultrasound at PPMET but did not return for an abortion. See Young,
Tr. 9/24/19 (Vol. 2) pp. 134-35; see JX54 at 2, 10. PPMET does not record why patients do not
return. See Young, Tr. 9/24/19 (Vol. 2) p. 134; see JX54 at 2. However, Dr. Young explained on
redirect that “there could be multiple reasons” why a patient does not return for a second
appointment:
One could be that a miscarriage was diagnosed at the time of her first visit,
or that she had a subsequent miscarriage between the time of her first visit
and the time of her second visit. She could have had an ectopic pregnancy

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 45 of 136 PageID #: 6553

45a

diagnosed at that first visit or be undergoing evaluation for an ectopic
pregnancy. She could have transportation barriers, she could make an
appointment somewhere else out of state; various things . . . that would
make her not come to that second appointment.
Young, Tr. 9/24/19 (Vol. 2) p. 167.
Dr. Young testified that approximately 60% to 70% of patients at the PPMET health
centers live below or close to the poverty line. See id. at 91. National data reflects that 75% of
abortion patients have low incomes, and the main reasons patients report for seeking abortion
services are “their income, their ability to support a child, their work responsibilities, [and] their
responsibilities for dependents.” Id. Lower-income women “have less access to contraception,
[and] less access to medical services in general.” Id. at 92. Dr. Young stated that “although
nationally[] abortion trends are declining, over the past decade, abortion trends have increased for
our lowest-income women.” Id. at 92, 94-95.
Dr. Young testified that the costs associated with an abortion affect low-income
patients’ ability to access care. She indicated that patients must pay for the abortion procedure,
“and in Tennessee, they are very unlikely to have insurance coverage for that, particularly if they
have state-funded insurance.” Id. at 92. The cost of an abortion increases as gestational age
increases. See id. at 93. “[S]ometimes women will delay seeking abortion care because they are
trying to scrape together the funds to pay for the abortion,” but “if they wait too long, that cost
increases, so it can become a cycle where they’re having to raise more money.” Id. Patients also
must cover travel costs, which may involve borrowing a car or taking a bus. See id. at 92. Patients
“may have to take off of work, and many of our lower-income women do not get paid time off or
paid sick leave, and so not going to work reduces the amount of money that they take home that
week or that month.” Id. Additionally, because “[m]any women who seek abortion care are
already parents,” patients may have to pay for childcare in order to attend their appointments. Id.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 46 of 136 PageID #: 6554

46a

at 92-93. Dr. Young testified that patients with low incomes “have to make trade-offs” to cover
the cost of abortion care: “sometimes that’s a trade-off with food, other bills that they go behind
on paying, whether it’s rent or . . . car payments, that sort of thing.” Id. at 93. Because of
difficulties getting time off from work or arranging travel for a first appointment, “sometimes they
can’t get off work again or arrange travel again for sometimes weeks after that initial first
appointment.” Id. at 94. Women who are victims of intimate partner violence may have difficulty
scheduling appointments and paying for the procedure because of their partner’s surveillance and
control over their whereabouts, telephone, and income. See id. at 120-21, see also id. at 151-52
(“[F]or women in an abus[ive] relationship, in general, her ability to make appointments, to come
to appointments, to pay for an abortion, can be extremely limited.”).
Dr. Young stated that “abortion provider availability is [geographically] limited” in
Tennessee. Id. at 89. Tennessee has eight clinics 24 in four cities: Memphis, Nashville, Knoxville,
and Johnson City. Id. Dr. Young indicated that “96 percent of Tennessee counties[] . . . do not
have an abortion clinic,” id. at 89-90, and “63 percent [of women] . . . live in a county where there
are no abortion providers.” Id. at 88. “This significantly affects a patient’s ability to access care”
because “[i]t forces [a patient] to travel sometimes significant distances in order to get abortion
care.” Id. at 90. Given these limitations in terms of the number of providers within the state and

24

When asked to compare the number of health centers in Tennessee with the number that
existed in Pennsylvania when the Supreme Court upheld its 24-hour waiting period in Casey, Dr.
Young stated that Tennessee has eight clinics, whereas Pennsylvania had eighty-one abortion
providers in 1992, which means that there is “a very different makeup in terms of provider access
and provider availability for the women in Tennessee.” Young, Tr. 9/24/19 (Vol. 2) p. 90. On
cross-examination, Dr. Young clarified that she believed the calculation of Pennsylvania providers
also included smaller OB/GYNs or hospitals that performed abortions, which were not included
in the calculation of Tennessee providers. Id. at 162. The Court takes judicial notice of the fact
that Tennessee and Pennsylvania are similar in size; Tennessee is 42,144 square miles, and
Pennsylvania is 46,054 square miles. See https://www.census.gov/geographies/referencefiles/2010/geo/state-area.html (last visited September 25, 2020).

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 47 of 136 PageID #: 6555

47a

the number of counties with no abortion provider, prior to § 39-15-202(a)-(h) “it was difficult for
many patients to come to even [a] first appointment.” Id. at 93.
The distance abortion patients must travel depends on where they live and what
kind of procedure they are going to have; patients may need to travel to a facility that is farther
away than the one closest to them to obtain a certain type of procedure. See id. at 95. Between
July 2015 (when § 39-15-202(a)-(h) was enacted) and May 2018, PPMET had 539 patients who
were Tennessee residents who had to travel 50 to 100 miles to obtain an abortion; 500 patients
who were Tennessee residents who had to travel more than 100 miles; approximately 1,000
patients who were non-Tennessee residents who had to travel 50 to 100 miles; and 800 patients
who were non-Tennessee residents who had to travel over 100 miles. See id. at 95-96; see JX54
at 9; see JX56 at 13-14.
Because Tennessee has so few abortion providers, “at baseline without . . . a delay
law” resources are strained, procedure availability is limited, and there are delays in getting an
appointment. Id. at 90-91. With the enactment of § 39-15-202(a)-(h), which requires each patient
to make two visits, there are also delays in obtaining a second appointment. See id. at 91. Dr.
Young stated: “What we saw following the delay law is that the length of delay increased, and
that was driven primarily by the two visits, so the adding [of] an additional visit that a patient
needed to be seen in order to obtain care.” Id. at 97. Before the statute was enacted, patients were
often able to schedule an appointment to have the procedure done within one week. See id. at 98.
After the statute was enacted, patients who call the Nashville or Knoxville health center to schedule
an abortion must wait one to three weeks for the first visit. See id. at 97, 99. Patients then must
wait an additional two to twenty-three days for the second appointment if they are having a
medication abortion, and often over one week if they are having a surgical abortion. See id.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 48 of 136 PageID #: 6556

48a

However, Dr. Young stated that “for some patients, th[e] delay would be increased as long as a
month for the first appointment and as long as two [to four] weeks for th[e] second appointment.”
Id. The duration of the wait depends on factors such as clinic volume, time of year, provider
availability, staffing issues, and health center (Nashville or Knoxville). See id. at 97-98.
Dr. Young indicated that because women sometimes discover they are pregnant in
the 4-to-10-week LMP range, the wait for a first appointment can place patients “beyond the point
where they are eligible for a medication abortion.” Id. at 99-100. After 14 weeks and 6 days LMP,
a surgical abortion is only available in Nashville and Memphis, which “further limits the care that
a patient can receive and increases travel and other burdens associated with potential distance.”
Id. at 100. After 19 weeks and 6 days LMP, a patient in Tennessee must travel out of state to
receive abortion care. See id. at 101.
After § 39-15-202(a)-(h) went into effect, Dr. Young “saw an increase in the
gestational age at which abortions were obtained at PPMET, and . . . also saw a decrease in the
number of medication abortions, which indicates also that pregnancies were being terminated later
on beyond th[e] cutoff for medication abortion.” Young, Tr. 9/24/19 (Vol. 2) p. 108. In particular,
“PPMET has seen an increase in second trimester abortions.” 25 Id. at 110; see also PX2. This
increase is reflected in data from PPMET’s electronic health records, which is consistent with
statewide data on induced termination of pregnancy from the Tennessee Department of Health. In
PPMET’s fiscal year 2015 (ending on June 30, 2015, before the statute’s enactment), 6.3% of
abortions were obtained between 12 and 13.6 weeks LMP; 3.64% were obtained between 14 and
15.6 weeks LMP; and 0.3% were obtained at 16 weeks LMP or later. See Young, Tr. 9/24/19

25

“The second trimester of pregnancy is considered between 14 to 28 weeks.” Young, Tr.
9/24/19 (Vol. 2) p. 100.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 49 of 136 PageID #: 6557

49a

(Vol. 2) pp. 110-11; see also PX2. In fiscal year 2016 (after the statute’s enactment), 7.2% of
abortions were obtained between 12 and 13.6 weeks LMP; 4.72% were obtained between 14 and
15.6 weeks LMP; and 1.48% were obtained at 16 weeks LMP or later. See Young, Tr. 9/24/19
(Vol. 2) pp. 110-11; see also PX2. In fiscal year 2017 (before PPEMT increased its gestational
age cutoff), 8.9% of abortions were obtained between 12 and 13.6 weeks LMP; 5.4% were
obtained between 14 and 15.6 weeks LMP; and 4.1% were obtained at 16 weeks LMP or later.
See Young, Tr. 9/24/19 (Vol. 2) pp. at 110-11; see also PX2. Dr. Young stated that according to
the Tennessee Department of Health’s data on induced termination of pregnancy, in 2014 (before
§ 39-15-202(a)-(h)’s enactment), 5.3% of abortions were obtained between 13 and 14 weeks LMP;
and 1.3% of abortions were obtained between 15 and 20 weeks LMP. See Young, Tr. 9/24/19
(Vol. 2) pp. 111-13; see also JX19. In 2016 (after the statute’s enactment), 8.1% of abortions were
obtained between 13 and 14 weeks LMP; and 3.1% of abortions were obtained between 15 and 20
weeks LMP. See Young, Tr. 9/24/19 (Vol. 2) pp. 112-13; see also JX 21.
According to Dr. Young, an increase in second trimester abortions is medically
significant because an abortion performed at a later gestational age involves more risks and a
longer and more painful procedure. See Young, Tr. 9/24/19 (Vol. 2) p. 113. In addition, patients
with certain medical conditions who can safely have a surgical abortion in the first trimester in an
outpatient setting will “no longer [be] eligible for an outpatient procedure and must either have an
inpatient procedure or be referred out of state for a procedure.” Id. at 113-14. These patients
include those with “significant anemia” and who take anti-coagulation medication for pulmonary
embolism or deep vein thrombosis, which worsens during pregnancy. Id. at 114. Since § 39-15202(a)-(h) went into effect, the number of patients Dr. Young has had to refer to a hospital for a
second trimester abortion has increased. See id. at 114-15. An inpatient surgical procedure is

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 50 of 136 PageID #: 6558

50a

more expensive than an outpatient procedure, and an abortion patient typically must pay for the
procedure out-of-pocket because most patients do not have insurance that covers it. An outpatient
surgical procedure costs about $600 to $2,000, and an inpatient procedure costs about $6,000 to
$12,000. See id. at 115.
After § 39-15-202(a)-(h) went into effect there also “was a decrease in the number
of patients who were obtaining abortions early in pregnancy.” Id. Dr. Young indicated that
statewide data from the Tennessee Department of Health shows that in 2014, 65.1% of abortions
occurred at 8.6 weeks LMP or earlier; and in 2016, 56.5% of abortions occurred at 8.6 weeks LMP
or earlier. See id. at 115-16; see also JX19; JX21. Between 2014 and 2016, there was a decrease
in medication abortions by over 200 patients. See Young, Tr. 9/24/19 (Vol. 2) p. 167. After the
statute went into effect, “[f]requently, if not every day,” and at least “several times a week” “we
had abortion day-one visits” where a patient strongly preferred a medication abortion but was
beyond the gestational age cutoff. Id. at 116-17. This happened despite the fact that PPMET had
expanded the gestational age cutoff for medication abortions from 9 to 10 weeks LMP. See id. at
117. After the Nashville health center expanded the gestational age cutoff in February 2015 “there
was a 13 percent increase” in medication abortions, and following the enactment of § 39-15202(a)-(h) “our medication abortion rates decreased by 20 percent.” Id. The Knoxville health
center expanded the gestational age cutoff in July 2015, 26 the same month the statute took effect,
“so the Knoxville center did not see an increase in medication abortion from that increased
eligibility, but rather saw a 16 percent decrease in medication abortion, in general.” Id.

26

Regarding why the expansion in the gestational age cutoff for medication abortions was
implemented at different times at PPMET’s health centers, Dr. Young explained that “[i]t was
common for us [and common in medicine] to make a practice change at one clinic, trial it before
we branched out to the other clinic.” Young, Tr. 9/24/19 (Vol. 2) pp. 117-18.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 51 of 136 PageID #: 6559

51a

Dr. Young indicated that there is a preference among patients for medication
abortions; “in some studies, patients prefer medication abortion up to 70 percent of the time.” Id.
at 61. At the Nashville health center, which provides both medication and surgical abortions,
“patients expressed strong preferences for medication abortion” and “approximately 70 percent of
abortions are medication abortions.” Id. Reasons for this preference include that the process of a
medication abortion “mimics the natural process of a miscarriage,” which some women find more
comfortable, and that some patients have a strong desire to avoid a surgical procedure, as well as
IVs, anesthesia, and “additional medical interventions beyond taking pills.” Id. at 61-62. Patients
with a history of sexual trauma often choose a medication abortion to avoid a pelvic exam or pelvic
instrumentation because they find pelvic exams traumatizing. See id. at 62. In some cases, a
medication abortion is the medically preferred option, such as for patients who have large uterine
fibroids and patients with certain immunological conditions. See id. at 62-63. For patients who
have “a strong preference” for a medication abortion but cannot have one because they are beyond
10 weeks LMP, “it can be traumatizing to have to go through a surgical procedure.” Id. at 63.
Studies show that women who are unable to access an abortion from a medical
professional are at a higher risk of trying to have an “illegal, or unsafe, abortion,” which may
involve using medications obtained through the Internet or “other kind[s] of illegal channels” to
try to induce a miscarriage. Id. at 65. Women forced to carry an unwanted pregnancy to term
instead of having an abortion also face medical risks. A vaginal delivery or cesarean section
involves increased risks of hemorrhage, increased risks of infections, and increased risks of
preeclampsia or eclampsia that Dr. Young described as “life-threatening hypertensive disorders of
pregnancy.” Id. at 66-67.
In addition to giving rise to increased medical risks, carrying an unwanted

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 52 of 136 PageID #: 6560

52a

pregnancy to term can negatively impact financial stability. See id. at 67. A study that examined
“achievement of aspirational one-year plans after women presented wanting an abortion, but were
unable to have one due to being past the gestational age limit,” found that “those women who were
unable to get the abortions they desired were more likely to have financial instability and to not
achieve their one-year goals when they were looked at a year later.” Id. at 67-68. For women who
are victims of intimate partner violence, being forced to carry an unwanted pregnancy to term “can
link them to their abuser for the rest of their lives, and it can make it more likely for them that that
physical violence will continue.” Id. at 68, 120-21.
Dr. Young testified that § 39-15-202(a)-(h) “does not provide any benefits to
patients as the majority of patients are certain in their decision prior to stepping foot in the clinic
for the first time.” Id. at 57. Before its enactment, patients who needed more time “took extra
time,” and the procedure “was scheduled to their individual situation.” Id. at 84. After the statute
was enacted, patients who are conflicted and undecided at their first visit, and who decide to have
the procedure, are “more certain and clear” at their second visit. Id. at 85. However, Dr. Young
pointed out that these same patients “would have waited” and “wouldn’t have had a procedure that
day” if they had come to the health center prior to the law taking effect. Id. Regardless of the
timeframe and whether the mandatory waiting period is 48 or 24 hours, “the barriers and burdens
are still the same and still there” because the law “still requires additional time when the vast
majority of patients do not need additional time to continue to . . . assess their decision.” Id. at 8586. Moreover, “[i]t still affects patient autonomy, it affects the ability for women to access
abortion care when they need it, and it impacts the patient-physician relationship.” Id. at 128-29.
Dr. Young testified that § 39-15-202(a)-(h) “causes significant stress and anxiety
regarding the abortion experience.” Id. at 118. “It’s distressing for women to have to wait when

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 53 of 136 PageID #: 6561

53a

they have made a decision that they are certain about.” Id. at 83. The requirement to wait is also
distressing and traumatizing for women who are in abusive relationships, 27 whose pregnancy is
the result of rape, 28 and who have a fetal anomaly diagnosis, which often happens “later in
pregnancy” (i.e., beyond 16 weeks LMP, putting them closer to PPTNM’s gestational age cutoff
than the general patient population). Id. at 83, 119-20.
Dr. Young testified that § 39-15-202(a)-(h) “negatively impacts patient autonomy
because it questions a woman’s ability to make a careful and thought-out decision without state
intervention.” Id. at 128. The statute negatively affects the physician-patient relationship because
[i]t undermines that patient-centered encounter between the patient and the
physician, where the patient [sic] isn’t able to individualize the care that that
patient needs. It also implies to the patient that the physician thinks that the
patient needs more time to consider their decision, so that it makes it seem
like the physician doesn’t trust the patient, that the clinic doesn’t trust the
patient to make the best decision for her and her family.
Id. at 127-28.
Dr. Young opined that “there is no benefit” to the requirement that a patient receive
certain state-mandated information in person from a physician. Id. at 85. She stated that there is
nothing in that information that must be communicated by a physician, and this requirement
therefore “is a burden because [it] limits the type of provider that can give that information” and

27

PPMET’s electronic health records indicate that between July 1, 2015, and July 31, 2018,
sixty-two patients reported being victims of intimate partner violence. See JX54 at 7; JX56 at 11.
Dr. Young indicated that the number of patients “is likely to be an underestimate, as we know that
women underreport their exposure to domestic violence or intimate partner violence.” Young, Tr.
9/24/19 (Vol. 2) pp. 121-22; see also JX54 at 7; JX56 at 11.
28

On cross-examination, it was disclosed that PPMET’s medical records identified fifteen
victims of rape or incest between July 1, 2015, and January 31, 2018. See Young, Tr. 9/24/19
(Vol. 2) p. 135; see also JX54 at 6-7. On redirect, Dr. Young indicated that based on her
experience, this number “would be an underestimate” because “[w]e know that women underreport
sexual assaults and rape.” Young, Tr. 9/24/19 (Vol. 2) p. 169.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 54 of 136 PageID #: 6562

54a

limits patients’ access to care. Id. Dr. Young testified that reading a patient state-mandated
information that may be irrelevant to her has a negative impact on the physician-patient
relationship:
[I]nformation that is irrelevant but required to be given by the physician
undermines patient trust in that relationship. Patients may think that the
physicians themselves desire or think that that information should be given
to them, even though we say that it’s state-mandated information. And
because patients do not want to wait, they do not want to have a delay, it
causes feelings of anger and anxiety that they direct towards the clinic and
the provider sometimes.
Id. at 84. In sum, Dr. Young opined that § 39-15-202(a)-(h)
imposes a burden on women in a few ways. It decreases their access to
abortion care. It increases both their travel time, their expense. It increases
burdens in terms of having to obtain childcare and just general logistical
scheduling of the multiple visits that this law requires.
This law is also demeaning to women and implies that women have not
thought clearly and completely about their decision to obtain an abortion
prior to making an appointment or prior to coming to that first visit.
Id. at 56-57.
Regarding the “medical emergency” exception in § 39-15-202(f), Dr. Young
testified that “[i]t is a very narrow exception and really only provides an exception in extreme
medical emergencies.” Id. at 122-23. She has never encountered a patient in the outpatient setting
with a condition that would fall under this exception, and in her experience this exception would
not apply to “[m]ost patients who present to outpatient health centers” because they “are not at risk
of immediate death or irreversible impairment of major bodily function.” Id. at 123-24. Dr. Young
opined that patients could have serious medical conditions that would not fall under this exception.
For example, hypertension that worsens during pregnancy and becomes severe may put women
“at risk for stroke or heart attack or other complication of high blood pressure,” but it would not
fall under the exception because they would not be at risk of immediate death. Id. Hyperemesis

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 55 of 136 PageID #: 6563

55a

gravidarium – a condition that involves severe nausea and vomiting due to pregnancy, may cause
electrolyte imbalances, and “may require multiple hospitalizations, IV, antinausea medications, . .
. and in severe cases, . . . a feeding tube” – negatively impacts women’s health and well-being, but
it would not fall under this exception either. Id. at 124. That under § 39-15-202(h) a physician
faces criminal penalties or risks suspension or revocation of her license “significantly impacts” a
physician’s ability to determine whether a condition falls within the medical emergency exception
out of fear of these potential consequences. Id. at 170-72. “[H]aving a serious penalty because of
[someone calling into question your medical judgment] is paralyzing and limiting.” Id. at 170.
After the statute was enacted PPMET took steps in an attempt to reduce wait times
for abortion appointments. It made several changes to its schedule, “including adding patient slots
. . . to try to accommodate more patients.” Id. at 103; see also JX50 at 25-26. It increased the
number of days that abortions were provided from three to four days per week (before § 39-15202(a)-(h) was enacted) to six days per week. See Young, Tr. 9/24/19 (Vol. 2) p. 103; see also
JX50 at 25-26. This helped alleviate “the longer ends of the wait times, but it never brought wait
times back to what they were prior to the delay law.” Young, Tr. 9/24/19 (Vol. 2) p. 103; see also
JX50 at 25-26. PPMET added at least six new abortion physicians 29 after § 39-15-202(a)-(h) took
effect, as well as nurses, medical assistants, and patient educators, and it created a full-time medical
director position, which Dr. Young held. See Young, Tr. 9/24/19 (Vol. 2) p. 104; see also JX50
at 25-26. PPMET “doubled the front-desk staff to increase check-in time and to decrease time

29

Dr. Young testified that Planned Parenthood has difficulty recruiting physicians in
Tennessee because “[t]here is a stigma against the provision of abortion care in Tennessee,” and
“[m]any physicians work for institutions that prohibit them from providing abortion care in any
kind of other available time that they might have to provide those services.” Young, Tr. 9/24/19
(Vol. 2) p. 104. She stated that it is easier to find a local provider in Nashville than in Knoxville,
but “there is still a need that is unmet in terms of abortion provision.” Id. at 105.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 56 of 136 PageID #: 6564

56a

patients were waiting for that front-desk check-in period.” Young, Tr. 9/24/19 (Vol. 2) p. 104; see
also JX50 at 25-26. As with the additional abortion procedure days, “the addition of staff
decreased the longer delay times, but never made the delay times equivalent to what they were
before the delay law.” Young, Tr. 9/24/19 (Vol. 2) p. 105.
Another way in which PPMET “tr[ied] to combat” longer wait times was by
increasing its gestational age cutoff for abortion services. Id. In August 2017, the surgical abortion
cutoff was increased from 17 weeks and 6 days LMP to 19 weeks and 6 days LMP. See id. at 10506. To implement this change, PPMET had to recruit trained providers, train staff, and obtain
additional equipment. See id. at 106. This change helped alleviate the problem of patients being
past the gestational cutoff “somewhat, but patients continued to miss the cutoff, even with the
expansion of the gestational age.” Id. at 107-08.
The Court finds Dr. Young’s testimony to be fully credible and gives it great
weight. She testified convincingly that PPMET had a thorough and individualized informed
consent process before the statute was enacted, and “over 99 percent of patients were clear about
the[ir] decision[s].” Id. at 78. Since it took effect, all patients are subjected to the mandatory
waiting period without consideration of their individual situations, which undermines patient
autonomy and the physician-patient relationship, regardless of whether the waiting period is 24 or
48 hours. The medical emergency exception, which carries serious penalties for physicians, is
extremely narrow and inapplicable to nearly all patients in the outpatient setting. PPMET made
minimal changes to its informed consent process to comply with the statute’s requirements, such
as having patients listen to state-mandated information regardless of its relevance. Id. Patients
who are certain of their decisions experience distress from having to wait for the procedure, and
those who are uncertain take more time to make a decision, just as they did before the statute was

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 57 of 136 PageID #: 6565

57a

enacted. Post-abortion regret is uncommon, and Dr. Young saw more undecided patients at first
appointments after the statute took effect because of its required waiting period. The majority of
abortion patients at PPMET’s health centers (60% to 70%) and nationwide (75%) have low
incomes, and low-income women have difficulty attending two appointments because of logistics
and because the cost of the procedure and associated expenses require them to make “trade-offs.”
Id. at 93. The geographic distribution of the eight abortion providers in just four cities in Tennessee
makes it difficult for patients to attend even one appointment.
Further, abortion is a common procedure that is safer than carrying a pregnancy to
term. Its risks are rare, but they increase as the pregnancy progresses, making the timing of an
abortion medically significant. Timing also affects the effectiveness of a medication abortion and
patients’ eligibility for this procedure, which is strongly preferred by 70% of patients and is the
medically preferred option in some cases. Following the statute’s enactment, the number of
medication abortions at PPMET decreased, and the gestational age at which abortions were
obtained increased. Second trimester abortions are not only riskier, particularly for patients with
certain medical conditions, but they are also longer, more painful, riskier, and more expensive than
earlier abortions. Before § 39-15-202(a)-(h) was enacted, patients could obtain the procedure
within one week of scheduling their appointment; after its enactment, patients must wait up to two
months for the procedure. The delay caused by the statute in question makes medication abortion
unavailable in many cases, requiring patients to seek a surgical abortion instead, a procedure
available at just two clinics (in Nashville and Memphis) up to 19 weeks and 6 days LMP. Women
who are unable to access care or who are forced to carry the pregnancy to term face medical and
non-medical risks.
University of Michigan psychology and women’s studies professor Sara

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 58 of 136 PageID #: 6566

58a

McClelland, Ph.D., testified that § 39-15-202(a)-(h) “exacerbates existing stereotypes about
women” and “contributes to the[ir] stigmatization.” McClelland, Tr. 9/24/19 (Vol. 2) p. 177. She
indicated that it does the latter
by lending the authority of the law to exacerbate existing stereotypes of
women as irrational or overly emotional, and that by exacerbating these
stereotypes, . . . it could both affect how people think about women more
broadly, as well as how women think about themselves as incapable of
making their own healthcare decisions.
Id. at 178. The statute “causes harm” through these “increased stereotypes around women as
incapable . . . decision-makers” and because it “teaches women to think of themselves as incapable
decision-makers.” Id. at 188. A woman’s experience of having to return in 48 hours for a second
appointment to have an abortion “devalues her, it demeans her by insisting that she herself is not
the arbiter of her own healthcare,” and it tells her that “her own decision of her own healthcare is
insufficient.” Id. at 188-89. In Dr. McClelland’s opinion, § 39-15-202(a)-(h) therefore “makes
that stereotype truth,” causing men and women alike to think of women in that way, which “creates
an ongoing stigmatization of her, and the consequences of that have been shown over decades of
research to both have psychological and physical detriment to women’s health.” Id. at 189. Dr.
McClelland’s opinion would not change if the mandatory waiting period were 24 hours instead of
48 because “[t]he effects of stigmatizing a group of people would be the same regardless of the
amount of time that was stated in the law, between 24 and 48 hours. The stigmatization has already
occurred in that case. It doesn’t matter for how long.” Id. at 178.
Dr. McClelland testified that “what starts out relatively benign in terms of labeling
[human differences]” may lead to stereotyping, a “sort of us and them” separation, and
discrimination, and these events “can really take on negative consequences for particular groups.”
Id. at 179-81. Dr. McClelland referenced a meta-analysis, i.e., a study of studies, that found

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 59 of 136 PageID #: 6567

59a

“negative health effect[s] of both feeling and perceiving discrimination,” including “high blood
pressure, increased rates of cardiovascular disease, increased rates of cortisol secretions, as well
as . . . psychological outcomes, such as depression, anxiety, and increased . . . substance use.” Id.
at 187-88. Dr. McClelland stated that stigma and stereotypes, which may turn into stigma, have
negative health implications and that “stigma has, for decades, been found to be incredibly harmful
for people’s mental health.” Id. at 179. Stigma has a “wear and tear” effect on people physically
and physiologically. Id. at 186-87. According to Dr. McClelland, “thousands of studies . . . show
the harmful effects of gender stereotypes across contexts, across time.” Id. at 186.
Dr. McClelland further testified that “policies have the potential to teach people to
think negatively about groups,” which § 39-15-202(a)-(h) does because it “reinforces the
stigmatization of women through reassociating women with poor decision-making or too
emotional or irrational ways of thinking, . . . such that it then reinforces those ideas, both teaching
people in general that’s how women are and teaching women to think of themselves that way.” Id.
at 181. Examples of other policies or legislation that have created or reinforced such stigma are
mandatory drug testing of welfare recipients and same-sex marriage bans. See id. at 181-84. These
policies’ “legislative environments” “created negative consequences for those . . . separated and
considered in an us/them model,” id. at 182, “where those who are [separated or] stereotyped [a]re
considered to lose power and lose status.” Id. at 180. They are similar to § 39-15-202(a)-(h)
because they use the authority of the law to organize and teach a population to think about a group
of people in a negative light. See id. at 185. This type of legislation “makes these stereotypes
incredibly hard to resist, and there’s quite a bit of psychological research in which it’s very hard
to undo stereotypes once they’re put into place.” Id. Dr. McClelland explained that these examples
were useful in her analysis of § 39-15-202(a)-(h) because “they help us see the empirical evidence

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 60 of 136 PageID #: 6568

60a

of what happens when these kinds of laws are in place” given that “these studies . . . very usefully
and importantly show the development of stigma and the mechanisms of stigma are the same
across contexts.” Id.
The Court finds Dr. McClelland’s testimony to be fully credible and gives it great
weight. She testified convincingly that, regardless of the mandatory waiting period’s duration, §
39-15-202(a)-(h) “exacerbate[s] existing stereotypes” of women as irrational, overly emotional,
and incapable decision-makers. Id. at 178. The challenged statute reinforces these stereotypes
and therefore contributes to the stigmatization of women, and stigma has been shown to have
negative physical and psychological health implications. While Dr. McClelland has not conducted
direct research in Tennessee, see id. at 185-86, her opinions are based on “a study of how stigma
operates, and especially how it operates within legislative environments,” as well as “close review
of the empirical and theoretical research in the social sciences, in particular, sociology and
psychology.” Id. at 196. Dr. McClelland indicated that “the mechanisms of stigma are quite
similar regardless of where they show up.” Id. As a result, “the analogous case studies help us
understand the health consequences for living in stigmatizing environments,” and they are “used
to then draw conclusions about how the mandatory delay law would operate similarly.” Id. at 19697.
University of Houston sociology professor Sheila Katz, Ph.D., testified that since
its enactment in 2015, § 39-15-202(a)-(h) “has created . . . barriers and burdens on low-income
women,” including “financial burdens,” “logistical burdens,” and “social-psychological burdens.”
Katz, Tr. 9/24/19 (Vol. 2) p. 213. She stated that these burdens would be no different if the waiting
period were 24 hours instead of 48. See id.
Dr. Katz indicated that poverty is typically measured in the United States by using

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 61 of 136 PageID #: 6569

61a

the federal poverty guideline, a dollar amount published annually by the United States Department
of Health and Human Services. 30 See id. at 213-14. Because “[t]he federal poverty guideline is
widely recognized by social scientists as an inadequate measure of poverty in the United States,”
social scientists, social programs, and government agencies use both the federal poverty guideline
and 200% of the federal poverty guideline in referring to low-income or “near low-income”
individuals. Id. at 214.
Dr. Katz stated that “a family living under 200 percent of the poverty line is still
poor” and is “not making ends meet.” Id. at 215. “[A] family at 200 percent of the poverty line
or below is living in a much more financially precarious situation than just paycheck to paycheck.
There are [basic] needs that are going unmet in those households,” such as “adequate and safe
housing,” utilities, “nutritious food,” healthcare, and transportation. Id. Getting a flat tire while
driving to work may be “an annoyance” or “an inconvenience” for a “middle-income or upper
middle-income person”; however, for a low-income family, such an event “will throw their
delicate balance off entirely.” Id. Further:
There’s a couple of different pieces to this. One, low-income families drive
cars that are much older than – the average age of their vehicles is older than
middle- and higher-income people, so a flat tire might damage the car more
than it would a newer or nicer car.
Low-income people usually work in jobs that have a lot less flexibility for
being late to work or having an unexplained absence. . . .
So it’s something that an upper middle-class person would think of as
simple and maybe annoying, but for a low-income family, it can be a
tragedy that kind of sets in motion a series of other problems, if the person
loses their job or even just loses the income from those missed hours of
work, plus the cost of having a flat tire.
30

In 2019, the federal poverty guideline for an individual was $12,490. See Katz, Tr.
9/24/19 (Vol. 2) p. 214. For each additional member of the household, the dollar amount increases
by slightly over $4,400. See id. Based on these numbers, a single mother with two children who
earns under $21,330 would be considered “poor.” Id.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 62 of 136 PageID #: 6570

62a

Id. at 216. Data from the United States Census Bureau’s American FactFinder shows that
Tennessee is the eleventh poorest state in the country and that the poverty rate in Tennessee in
2016 was 17.2%. 31 See id. at 217. “[T]his level of poverty” means that “there are more families
that would experience th[e] sort of imbalance and sort of crisis” described above. Id. at 216; see
also id. at 219 (“[B]ecause Tennessee is the eleventh-poorest state, . . . more families are
experiencing this [in Tennessee] than in states that have less poverty.”).
Dr. Katz also testified that
poverty disproportionately affects women in the United States. Women are
more poor than men, so they have a higher poverty rate, and . . . they are
also more likely to be taking care of dependents in their household, so they
have less resources to take care of more people.
Id. at 217-18. Dr. Katz estimated that “[a]pproximately half a million” women in Tennessee are
living under the federal poverty guideline, and “hundreds of thousands more” are living from 100%
to 200% above the federal poverty guideline. Id. at 222.
Women living under 200% of the poverty line “have a very hard time meeting the
basic needs of themselves and their household.” Id. at 218. These women live in housing that is
unsafe or inadequate for their family’s needs, they cut back on utilities like air conditioning or
heat, they sacrifice their own food intake and their own nutrition to give their children enough to
eat, and they avoid going to the doctor or filling prescriptions because they cannot afford to do so.
See id. at 219. An unexpected emergency or expense “puts the family at grave risk” because it
“throws [into question] the already sort of precarious balance that [low-income women are] trying

31

Dr. Katz indicated that at the time of her testimony, the United States Census Bureau
had released poverty data numbers for 2017 but not “the 2018 state-level numbers.” Katz, Tr.
9/24/19 (Vol. 2) p. 217. She stated that any changes in the data do not affect her analysis because
“[t]he poverty rate does change by a couple of tenths of a percent each year, but overall, the overall
picture of poverty in Tennessee is unchanged.” Id.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 63 of 136 PageID #: 6571

63a

to maintain to not be evicted, to not have utilities shut off, to make sure the children have food and
basic medical needs are met.” Id. at 229-30.
Citing the United States Census Bureau’s American FactFinder, Dr. Katz indicated
that in Tennessee “women have a poverty rate of 18.5 percent” and “men have a poverty rate of
15.8 percent.” Id. at 218. One factor that contributes to this difference is that Tennessee does not
have a minimum wage and therefore the federal minimum wage of $7.25 per hour applies. See id.
at 219. A person who lives alone and who works full time for an entire year earning the federal
minimum wage is “making approximately [100% of] the poverty line” but “significantly under . .
. 200 percent of the poverty line.” Id. at 219-20. If the person has children or dependents, the
household would be below the poverty line. See id. at 220.
Dr. Katz testified that 23.9% of working poor 32 households are headed by women,
and 14% of working poor households are headed by men. See id. This difference in percentages
shows that “[w]orking poor households are much more likely to be headed by women.” Id.
Moreover, “the number of women who are classified as working poor is higher than the number
of men who are classified as working poor.” Id. Using fair-market rent data from the United
States Department of Housing and Urban Development for the cost of rent in Knoxville, Memphis,
and Nashville, Dr. Katz testified that a Tennessee woman “working full-time year round at
minimum wage” (i.e., “working poor”) is paying “between half to three-quarters of her monthly
income on rent in these cities. We know that then there’s not enough money left over to pay for
the rest of the expenses, for her utilities, for food, and to meet other basic needs.” Id. at 221-22.
“[F]amilies headed by single mothers tend to be low income”; approximately half

32

Social scientists and the United States Department of Labor use the term “working poor”
to refer to “a person who is working approximately full-time year round, but is still making very
close to the poverty line.” Katz, Tr. 9/24/19 (Vol. 2) p. 220.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 64 of 136 PageID #: 6572

64a

of the families in Tennessee headed by single mothers are living at or below 125% of the federal
poverty guideline, and one-third of them are living at or below the federal poverty guideline. Id.
at 222-23. In addition, 18.2% are living in “deep poverty,” a term meaning less than 50% of the
poverty line. Id. at 223. People living in deep poverty “are just not making ends meet in any way.”
Id. The deep poverty rate has been decreasing globally over the last twenty years, but it is
increasing in the United States, particularly in the Southeast. See id. In Tennessee “overall, 7.5
percent of Tennesseans live in deep poverty, but of people who are poor, 43.5 percent are in deep
poverty. So almost half of people who are poor are in deep poverty.” Id. Further, based the United
States Department of Agriculture’s measures, nine counties in Tennessee have “persistent poverty”
and fifty-three are at risk of falling in this category. Id. at 224. “[P]ersistent poverty is a measure
that the poverty rate at the county level has been above 20 percent for approximately the last 40
years.” Id. A family living in an area that has persistent poverty lives in a place with “significantly
less resources for emergencies or unexpected expenses, and less economic opportunities to . . .
meet those needs.” Id. at 224-25.
Dr. Katz testified that on a national level 75% of women seeking abortions are poor
or low income, meaning under 200% of the federal poverty guideline. See id. at 226-27. Further,
“approximately two-thirds of women who obtain abortions in Tennessee already have[] at least[]
one child, so the women who . . . seek[] abortions are providing for themselves, [and] also for
dependents.” Id. at 227. Together these figures “suggest[] that the overwhelming majority of
women seeking an abortion in Tennessee are already mothers and are either poor or near lowincome.” Id. Dr. Katz stated that plaintiffs’ data on the income levels of their patients “supports
the national data and my assessment of it.” Id.
Dr. Katz testified that § 39-15-202(a)-(h) imposes “a handful of different categories

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 65 of 136 PageID #: 6573

65a

of burdens” involving transportation, travel, childcare, time away from home or a job, lost wages,
and raising unexpected funds for the procedure, as well as funds for travel and childcare. Id. at
228. The statute also creates “psychological hurdles.” Id. “[T]ransportation barriers and logistical
barriers . . . make[] it much harder to access [abortion] service[s],” id. at 226, and apply in
particular to poor and low-income women seeking an abortion in Tennessee because of the state’s
high poverty rate and “not . . . small geographic area” that make transportation “more difficult.”
Id. at 227-28.
Because of the small number and location of abortion clinics in Tennessee, “women
are traveling some distance to access that service” and “accessing an abortion in Tennessee comes
with a travel burden.” Id. at 232. Section 39-15-202(a)-(h) “creates a significant additional burden
and expenses and stress” for women who must travel for abortion services. Id. at 240. The
research analyzing the effect of increased travel on women seeking an abortion concludes that
“low-income women experience travel burdens and hurdles associated with accessing an abortion
from not having access to a car, not having access to reliable public transportation systems, and
the schedules of those transportation systems being out of sync with the services that the person is
trying to access.” Id. at 228-29. Dr. Katz indicated that this finding “is consistent with Tennessee
women seeking an abortion after the implementation of th[e] law [at issue]” and is consistent with
her own research. Id. at 229. Because Tennessee does not have a statewide public transportation
system, alternatives for transportation mostly include a private car or a bus service, like
Greyhound. See id. at 232. Approximately 10% of households in Tennessee cities do not own a
car, “but this percentage is much higher for low-income households.” Id. at 234. Low-income
families own fewer cars per household, and the cars they own are older and in worse mechanical
shape, as compared to the number and condition of cars owned by middle- and upper-income

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 66 of 136 PageID #: 6574

66a

families. See id. at 225-26. Even if a low-income woman is in a household with one car, lowincome families with one car prioritize the man’s job for use of the car over all other household
uses. Id. at 234.
Dr. Katz calculated that on the low end in terms of travel distance, women seeking
an abortion would make a twenty-five-mile round trip from, for example, Johnson City to Bristol,
which would take at least ninety minutes and would cost under five dollars in gas or between
twenty four and forty dollars for a Greyhound bus ticket. See id. at 233. Dr. Katz stated that five
dollars is almost what someone earning the federal minimum wage is paid for an hour of work.
See id. at 234. Low-income families, particularly those headed by single mothers, do not have
disposable income, and therefore paying for gas or buying a bus ticket requires them to make
sacrifices in other areas. See id. at 235. Even a small amount of money for such a trip “can have
a tremendous impact on low-income women” and “can cause an upset in a delicate balance [as]
[they] attempt to meet their families’ basic needs.” Id. at 234-35. In addition to having to cover
the cost of travel, the loss of wages while traveling increases the cost of the trip. See id. at 234. A
round trip can take more than one day, depending on factors such as the distance traveled, the
provider’s schedule, and the bus schedule, and it may require an overnight stay. See id. at 239.
Low-income women also have difficulty reserving a hotel room in advance because of their limited
access to the internet and credit cards. See id. at 240. If they are able to reserve a hotel room, they
may not have enough money to pay for it. See id.
Dr. Katz testified that travel burdens – going to an unfamiliar city, arranging
transportation, taking time off from work, obtaining childcare, managing privacy and
confidentiality concerns – exist whether the distance traveled is 50 or 100 miles. See id. at 256,
280. These burdens are also present when poor or low-income women accesses abortion services

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 67 of 136 PageID #: 6575

67a

in their own cities. See id. at 280. Dr. Katz stated that “even small changes in distance can affect
service utilization,” a finding that is reflected her own research, in the broader literature, and in the
literature on access to abortion. Id. at 230-31.
Specifically regarding childcare, because § 39-15-202(a)-(h) requires that a patient
see a provider twice, at least 48 hours apart, a woman with children must pay twice for childcare
or coordinate twice to leave her children with someone who can watch them. See id. at 241.
Childcare centers are typically open from early mornings to early evenings, running parallel to the
typical work schedule. See id. However, evening and overnight childcare are “very, very
expensive” and not widely available. Id.
Regarding lost wages, Dr. Katz testified that “41 percent of working parents with
household incomes below twice the federal poverty line do not receive paid sick leave, vacation
days, personal days, or other forms of compensated leave.” Id. at 242. It is also very difficult for
low-income workers, who are often seen as disposable, to obtain unpaid leave. See id. They may
risk their jobs by asking for a day off, asking for consecutive days off, or requesting changes to
their work schedules, which are often unpredictable, irregular, and made by employers on a weekby-week basis. See id. at 242-43. Therefore, coordinating time off from work with the clinic’s
availability and transportation to the clinic is a difficult balance that involves both risks and
expense. See id.
Dr. Katz stated that “having to pay [travel and associated] expenses twice isn’t just
like multiplying it by two, but it becomes more exponential[;] . . . arranging it all for one visit is
very different than arranging it for two visits close together.” Id. at 257. Dr. Katz concluded that
§ 39-15-202(a)-(h) “has a significant impact” on the lives of poor and low-income women who
seek an abortion and that “low-income women may not be able to access this service” as a result

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 68 of 136 PageID #: 6576

68a

of it. Id. at 256-57. “For the ones who do manage to arrange this and raise the money, I really
worry – and the literature supports this concern – that they would be unable to provide for
themselves, their children, or they put themselves at grave risk.” Id. at 257. Poor and low-income
women raise money in an emergency or unexpected situation by sacrificing basic needs, such as
rent, utilities, food, and healthcare; through predatory loans; and by borrowing money from
abusive partners or ex-partners, which puts their safety at risk. See id. at 243-44. They may resort
to these methods to cover as little as a fifty-dollar expense. See id. at 244. As part of her research,
Dr. Katz asked low-income women about needing twenty dollars for an emergency, and “they
report that they have no one to turn to, and they don’t know how they would come up with that.”
Id. at 244-45.
Dr. Katz cited a 2006 study that found that 58% of the women surveyed reported
wanting to have an abortion earlier but experienced delays because of financial and logistical
hurdles. 33 Id. at 248-49. This response was more common among women with later gestational
ages (32% of women at 6 weeks LMP or earlier; 52% of women in their first trimester; 91% of
women in their second trimester). See id. at 249-50. It was also more common among poor women
than women above 200% of the poverty line. See id. at 250.
The Court finds Dr. Katz’s testimony to be fully credible and gives it great weight.
She testified convincingly that § 39-15-202(a)-(h) imposes various burdens on low-income women

33

On cross-examination, Dr. Katz agreed that the reasons for the delay that were identified
by the study included that it took a long time to make arrangements (59% of women), that it took
a long time to decide (39% of women), that it was a difficult decision to make (27% of women),
that there were religious or moral concerns (10% of women), and that there was a legally-required
waiting period (2% of women; 2% of first trimester patients and 1% of second trimester patients).
See Katz, Tr. 9/24/19 (Vol. 2) pp. 273-75. In responding to questions about these different reasons
and their percentages, Dr. Katz stated that “this article was published in 2006, and the legally
mandated waiting periods have increased since 2006.” Id. at 275.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 69 of 136 PageID #: 6577

69a

that substantially limit their access to abortion or prevent them from accessing this service
altogether. These burdens would exist even if the statute’s 48-hour waiting period were instead
24 hours. The Court accepts Dr. Katz’s statements that 75% of women seeking abortions are poor
or low income, i.e., with incomes under 200% of the federal poverty guideline, and that “the
overwhelming majority of women seeking an abortion in Tennessee are already mothers and are
either poor or near low-income.” Id. at 227.
In defense of § 39-15-202(a)-(h), defendants first called Bowling Green State
University psychology professor Priscilla K. Coleman, Ph.D., who testified that the statute benefits
women because it enables them to decide whether to terminate a pregnancy “in a way that is fully
informed” and “time is needed to maximize human decisional processes.” Coleman, Tr. 9/25/19
(Vol. 3-A) pp. 32-33. Dr. Coleman based this opinion on research showing that women seeking
an abortion have “fairly high levels of decisional ambivalence and uncertainty,” between 25% to
40%. 34 Id. She also based it on her understanding that women at an abortion clinic receive
information they may not have seen beforehand regarding the risks and benefits of abortion and
childbirth, as well as resources for those wishing to carry a pregnancy to term. See id. at 33. In
addition, Dr. Coleman indicated that her opinion is based “generally” on
the research that I cited in my primary report. It’s based on research I’ve
conducted. It’s based on extensive review of research by others, many
studies that I did not cite – can’t cite everything, but the last 25 years, I have
stayed on top of everything that’s published on this topic, so I have had a
high level of experience broadly studying this topic, and so it’s based on all
my review of studies that have been published; my own research, you know,
my education and training in the methods of science.

34

Later in her testimony, Dr. Coleman provided a larger range for the percentage of women
seeking an abortion who experience decisional ambivalence or distress: “[T]he studies indicate
that approximately 25 to 40, 50, in that range – a lot of different studies on ambivalence and
decisional distress or difficulty. Each study kind of describes it differently . . . .” Coleman, Tr.
9/25/19 (Vol. 3-A) p. 45.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 70 of 136 PageID #: 6578

70a

Id. at 33-34.
Dr. Coleman characterized abortion as a medical procedure “that is unlike any other
because it involves two biological systems, and the result of an abortion is the destruction of one.”
Id. at 34-35. She stated that the decision to have an abortion is “unlike any other” because “a
significant, important percentage of women” “view the developing embryo or fetus as a human
being.” Id. at 35. Data in “peer-reviewed journals indicates that a significant percentage of women
. . . see the termination as having moral implications” and “[a]bout 25 to 50 percent of women,
depending on . . . the particular study, are aware that there’s more to an abortion than a simple
medical procedure” and that it may have “relational aspects,” “social aspects,” or “spiritual
aspects.” Id.
There is a standard decision-making process “that involves looking at what are our
options, what are the strengths and weaknesses of each option, and then afterwards, how effective
was it in terms of meeting our goals?” Id. at 41-42. Stress and emotion play a role in the abortion
decision-making process because “a sizeable number of women do enter the clinic with significant
stress . . . related to the fact that it’s an unplanned – typically unplanned, untimed pregnancy.” Id.
at 35-36. The decision to have an abortion is “not an easy decision for many women” and “could
have lifetime implications for them in terms of their psychological and physical health.” Id. at 36.
Women may also experience other forms of stress, such as from intimate partner violence, which
Dr. Coleman indicated may affect approximately 30% of women, according to “a meta-analysis
by Hall” that she reviewed. Id. Dr. Coleman stated that “most of the research that I’ve reviewed
and described involves stress in a real-life situation, one that has long-term implications for some
women,” as opposed to laboratory-based or hypothetical situations. Id. at 43. “[M]any settings”
have indicated that abortion is a significant stressor “not for every woman, but for a sizeable

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 71 of 136 PageID #: 6579

71a

percentage.” Id. at 42.
Dr. Coleman stated that
[w]hen we’re under stress, like in the context of deciding what to do about
an unplanned pregnancy . . . , the type of reasoning, the type of decisionmaking that we do, tends to be more emotionally based rather than
analytical, rational, thoughtful. We make more hurried decisions when
we’re under stress.
Id. When asked about women who have five to ten minutes “to meet with the physician, finish the
informed consent, and have the procedure start, particularly for a medication abortion,” Dr.
Coleman stated that her “opinion, based on all of the review of the literature, is that when they
only have five or ten minutes, and you’re stressed to begin with – and this is based on lots of
studies – your decisional processes are compromised.” Id. at 44-45. For women deciding whether
to have an abortion, Dr. Coleman stated that a decision “of this magnitude, which it is for many
women,” results in stress that causes the body to release hormones, including cortisol, and that the
body’s physiological responses to stress “impact the brain as well, and it makes it much more
difficult to arrive at a decision without some time.” Id. at 36-37. Therefore, Dr. Coleman opined
that “[i]t’s important for the woman to get out of that acute stress state and have time to consider
her options and what’s best for her as an individual.” Id. at 37. Dr. Coleman believes that § 3915-202(a)-(h) “allows for [women] to make a good decision” because it gives them opportunities
to evaluate the state-mandated information, to consider “the pros and cons of each decision,” and
to contact agencies that can help them continue the pregnancy, if that is their preference. Id. at 4243.
Dr. Coleman conceded on cross-examination that she is not an expert in the brain’s
physiological functions in connection with decision-making and that she does not have research
experience in the psychology of decision-making generally, divorced from the topic of abortion.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 72 of 136 PageID #: 6580

72a

See id. at 80-81. She also conceded that she has not conducted research quantifying the amount
of time it takes to make a stressful decision or to achieve decisional certainty. See id. at 81. None
of the studies she identified concerning stress and decision-making “directly apply” to 48-hour
waiting periods, id. at 107, 110-11, and Dr. Coleman’s deposition testimony is that “[t]he nature
of this type of work on this decision-making is not directly analogous. It requires a, quote, leap.”
Id. at 112. On redirect, Dr. Coleman indicated that she could not find studies on 48-hour waiting
periods that were conducted in a clinical setting and that she is not aware of any. See id. at 124.
She stated that she “found no studies that indicated that extra time hurts decision-making.” Id.
Dr. Coleman opined that “counseling is beneficial” for women in the abortion
context. Id. at 45-46. However, she could not recall a study “that actually looks at what [women]
know about the procedure” when they arrive at an abortion facility. Id. at 47. Dr. Coleman
referenced a 2013 study in which nearly 1,000 women were asked what topics they wanted to
discuss during counseling sessions. Id. at 57. Results included information about the procedure
(82%), the women’s doubts (40%), information on consequences (73%), the reasons for the
abortion request (36%), and alternatives (not specified). See id. at 56-57.
Referring to studies showing that between 25% and 50% of women experience
decisional ambivalence or distress, Dr. Coleman testified that “a good percentage of women . . .
may need some help . . . in making that decision, so we do know that there is significant
ambivalence, decisional distress, [and] there may be pressure or coercion.” Id. at 46. She listed
ways in which a woman might feel pressured: “active coercion [by] a perpetrator of domestic
violence,” financial pressure, “life pressure,” pressure from partners, or pressure from parents. Id.
She stated that these forms of pressure may make women who would like to continue the
pregnancy feel that they have no choice but to have an abortion. See id. There is “quite a bit of

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 73 of 136 PageID #: 6581

73a

research” on partner pressure to abort “showing different ranges in terms of percentages, but at
least 10 percent probably experience pressure, and the pressure is a variable associated with poor
outcomes later.” Id. at 60. Dr. Coleman stated that research also shows that a woman who wants
to continue the pregnancy but is pressured into making a different decision is more likely to suffer
sadness, depression, guilt, anxiety, and posttraumatic stress disorder (“PTSD”). See id.
Dr. Coleman indicated that there is “uniformity . . . among practitioners and
academics, that if women have certain characteristics or certain ways of viewing this decision, if
they’re coerced, if they’re ambivalent, if they’re uncertain, if they feel some bonding to the child,
then they are much more likely to have adverse psychological consequences.” Id. at 46-47. The
risk factors for poor post-abortion adjustment with “the most robust support in the literature”
include “prior psychological problems”; pre-existing depression and anxiety, suicidal thoughts,
and substance abuse; ambivalence and decision difficulty; pressure or coercion from partners,
parents, or someone else; feelings of bonding or attachment to the fetus; age; religious beliefs; and
values that are at odds with the decision to have an abortion. Id. at 57-58. Dr. Coleman believes
§ 39-15-202(a)-(h) is beneficial because “when you add up all the risk factors, a significant
proportion of women have one or more risk factor, so if they’re more likely to have a psychological
problem afterwards, of course, a little bit of time could be helpful.” Id. at 58.
Regarding mental health history as a risk factor, Dr. Coleman testified that women
who have “a prior mental-health problem . . . experience more decisional difficulty, so they are . .
. more likely to need time and counseling to arrive at the best decision,” and “they’re more likely
to have postabortion mental-health problems.” Id. at 55-56. Studies “suggest that if women have
a prior mental-health problem, whether it’s depression, anxiety, just a range of mental-health
challenges, then they’re more likely to experience an abortion as traumatic.” Id. at 54. Dr.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 74 of 136 PageID #: 6582

74a

Coleman agreed that it is “universally recognized that women seeking an abortion have higherthan-average rates of pre-existing mental-health issues.”

Id. at 55.

Regarding decisional

ambivalence as a risk factor, Dr. Coleman stated that because it is “a predictor of adverse
outcomes,” if a woman is “not ambivalent, she’s less likely to have a mental-health problem.” Id.
at 70-71.
Regarding decisional difficulty or ambivalence, Dr. Coleman relied on a 1995
study, which she explained had “339 participants, and nearly a third said they were in doubt as to
whether the decision to seek an abortion was right for them.” Id. at 49-50. This study was not
performed in the United States, but Dr. Coleman indicated that it is common practice in her field
to rely on international, as well as domestic, studies because “the experience of deciding whether
or not to continue a pregnancy involves kind of universal decision-making processes” and “there’s
a lot of universality to the decision of whether or not to continue a pregnancy.” Id. at 50-51.
Dr. Coleman testified that there is a “high probability” of women feeling guilty and
regretting an abortion, and therefore they should “have time and counseling to arrive at the decision
that’s best for them.” Id. at 53. Dr. Coleman stated that studies show that between 25% and 75% 35
of women “feel some level of guilt after undergoing a procedure.” Id. at 52-53. She stated that
“indicators that are more likely to be linked to feelings of guilt” include a woman’s religious views
and a desire to continue the pregnancy. Id. at 53. Dr. Coleman indicated that “with that guilt,
[women] may experience regret,” and that “they may really regret their decision” “[i]f the guilt
becomes monumental” or “too much to bear.” Id. Dr. Coleman noted that she published a study

35

Dr. Coleman stated that “[s]ome studies showed 25[%]”; “a study published in The Los
Angeles Times back many years ago . . . was around 50 percent”; and “a study we . . . did involving
Russian and American women published in 2004 in The Medical Science Monitor . . . found even
higher rates, like close to 75 percent.” Coleman, Tr. 9/25/19 (Vol. 3-A) p. 52.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 75 of 136 PageID #: 6583

75a

in 1998 in which 38% of women who had an abortion regretted their decisions. See id.
On cross-examination, Dr. Coleman agreed that “many women will not regret their
decision to have an abortion” and “many women will feel abortion was the right decision
retrospectively.” Id. at 86. She confirmed that in forming her opinion that abortion may cause
feelings of guilt, she relied on “the Skelton article,” which was a newspaper poll, not a peerreviewed study, and “the Brown article,” which was a survey of anonymous letters written to a
pastor at a church in Florida. Id. at 103-05. On redirect, she stated that she relied on other peerreviewed articles on abortion and guilt, including a paper that compared guilt among women in
Russia with women in the United States. See id. at 121-22. She found the Brown article valuable
because “they reported numerical values” and because the letters showed women’s experiences
regarding abortion. Id. at 122-23.
Dr. Coleman testified that “the strongest studies” show that “abortion operates as a
significant risk factor for mental-health issues afterwards.” 36 Id. at 62. Adverse mental-health
outcomes include depression, anxiety (generalized anxiety or PTSD), phobias, suicidal ideation
(thoughts about suicide or “suicide completed”), and substance abuse. Id. at 63.
Dr. Coleman testified that a 2013 Italian article “shows that there are mixed
findings, but predominantly studies show that abortion operates as a risk factor” because
“[t]hirteen studies showed a clear risk for at least one of the reported mental-health problems in
the abortion group versus childbirth, five papers showed no difference, and . . . only one paper
reported a worse mental outcome for childbirth.” Id. at 67. Dr. Coleman also cited a 2006 study
(“the Klick study”) that concluded that “when there is a mandatory waiting period in effect, there’s

36

Dr. Coleman clarified that her opinion is not that abortion causes mental health issues
because of difficulties determining causality, particularly in a single study. See Coleman, Tr.
9/25/19 (Vol. 3-A) pp. 63-65, 98-99.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 76 of 136 PageID #: 6584

76a

. . . significantly lower suicides among women.” Id. at 72-73. This was “a broad-stroke analysis”
that found “correlation” by looking at the suicide rates in states that had a mandatory waiting
period law; the study “just look[ed] at suicide rates” and “didn’t follow the women.” Id. at 73.
On cross-examination, Dr. Coleman indicated that the Klick study was published
in a journal that is not a peer-reviewed social science journal, and she stated that she was not aware
that the journal has a 0.769 impact factor. 37 See id. at 101. She conceded that this study examined
women who were twenty-five to sixty-four years old and excluded women who were eighteen to
twenty-four years old, and that women between the ages of forty-six and sixty-four are less likely
to be pregnant than women between the ages of eighteen and twenty-four. See id. at 102. Dr.
Coleman also conceded that the Klick study has been severely criticized. 38 See id. On redirect,
she stated that it was peer-reviewed and published in a law and medicine journal. See id. at 120.
On cross-examination, Dr. Coleman agreed that in reaching her opinion that
abortion increases the risk of negative mental health outcomes she relied on seven articles she coauthored with Reardon, whom she described as “too political and not good at statistics and
writing,” id. at 86-89, and that she relied on three articles she co-authored with Vincent Rue, whom
she believes is “too politically minded” and “wants to insert political comments into academic
studies.” Id. at 90. She was aware that Rue had been excluded from testifying “in Casey.” Id.

37

According to Dr. Coleman, an impact factor is “an index of the quality of a journal and
how widely cited particular articles are in that journal. Only about 20 percent of journals across
all fields have an impact factor of 3.0 or higher.” Coleman, Tr. 9/25/19 (Vol. 3-A) p. 19. The
higher a journal’s impact factor is, the more difficult it is to get published in that journal. See id.
38

In an article published in April 2009, Theodore J. Joyce and his co-authors wrote that
“Klick’s findings lack transparency and plausibility” and that “it is unclear why Klick included
suicide rates from 1981 when the first laws were not enforced until 1992. Nor did he analyze the
association between suicide rates and mandatory counseling and waiting-period laws in the earlier
period, which accounts for over 60 percent of the sample.” Coleman, Tr. 9/25/19 (Vol. 3-A) p. at
103.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 77 of 136 PageID #: 6585

77a

Dr. Coleman indicated that she has collaborated with Reardon on more than ten articles or
presentations, see id. at 87, and has collaborated with Rue on more than ten articles. See id. at 89.
Dr. Coleman discussed her own meta-analysis 39 entitled “Abortion and Mental
Health: A Quantitative Synthesis and Analysis of Research Published from 1995 Through 2009,”
which was published in 2011 in the British Journal of Psychiatry. Id. at 69. Dr. Coleman
explained that “the quality of [a] meta-analysis depends on the studies that you’re putting into it,
and I strove to identify the strongest studies based on methodological criteria that were published
from 1995 to 2009.” Id. Among these studies were some of Dr. Coleman’s own studies. She
included her own studies “[b]ecause they met criteria. I wasn’t going to leave out my studies just
because I’m doing the meta-analysis.” Id. at 72. She stated that doing so is customary practice
“because, typically, people conduct a meta-analysis when they’ve done a lot of research in that
area.” Id. Dr. Coleman summarized the key findings of her meta-analysis as follows:
[T]he primary analysis showed that women who have an abortion history,
compared to those who do not, have an 81 percent increased risk of
experiencing a mental-health problem of various forms. And what’s also
significant here is, they calculated the population attributable risk statistics
that’s based on its ratios, it revealed that 10 percent of the incidence of
mental-health problems were directly attributable to abortion.
Id. at 70.
On cross-examination, Dr. Coleman confirmed that she was the sole author of her
meta-analysis and that of the twenty-two studies on abortion and mental health outcomes that she
analyzed and summarized, she was the author or co-author of half of them. See id. at 95. Other
than students who worked with her, she did not have a professional in the field conduct an

39

A meta-analysis combines data from multiple studies. See Coleman, Tr. 9/25/19 (Vol.
3-A) p. 95. It “is a quantitative review of the literature. . . . [It] takes data from various studies and
puts it onto a single metric, so it provides a numerical summary of the reports that have been
published.” Id. at 68.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 78 of 136 PageID #: 6586

78a

independent review of whether her inclusion criteria were appropriate and whether the studies she
used satisfied these criteria. See id. at 95-96. In her meta-analysis, Dr. Coleman did not describe
the unpublished rubric she created for evaluating studies, and she did not mention all of its nine
parameters. See id. at 96-98. On redirect, she indicated that her meta-analysis was peer-reviewed
and “submitted to other researchers who do meta-analyses.” Id. at 119-20.
Considering the information she reviewed on decisional difficulty and
ambivalence, and on feelings of regret and guilt, Dr. Coleman opined that “a significant percentage
of women need time to make a decision . . . that . . . [has] the possibility of such serious and longterm consequences.” Id. at 77. She testified in favor of a mandatory waiting period as follows:
I just think two days in a woman’s life to . . . get the information they may
not have, seek out alternative information, and then if everything winds up,
then they go ahead and go through with the abortion, and, ideally, they’ll be
more certain if there’s a couple days. I think we want everybody to be as
certain as possible.
***
When women are certain of their decisions, they’re much less likely to have
an adverse response later.
Id. at 78. She also testified that the waiting period requirement is beneficial “particularly in
sensitive cases like domestic violence and fetal anomaly, where it’s more involved and the
recommendations . . . from professionals tend to be in the direction of abortion.” Id. at 77-78.
On cross-examination, Dr. Coleman disclosed that she believes that abortion is
never the right decision and is never beneficial for a woman unless her life is in imminent danger.
See id. at 82. She agreed that she believes abortion should not be legal except when a woman’s
life is in imminent danger. See id. She supports restrictions on abortion and agreed that she could
not name a restriction she does not support. See id. at 83. In each of the twenty-four cases in
which she has been involved as an expert, Dr. Coleman testified in support of the abortion

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 79 of 136 PageID #: 6587

79a

restriction at issue and did not opine that it was harmful to women’s mental health. See id. at 9091. She could not name an example of an abortion restriction that she believes may be harmful to
women. See id. at 91. Dr. Coleman has testified before legislative bodies in support of abortion
restrictions, see id. at 90, and she has spoken at events sponsored by organizations that oppose
access to abortion. See id. at 91-92. She has spoken for National Right to Life “fairly often” and
before the American Association of Pro-Life OB/GYNs “often.” Id. at 92. She has also spoken
for state right-to-life groups. See id. On redirect, Dr. Coleman indicated that she is not a member
of any pro-life organization. See id. at 114-15. She stated that her personal views on abortion do
not affect her research and findings, which are based on data she did not collect, systematic
research, and protocol. See id. at 114. She answered affirmatively when asked if her research is
based on the usual and customary practices in the area of psychology and not her personal
viewpoint. See id.
Dr. Coleman believes that there is political bias in most of the mainstream journals
in her field. See id. at 92. She believes that major medical journals often ignore the foundation
and methods of science to serve political ends. See id. at 94. She also believes that the peer-review
process in her field “is blind to scientific deficiency as long as the results support abortion-rights
initiatives” and that numerous scientists “have suspended personal and professional ethics to
safeguard women’s rights to abortion.” Id. at 94-95. These opinions are based on her experience
with the submission and review process of journal articles for publication. See id. at 117.
The Court finds Dr. Coleman’s testimony not credible and not worthy of serious
consideration. Dr. Coleman conceded that she is not an expert in decision-making separate from
the topic of abortion. The Court notes that Dr. Coleman’s testimony contained generalizations
(i.e., “a significant, important percentage of women” “view the developing embryo or fetus as a

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 80 of 136 PageID #: 6588

80a

human being”; abortion is a significant stressor “for a sizeable percentage of women”; “a sizeable
number of women” enter a clinic with significant stress; the abortion decision is not easy for “many
women”) and broad ranges of percentages (i.e., 25% to 40% of women experience decisional
ambivalence or distress, which later became 25% to 50% of women; 25% to 50% of women are
aware “there’s more to an abortion than a simple medical procedure; 25% to 75% of women “feel
some level of regret after undergoing a procedure”). In forming her opinion that abortion increases
the risk of negative mental health outcomes, Dr. Coleman relied on articles she co-authored with
Reardon or Rue, whom she herself described as “too political.” Id. at 87-88, 90. Her views as a
social scientist are heavily influenced, if not entirely overridden by, her personal views, which are
strongly anti-abortion. Dr. Coleman supports abortion restrictions and believes abortion is never
the right decision, and should be illegal, unless a woman’s life is in imminent danger. She has
testified before legislative and judicial bodies in support of abortion restrictions and regularly
speaks for and before pro-life organizations. Plaintiffs have presented persuasive evidence that
Dr. Coleman’s opinions lack support and that her work has serious methodological flaws. In a
different case, another district court commented that “Dr. Coleman’s studies are the subject of
significant criticism.” Planned Parenthood of Ind. & Ky., Inc. v. Comm’r of Ind. State Dep’t of
Health, 896 F.3d 809, 830 (7th Cir. 2018), cert. granted, judgment vacated sub nom. Box v.
Planned Parenthood of Ind. & Ky., Inc., No. 18-1019, 2020 WL 3578669 (U.S. July 2, 2020).
Plaintiffs called Jeffrey Huntsinger, Ph.D., a social psychology 40 professor at
Loyola University Chicago, as a rebuttal witness. Dr. Huntsinger opined that emotions and stress

40

Dr. Huntsinger explained that social psychology “examines how our thoughts, feelings
and behavior are influenced by other people,” and it “includes the study of judgment and decisionmaking, the influence of emotion on decision-making, stereotyping prejudice, [and] group
processes.” Huntsinger, Tr. 9/25/19 (Vol. 3-B) p. 7.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 81 of 136 PageID #: 6589

81a

benefit decision-making and that requiring women to wait for an additional 24 or 48 hours after
they have already made a decision will not help them make better decisions. See Huntsinger, Tr.
9/25/19 (Vol. 3-B) pp. 40-41.
Dr. Huntsinger, who specifically studies the decision-making process, opined that
Dr. Coleman is not an expert on judgment and decision-making because she does not have the
relevant background or experience in this area in terms of her graduate training, research, and
publications, and because of her misinterpretation of the literature. See id. at 16-17. As to this
latter reason, Dr. Huntsinger indicated that Dr. Coleman’s “characterization of the literature itself
either directly contradicts the conclusions of the researcher she’s talking about or she
mischaracterizes the literature in a way that suggests that she may not actually understand the
literature that she’s discussing.” Id. at 17. “[T]he clearest example” of this is that the research Dr.
Coleman cites “directly contradicts” her “broad-based claim that emotions have basically
deleterious or negative effects on decision-making.” Id. This is because “[t]he research that she
cites . . . suggests or comes to the conclusion that emotions have a positive influence on decisionmaking leading us to make thoughtful, rational decisions.” Id. at 17-18. Dr. Huntsinger stated
that Dr. Coleman relied on research done by Antonio R. Damasio and that
Damasio’s research as well as a wide variety of other . . . literature
demonstrate that the emotions we experience when making decisions that
are directly elicited from the decision we have to make provide adaptive
feedback or provide important information about our decisions, and the
extent to which we attend to them and use them when making a decision
leads us to make optimal decisions.
Id. at 18. Dr. Huntsinger defined adaptive feedback as “[f]eedback that will lead us to make a
decision that is consistent with our goals and that will ultimately make us happy.” Id. at 18-19.
He concluded that it was “hard to say” whether Dr. Coleman had considered this research because
she cited it “and yet claims that the research demonstrates that emotions are detrimental to

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 82 of 136 PageID #: 6590

82a

decision-making when, in fact, the complete opposite conclusion is reached by the researchers
themselves and the field.” Id. at 19-20.
Dr. Huntsinger disagreed with Dr. Coleman’s opinion that § 39-15-202(a)-(h)
provides a benefit to decision-making. In the general decision-making process, “individuals are
quite good at determining their . . . aspirational level, which is essentially what is a good enough
decision for me in the circumstance,” and “we’re also quite good at determining exactly how long
we need to think about a decision before we should stop the decision-making process.” Id. at 20.
Applying this to § 39-15-202(a)-(h), “forcing a person to think longer will provide no benefit . . .
. In fact, there’s good research to suggest that basically forcing people to think more about
something, to analyze their choices, to analyze their decisions, will lead them to make suboptimal
decisions, decisions that won’t make them happy.” Id. at 20-21.
Dr. Huntsinger further testified that the laboratory-based studies Dr. Coleman relied
on in forming her opinion on stress and decision-making are not consistent with her opinion, but
they are consistent with his. See id. at 21. Dr. Huntsinger discussed a study on stress and decisionmaking in a laboratory setting as an example of the type of research Dr. Coleman cited. Id. at 2223. In this study, a group of participants who had experienced a stressor (in the form of having to
give an unprepared speech in front of others) were given an unimportant decision-making task. Id.
Dr. Huntsinger opined that this type of study is “largely irrelevant” to his opinion concerning §
39-15-202(a)-(h) because it involves low stakes, “rapid fire,” and “trivial” decisions “that don’t
mean anything” or are not important and it involves very narrow time frames (five to twenty-eight
minutes). Id. at 23-24.
Dr. Huntsinger identified research by Grant S. Shields as being “more relevant to
the abortion decision” because it has “more . . . real world applicability or more direct relevance

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 83 of 136 PageID #: 6591

83a

to decision-making in people’s lives, including high-stakes decisions.” Id. at 25. Instead of having
participants do “a gambling task or some other trivial task,” Shields studied “what’s called a
measure of adult decision competency” and had participants “complete a series of tasks that
involve . . . decision-making ability at a very general level.” Id. The study “essentially correlated
people’s scores on this adult decision-making competency scale to important life outcomes like
quitting a job within two weeks and often going to jail,” making it a “well-validated measure of
how well you make decisions in daily life.” Id. The study induced stress on one group of
participants, but not the other, and it had all of them complete the “performance-based measure of
adult decision-making competence.” Id. at 25-26. It found that “the group that was experiencing
stress scored higher on this measure than the group that was in the controlled condition that did
not experience stress.” Id. at 26.
Dr. Huntsinger disagreed with Dr. Coleman’s “blanket statement” that individuals
make more hurried, less rational decisions under stress. Id. at 26. The “influence of stress on
decision-making is varied” and whether it makes people think faster “depends on the particular
decision context.” Id.
Regarding Dr. Coleman’s opinion that time is necessary to maximize human
decisional processes, Dr. Huntsinger testified that he agreed with this statement “in a general sense,
. . . but the amount of time that . . . benefit[s] decision-making is going to vary individual to
individual and situation to situation.” Id. at 32. When asked if making a decision quickly can be
beneficial, Dr. Huntsinger responded, “Yes, there’s research that suggests that intuitive gut
reactions can lead to good decisions.” Id. at 32-33.
In response to Dr. Coleman’s testimony about the presence of emotion in the
decision to have an abortion, Dr. Huntsinger testified that the statutory waiting period would not

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 84 of 136 PageID #: 6592

84a

be helpful to a person who was making a decision with an “emotional correlate” because (1)
“decisions that are informed by emotion are largely beneficial, [and] lead us to have optimal
decisions”; and (2) “women are able to think about abortion as much as they want before they
come to the clinic and after the clinic and also while they’re there,” and “people are quite good at
determining exactly how long they think they need to think about a decision.” Id. at 34-35. Dr.
Huntsinger stated that there is “no strict relationship between emotion and rationality,” and
research indicates that they are “not in opposition to each other.” Id. at 37.
Dr. Huntsinger testified that § 39-15-202(a)-(h) would not benefit a person
experiencing ambivalence or decisional distress because these are “aversive states,” and a person
instinctively wants to relieve herself from them. Id. at 37-39. “[T]he research indicates that the
most common way of reducing feelings of ambivalence . . . is to think in a more deliberate way
because doing so will help us resolve that negative state.” Id. at 37-38. Worry is another aversive
state that Dr. Huntsinger indicated “tends to trigger deliberative information processing,” and it
“mak[es] us think about the decision more because it’s something that’s important to us.” Id. at
39. He elaborated on this as follows:
[W]hen people are worried, they have a pretty good idea of how much time
they need to think until they have come up with a good decision.
So for all of these [emotional] states, people are quite capable of giving
themselves enough time . . . to come to a decision. So the [emotional] state
itself isn’t making them think little about a decision or think in a rash way.
People are quite capable if they are worried or anxious . . . to say, hey, I’m
anxious, let me think about this more.
The anxiety in all these other states, these negative effective states, are
signaling that this is an important decision, that there’s some problem. That
just makes people think more. . . . [T]he emotion doesn’t limit your thinking.
Id. at 67-68. On cross examination, Dr. Huntsinger indicated that there may be situations in which
additional time benefits decision-making but that “forcing people to think for a certain period of

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 85 of 136 PageID #: 6593

85a

time is detrimental.” Id. at 66-67.
The Court finds Dr. Huntsinger’s testimony to be fully credible and gives it great
weight. He presented convincing evidence to rebut Dr. Coleman’s opinions on abortion and
decision-making. He demonstrated that emotions and stress benefit rather than interfere with the
decision-making process and that a mandatory waiting period does not benefit this process because
people are quite good at determining for themselves how much time they need to reach a decision.
Defendants next called obstetrician/gynecologist Michael Podraza, who opined that
§ 39-15-202(a)-(h) is “a reasonable law” “in order to prevent coercion and regret.” Podraza, Tr.
9/26/19 (Vol. 4) p. 41. He stated:
It’s my opinion that, for a non-emergent, non-urgent surgery, a 48-hour
waiting period is reasonable because it is, most of the time, just a fact that
most surgeries that are of any significance would be done with time in
between the initial consultation and the surgery, for the patient to be able to
research, ask questions, and those kind of things, on their own before they
came back for the actual surgery.
And then my other opinion was that there’s a significant regret rate for
abortion, and because of that and because of . . . the potential for things like
coercion, I think . . . it’s a good idea for patients to have time to think about
that decision before they are taken to surgery.
Id. at 18-19.
Dr. Podraza described his practice as being 60% obstetrics, and the remaining 40%
is split between doing infertility work, conducting annual exams, and treating various gynecologic
issues. See id. at 12-13. He does not recommend or prescribe “artificial contraceptives” or birth
control to his patients because his practice “is based on the kind of a natural mindset of trying to
heal the body” and because of his own religious beliefs as a practicing Catholic. Id. at 13-14. He
stated that he does not perform abortions because “I don’t believe in the morality of abortion.” Id.
at 14.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 86 of 136 PageID #: 6594

86a

In his practice, Dr. Podraza does not perform an elective procedure on the same day
that he obtains informed consent from a patient because time in between the two is necessary for
insurance and scheduling purposes. See id. at 23. The informed consent meeting typically occurs
one to three days before the procedure, but it can happen two weeks before the procedure,
depending on the patient’s availability. See id. Dr. Podraza does not know “if that time is built in
for the purpose of necessarily giving informed consent,” but in his practice he uses the time for
patients to have an opportunity to do their own research and ask questions before the procedure.
Id. at 23. He stated that “[a]lmost all of my patients come back and ask additional questions,
regardless of the surgery.” Id. at 24. In his experience, women are “definitely” more confident in
their decisions to have a procedure after having time to think about it. Id.
On cross-examination, Dr. Podraza agreed that patients can give informed consent
without waiting 48 hours and that under the legal definition of “informed consent” patients can
give informed consent to an abortion without waiting 48 hours. Id. at 47-48. He agreed that
abortion has a low complication rate and that it is generally a safe procedure. See id. at 50. He
acknowledged his prior testimony in which he agreed that if a woman is denied access to abortion,
the risks of the procedure will increase because the procedure may become more medically
complicated as time elapses. See id. at 51.
Dr. Podraza testified that he performs procedures on patients seeking to reverse
their sterilizations. See id. at 26. Based on his experience, women “absolutely” regret their
sterilization procedures. Id. at 26-27. He stated that in 1978, “the government instituted Medicaid
sterilization, basically, like a waiting time, cooling-off period . . . where you have to sign
sterilization papers at least 30 days before you can do a sterilization on a Medicaid patient because
they were worried about coercion.” Id. at 27. He stated that “you assume that that waiting period

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 87 of 136 PageID #: 6595

87a

was instituted . . . to avoid things like rash decisions and coercion and things like that,” and he
“assume[d]” this thirty-day period gives patients enough time to think about their decisions. Id. at
28. On cross-examination, Dr. Podraza agreed that the “Medicaid sterilization” law does not
prohibit women from having a sterilization procedure done immediately or in less than thirty days;
rather, it states that doctors who perform a sterilization procedure without waiting the required
thirty days will not receive payment from Medicaid. Id. at 42. Other than “Medicaid sterilization,”
Dr. Podraza is not aware of any other procedure that requires a waiting period. Id. at 43. He
conceded that ACOG does not support the waiting period for sterilization procedures and that it
thinks the waiting period interferes with patient autonomy. See id.
Dr. Podraza indicated that he is the medical director of Confidential Care Mobile
Ministry, a pro-life organization “that does ultrasounds for at-risk women.” Id. at 11. He is also
a referring physician for the Abortion Pill Rescue Network, which arranges appointments with
physicians for women who have started the medication abortion process by taking mifepristone
but want to prevent it from working and causing an abortion. See id. at 11, 28-29. Dr. Podraza
stated that when he became a referring physician for this organization four or five years ago, he
initially received three to five referrals a year. See id. at 29. He estimated receiving “two calls in
the last year” because another referring physician is now in his area. Id. He has donated money
to Confidential Care Mobile Ministry but not the Abortion Pill Rescue Network. See id. at 11-12.
On cross-examination, Dr. Podraza did not dispute his prior deposition testimony disclosing that
he has participated in weekly prayer chains outside of Planned Parenthood in Amarillo, Texas. See
id. at 39-40. He agreed that he was on the board of a pro-life group in Texas and that he donates
to pro-life groups. See id. at 40-41.
Dr. Podraza has never performed an abortion, has never participated in an abortion

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 88 of 136 PageID #: 6596

88a

procedure, and has never been trained in how to perform an abortion. See id. at 44-45. He has
never referred a patient for an abortion. See id. at 44. He has never published any articles on
abortion, and he has never given talks or presentations on abortion. See id. at 46. Dr. Podraza has
not conducted any research on abortion regret. Id. at 45-46. Dr. Podraza conceded that a patient
who does not return for a procedure after an initial appointment could have sought care elsewhere;
the fact that she did not return does not mean that she did not have the procedure she wanted to
have. See id. at 48-49. He recognized that there are “multiple reasons” why it might be difficult
for someone to return for an appointment. Id. at 49.
On cross-examination, Dr. Podraza confirmed that he previously said he believes
abortion is immoral, see id. at 31-32, and that he would not perform an abortion even if it was
necessary to save a woman’s life. See id. at 34-35. He does not believe there is ever a situation in
which an abortion is necessary to save a life because he “believe[s] there’s always another option.”
Id. at 35. He did not dispute his prior deposition testimony that he does not believe abortion should
be legal, even if it is medically indicated because of a woman’s health condition. See id. at 33.
He stated that he believes an abortion is “unnecessary” if there is a severe or lethal fetal anomaly.
Id. He also believes that a situation “does not exist” in which it would be “necessary to perform
an abortion immediately because a delay would create a serious risk of substantial and irreversible
impairment of major bodily functions for a woman.” Id. at 35. Therefore, in his opinion, a medical
emergency under § 39-15-202(a)-(h) could never occur, but he “understand[s] that there are
physicians who would have a different opinion than me.” Id. at 36. Dr. Podraza indicated that he
would never refer a patient for an abortion, even for a health condition. See id. Nor would he refer
a patient for an abortion if it was necessary to save her life because he doesn’t “believe that
situation exists.” Id. at 36-37.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 89 of 136 PageID #: 6597

89a

The Court is unable to accord Dr. Podraza’s testimony, which is largely irrelevant
to the issues the Court must decide, any significant weight. Dr. Podraza has never performed an
abortion and has never studied abortion regret. His testimony about his own practice relates to
other medical procedures for which there is no mandatory waiting period. These procedures
typically follow a certain diagnosis, and they cannot be performed on the same day as the
consultation visit because they require time before the procedure for scheduling and insurance
purposes. See id. at 51-53. Dr. Podraza stated that his personal opinion on abortion does not affect
his testimony, see id. at 54, but it is apparent the he has strong personal and religious views on
abortion that have influenced his medical practice and his involvement in “various pro-life
organizations over the last 20 years.” Id. at 12.
Defendants next called Vanessa Lefler, Ph.D., the Director of Vital Statistics of the
Tennessee Department of Health (“TDOH”). Dr. Lefler supervises the State’s collection and
maintenance of vital events data, including induced termination of pregnancy (“ITOP”) statistics.
See Lefler, Tr. 9/26/19 (Vol. 4) p. 60. The TDOH collects ITOP data on abortions performed in
Tennessee, as well as “reports of abortion events that happen to Tennessee residents out of state,”
if the outside state elects to share that data. Id. at 63. Within Tennessee, the TDOH collects ITOP
data from abortion providers. See id. at 62. The collected ITOP data is then compiled and
published annually. See id. at 64, 68; see DX 70-75 (ITOP annual reports for 2008 to 2013).
On cross examination, Dr. Lefler indicated that “the majority of abortions [in
Tennessee] are provided at outpatient clinics rather than a hospital” and that “it is a very, very
small number that are provided outside of the clinic,” possibly less than 5%. Lefler, Tr. 9/26/19
(Vol. 4) pp. 82-83. The parties in this matter stipulated that as of October 3, 2019, they knew of
eight

abortion

providers

in

Tennessee

(excluding

hospitals

and

individual

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 90 of 136 PageID #: 6598

90a

obstetricians/gynecologists): (1) Bristol Regional Women’s Center in Bristol, (2) Carafem in
Mount Juliet, (3) Knoxville Center for Reproductive Health in Knoxville, (4) Memphis Center for
Reproductive Health (“Choices Memphis”) in Memphis, (5) PPTNM in Knoxville, (6)(7) PPTNM
in Memphis (two facilities), and (8) PPTNM in Nashville.
Dr. Lefler created visual representations of the data from the annual reports, which
she discussed during her testimony. In discussing a graph showing the rate and number of
abortions reported by Tennessee residents and Tennessee providers from 2013 to 2017, she
indicated that
the number of Tennessee residents who have received an abortion and the
rate of Tennessee residents who have received an abortion over this time
period has been decreasing steadily [since 2013], and also the number of
abortion services that are provided in the state of Tennessee have also been
decreasing since 2013.
Id. at 68-71. Dr. Lefler later expanded this time frame and added that “there has been a decrease
in the number and rate of abortions” obtained in Tennessee between 2008 and 2017. Id. at 76, 81.
Dr. Lefler discussed a graph illustrating the percentage of abortions performed
between 2013 and 2017 at various gestational ages from “less than or equal to 6 weeks . . . through
20 weeks gestation.” Id. at 71. She indicated that the “overall picture” shown in the graph is that
in 2013 “less than 6 weeks gestation was the most common time period that an abortion was
performed,” but otherwise “7 to 8 weeks remains the highest time period for an abortion to be
performed, and it steadily decreases after that, until we get to about 11 to 12 weeks, where then
very few abortions are performed at that time period.” Id. at 72. In addition, between 2013 and
2017 there was a decrease in the percentage of abortions performed at less than or equal to 6 weeks;
however, Dr. Lefler stated that “2014-2015 seems to be the turning point, where . . . there is
significantly more abortion happening at less-than-six-week period then the seven-to eight-period.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 91 of 136 PageID #: 6599

91a

Then after that, the lines seem to track fairly parallel to each other.” Id. at 73-74. In reviewing
some of the years individually, Dr. Lefler explained that in 2013, “at less and/or equal to 6 weeks”
is “the largest share of abortions,” and “[t]hen it decreases steadily over time.” Id. at 72, 81. In
2014, there was also “a higher rate for less or equal to 6 weeks, but not so much higher than 7 to
8 weeks, and, again, that decreases steadily over the different gestational ages.” Id. at 72-73. In
2015, “we see, again, fewer abortions happening at less than 6 weeks, 7 to 8 weeks, and
increasingly becomes more common [at] 9 to 10 weeks, 11 to 12. But eventually, we get to the
point with all these lines, very few abortions are occurring after 12 weeks of gestation.” Id. at 73.
The final diagram Dr. Lefler discussed was “a cumulative column graph” reflecting
the percentage of abortions performed at various gestational ages between 2013 and 2017. Id. at
74. This third graph showed that
again, the majority of abortions are performed at less than 10 weeks
gestational age. That is becoming a smaller share over time relative to
abortions that are performed at 11 to 12 weeks and 13 to 14 weeks, and
throughout the time period, abortions that happen after 16 weeks are
exceedingly small.
Id. In addition, the graph reflects that “abortions that happen [at] less than or equal to six weeks
have been decreasing since 2013” and that “[t]he seven- to eight-week range has also been
decreasing, [although] not as dramatically.” Id. at 75. She later added that “there has been a
decrease in the number of abortions prior to six weeks.” Id. at 81.
The Court finds Dr. Lefler’s testimony to be fully credible and gives it great weight.
She testified convincingly that ITOP annual reports published by the State of Tennessee reflect a
decrease between 2013 and 2017 in the number of Tennessee residents who have received an
abortion, the rate of Tennessee residents who have received an abortion, and the number of
abortion services provided in Tennessee. The number and rate of abortions obtained in Tennessee

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 92 of 136 PageID #: 6600

92a

has decreased between 2008 and 2017. In 2013 and 2014, most abortions were performed “at less
and/or equal to 6 weeks LMP,” but from 2013 to 2017 the number of abortions performed at this
gestational age, and at 7 to 8 weeks LMP, has dropped. In 2015, abortion was more common at 9
to 12 weeks LMP. Between 2013 and 2017, the percentage of abortions performed at less than 10
weeks LMP made up “the majority of abortions,” but this “becomes a smaller share . . . relative to
abortions that are performed at 11 to 12 weeks and 13 to 14 weeks.” Id. at 74. During this time
period, the percentage of abortions that took place after 16 weeks LMP was marginal.
Plaintiffs called Antonia Biggs, Ph.D., a reproductive healthcare researcher at the
University of California San Francisco, to rebut the testimony of Drs. Coleman and Podraza. Dr.
Biggs opined that the statutory waiting period does not benefit women who are seeking abortions
in Tennessee and that her opinions would be no different if the waiting period were 24 instead of
48 hours. See Biggs, Tr. 9/26/19 (Vol. 4) p. 142.
Dr. Biggs disagrees with Dr. Coleman’s opinions regarding the effects of abortion
on mental health “[b]ecause there is a lot of data on this topic, and when we look at all of this data
together, it really clearly shows that abortion does not increase women’s risk of having experienced
negative mental health outcomes.” Id. at 95. Dr. Biggs based this conclusion on “on a number of
papers, [her] own work, [and] some of the high-quality literature . . . on the topic.” Id. Dr. Biggs
also disagrees with Dr. Coleman’s opinion that a waiting period would benefit women’s decisionmaking because she “see[s] no evidence that a waiting period would help women in any way, and,
in fact, the literature shows the opposite, that it increases women’s burdens, costs, travel, delays.”
Id. at 95-96. On the issue of regret, Dr. Biggs agrees that some people regret their abortions or
later believe it was the wrong decision for them. See id. at 224. However, Dr. Biggs disagrees
with Dr. Coleman’s suggestion that regret is common. Id. Dr. Biggs “see[s] no evidence that the

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 93 of 136 PageID #: 6601

93a

mandatory delay law would have any effect on whether or not they regret their abortions, and I
definitely don’t agree that most women regret their abortions.” Id. at 96. She stated that “[w]e
have clear evidence that most women are very certain of their decisions, and we actually even
know that women who are denied care, or turned away from care, regret being turned away.” Id.
Dr. Biggs indicated that most of her research on abortion and mental health is
through the Turnaway Study, a prospective longitudinal study that interviewed nearly 1,000
women seeking an abortion “one week postabortion seeking” and then every six months for five
years. 41 Id. at 96-97. The study looked at two groups of women: (1) women who obtained an
abortion and were just below the gestational age limit, and (2) women who were unable to obtain
an abortion because they were beyond the gestational age limit. 42 See id. at 97. The participants
were recruited from thirty clinics located in twenty-two states (some with waiting period laws)
throughout the United States. See id. at 97-98. “[E]ach clinic was selected because it provided
the latest gestational age limit of any other facility within 150 miles[,] . . . represent[ing] that laststop clinic for women where they could obtain care.” Id. at 98. The Turnaway Study found that
there were no long-term differences between the two groups of women in terms of certain mental

41

Dr. Biggs identified the Turnaway Study’s longitudinal design as one of its strengths,
and she discussed others. See Biggs, Tr. 9/26/19 (Vol. 4) p. 101. This study is “very unique”
because it “comes as close as you possibly could to randomization” and allows researchers to look
at two “very similar groups of women who are seeking the same thing.” Id. at 97. It used validated
measures of mental health and well-being, and it controlled for prior mental health history and
other factors to reduce the likelihood of erroneously attributing negative mental health issues to
the abortion. See id. at 100-01.
42

On cross examination, Dr. Biggs clarified that the study did not follow women who were
not seeking an abortion. See Biggs, Tr. 9/26/19 (Vol. 4) pp. 219-20. She is not aware of a study
that compares the mental health outcomes of the two groups included in the Turnaway Study with
the mental health outcomes of women who come to a first abortion appointment and then decide
they do not want to have an abortion. See id. at 220-21.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 94 of 136 PageID #: 6602

94a

health outcomes; “both groups, women who had an abortion and women who were denied an
abortion, [had] similar levels of anxiety, depression, suicidal ideation[,] posttraumatic stress, [and]
self-esteem.” 43 Id. at 104.
Dr. Biggs disagreed with Dr. Coleman’s opinion that the Turnaway Study’s low
participation rate is a fatal flaw. See id. at 102. Dr. Biggs stated that the participation rate is “what
you would expect” for similarly-designed longitudinal studies. Id. at 103-04. The study “had an
incredibly good retention rate” for this type of study because it “lost only five percent of [its]
participants from wave to wave” (i.e., every six months) over the five-year period. Id. at 102, 192.
On cross examination, Dr. Biggs did not dispute that “at least over 45 percent” of the participants
“have dropped out of the study over time.” Id. at 216. Dr. Biggs “took many steps in order to
assess to what extent the participation rate may have biased our findings,” and the published results
of her sensitivity analyses “show that the overall conclusions . . . do not differ when we run the
analyses in those different ways.” Id. at 103.
Dr. Biggs’ own research on abortion and mental health is consistent with “a general
consensus within the scientific community” on this topic. Id. at 104. She indicated that “a series
of reviews . . . published by leading mental health organizations, psychiatric organizations,
scientific organizations, and researchers . . . have concluded that abortion does not increase
women’s risks from a negative mental health outcome.” Id. at 104-05. These organizations
include the American Psychological Association (“APA”), which Dr. Biggs described as the

43

With respect to depression, suicidal ideation, and symptoms of posttraumatic stress,
“[t]here was no difference[] between the women who obtained an abortion and the women who
did not obtain an abortion” “for the entire five-year period.” Biggs, Tr. 9/26/19 (Vol. 4) pp. 99100. With respect to anxiety, “women who were unable to obtain an abortion had higher levels of
anxiety at the time of being denied an abortion than the women who were able to obtain their
abortion.” Id. at 99. But “by six months to one year, the two groups did not differ[] for the rest of
the five-year period.” Id. at 100.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 95 of 136 PageID #: 6603

95a

“leading mental health organization in the U.S.,” the Academy of Medical Royal Colleges in the
United Kingdom, and the National Academies of Sciences, Engineering, and Medicine, “a leading
scientific organization in the U.S.” Id. at 105.
Dr. Biggs indicated that an APA task force reviewed over 200 papers in conducting
a thorough literature review published in 2008. Id. at 105, 107. Dr. Biggs believes this to be a
reliable source because “they . . . did a very thorough search. They were very clear and delineated
all the steps they did in terms of reviewing the evidence, and they looked at the quality of the
evidence to formulate their conclusions” that abortion is not associated with negative mental health
outcomes. Id. at 107.
According to Dr. Biggs, the Academy of Medical Royal Colleges in the United
Kingdom published a “very thorough” systematic review in 2011 in which it reviewed 180 papers
on the mental health outcomes of abortion. Id. at 105-06. Dr. Biggs believes this systematic
review is a reliable source because many studies were reviewed, and “they were very clear and
transparent in terms of the way they searched their publications and the way they graded the quality
of each study, and they were very thorough with their methods.” Id. at 106. It contains a table of
excluded studies that shows that the reviewers excluded ten studies for which Dr. Coleman is the
lead author for various reasons, including “inappropriate health measure,” “beyond scope of the
review,” “no useable data,” “inappropriate comparison group,” and “inappropriate control of
previous mental health.” Id. at 226-28.
Finally, Dr. Biggs noted that the National Academies of Sciences, Engineering, and
Medicine reviewed the evidence on the safety of abortion, including data from the Turnaway
Study, and “summarized the evidence on mental health harm” in a report published in 2018. Id.
at 105-07. This report “concluded that abortion does not increase women’s risk for negative mental

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 96 of 136 PageID #: 6604

96a

health issues.” Id. at 106. Dr. Biggs indicated that this report “is not as formal a systematic review
as the other ones,” but she believes it is a reliable source because it was authored by “a leading
scientific organization” and because “it’s a comprehensive review of the latest evidence on the
quality of abortion care.” Id. at 108-09. Dr. Biggs testified that there are other literature reviews
that have reached similar conclusions, and she cited some of them in her expert report. See id. at
109.
In response to Dr. Coleman’s opinion that research demonstrates that abortion
increases women’s risk of mental health harm, Dr. Biggs stated that she agrees with Dr. Coleman
“that there are many studies out there” and that “there’s a large body of evidence.” Id. at 110.
However, Dr. Biggs explained that
[t]he challenge . . . is what all of these reviews have shown is, when you
rely on the lower quality studies, those tend to conclude that abortion leads
to mental health harm, whereas the higher-quality studies show that it does
not increase women’s risk for mental health harm, and there’s a series of
reasons why that happens.
Id. Dr. Biggs stated that one reason for this is that “it’s really important to look at two similar
groups of women.” Id. at 111. Many studies that are unreliable compare women who have an
abortion with women who are not pregnant or who have intended pregnancies they carry to term.
See id. These studies “don’t take into account women’s pregnancy intentions. And we know very
well that the women who seek an abortion versus the women who have an intended pregnancy are
in very different places in their lives.” Id. Dr. Biggs indicated that studies that have this kind of
comparison group issue are “going to erroneously conclude that the women who are never
pregnant or the women who have intended pregnancies are doing better when really they were
doing better before they even became pregnant than the other group.” Id. at 111-12. According
to Dr. Biggs, another flaw of lower-quality studies is the use of inadequate controls for mental

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 97 of 136 PageID #: 6605

97a

health history, “as well as other factors that we know are associated with having adverse
psychological outcomes.” Id. at 112.
Dr. Biggs spent a considerable amount of time methodically criticizing the quality
of several studies Dr. Coleman cited as supportive of her opinions regarding decision-making and
post-abortion mental health outcomes. Dr. Biggs found these studies to be severely lacking in
their methodologies and irrelevant to whether a mandatory waiting period benefits women’s
decision-making. See id. at 113-23.
Regarding Dr. Coleman’s meta-analysis, Dr. Biggs indicated that “[i]mmediately
following the publication of her meta-analysis, there were a number of researchers, people who
submitted letters critiquing her review.” Id. at 123. Several critiques were published in the British
Journal of Psychiatry, the same journal that published Dr. Coleman’s meta-analysis, including a
critique by J. H. Littell and J. C. Coyne in 2012. See id. at 123, 129. The Littell and Coyne critique
noted that Dr. Coleman’s meta-analysis did not follow any of the established guidelines for
conducting a meta-analysis. See id. at 124-25. It also identified as flaws the fact that Dr.
Coleman’s meta-analysis had no duplicate study selection or duplicate data extraction, did not
describe the search strategy in sufficient detail, did not provide a list of excluded studies, did not
document the scientific quality of the included studies, and did not use “[a]ppropriate methods . .
. in combining the findings of the studies.” Id. at 125-28. Dr. Biggs agreed with and expanded on
these criticisms of Dr. Coleman’s meta-analysis. 44

44

Dr. Biggs testified in great detail about the flaws of Dr. Coleman’s meta-analysis, but
the ones the Court found particularly important are that Dr. Coleman listed herself as the sole
author (without disclosing that students assisted her in rating the evidence) and included eleven of
her own studies in the meta-analysis, did not have someone else simultaneously extract the data
and evaluate it, and was not transparent in her search strategy and in explaining what studies she
included and excluded and the reasons for inclusion and exclusion. See id. at 125-31, 221. These
flaws deprive Dr. Coleman’s meta-analysis of all credibility.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 98 of 136 PageID #: 6606

98a

In response to Dr. Coleman’s testimony regarding women experiencing decisional
uncertainty in the abortion context, Dr. Biggs testified that the research on this subject, by others
and by Dr. Biggs herself, shows that women seeking an abortion have high levels of decisional
certainty. In one study, 95% of women who seek abortion care are certain of their decisions upon
arriving at the clinic; and in another study, “the vast majority” are certain at the time of accessing
care. See id. at 133-34. Additionally, the Turnaway Study shows that in the three-year-period for
which its results have been published, “95 percent of women reported that they felt that abortion
was the right decision for them.” Id. at 134. Dr. Biggs cited studies that found regret was much
more prevalent among women who were denied abortion care than among those who obtained it.
See id. at 138. “[A]mong the women who reported regret as an emotion that they were feeling, 89
percent of those women still stated that they felt that abortion was the right decision for them.” Id.
at 139. Further, Dr. Biggs has no reason to think” that a mandatory waiting period “would prevent
[women] from feeling regret.” Id.
Regarding regret, Dr. Biggs indicated that it is important to distinguish between
situational regret and decisional regret when discussing abortion. Dr. Biggs defined situational
regret as “regretting . . . the circumstances that led you to the decision to have an abortion,” such
as financial circumstances or circumstances related to a relationship. Id. at 135. She defined
decisional regret as “prefer[ing] to not have to make that decision.” Id. The distinction between
these two concepts is important in the abortion context “because women may report regret, but it
may not be about the abortion decision. It might be about their circumstances that lead them to
that decision.” Id.
Dr. Biggs indicated that it is also important to distinguish between “mental health
problems” and “negative psychological experiences or reactions” when discussing the mental

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 99 of 136 PageID #: 6607

99a

health effects or outcomes of abortion. Id. at 137. She noted that the APA Task Force on Mental
Health and Abortion defines “mental health problems” as “clinically significant disorders assessed
with valid and reliable measures [for] physician diagnosis.” Id. at 135-36. It defines “negative
psychological experiences or reactions” as “negative behaviors and emotions, guilt, regret, [and]
sadness.” Id. at 135-37. Dr. Biggs indicated that the distinction between these two concepts is
important because experiencing negative emotions as “part of everyday life” is not necessarily
concerning, “whereas a mental-health problem refers to something that’s clinically significant and
something that we should be concerned about from a health perspective.” Id. at 137. Dr. Biggs
testified that “[i]n reviewing [Dr. Coleman’s] report and her testimony, I felt that she was
conflating those two and not distinguishing the difference between emotions and a clinically
significant condition.” Id.
On cross-examination, Dr. Biggs agreed that the stated intent of § 39-15-202(a)-(h)
is to ensure that informed consent before an abortion is provided. See id. at 148-49. She is unaware
of any research in Tennessee that shows that it is detrimental to women to be informed of the risks,
benefits, or alternatives of the procedure. See id. at 150-52. Dr. Biggs is not familiar with any
way in which communicating this information would prevent women from being able to give
informed consent, but she believes that a mandatory waiting period may interfere with the
informed consent process if it “pushe[s] [them] back past a gestational age.” Id. at 153-54. She
stated that “[t]he research I know from other states where women are required to get mandated
counseling and come back later, they report harm to that, anxiety, increased costs, more travel,
coming to later gestational age, so I would argue that is harmful.” Id. at 152. Dr. Biggs agreed
that there are no studies that show that patients cannot understand information delivered to them
by physicians, but she added that “I also think there are no studies to show that someone else

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 100 of 136 PageID #: 6608

100a

couldn’t give you information.” Id. at 157.
Dr. Biggs was asked about the findings of a paper by her colleague Sarah Roberts
entitled “Utah’s 72-Hour Waiting Period for Abortion: Experiences Among a Clinic-Based
Sample of Women.” Id. at 171-72. The study’s researchers recruited 500 women (from four
clinics) who attended a first appointment, and Dr. Biggs agreed that out of the 309 women who
completed follow-up telephone interviews three weeks later, “86 percent had an abortion, 8 percent
were no longer seeking an abortion, 3 percent had miscarried or discovered they were not pregnant,
and 2 percent were still seeking an abortion.” Id. at 172-73. She agreed that the main reason the
participants did not return for the second visit was “they just couldn’t do it” (in response to openended questions) or “they had changed their minds” (in response to closed-ended questions). Id.
at 173. Dr. Biggs seemed to agree that the study’s finding that 8% of women “were no longer
seeking an abortion” could be applied to Tennessee, but she stated that for those who did not return,
“[i]t doesn’t necessarily mean that they decided not to come back.” Id. at 175. Dr. Biggs “think[s]
it’s possible that in Tennessee, there will be some women who don’t obtain – aren’t able to obtain
the care, they’re beyond the gestational age limit.” Id. Dr. Biggs agreed that 71% of the women
in the study who were still pregnant at follow up indicated in response to closed-ended questions
that the reason for not having the abortion was that they changed their minds. Id. at 176. In
response to this data, Dr. Biggs explained that
we know that women, when they come to a visit the first time . . . – they
might just be seeking information, and what they found in this study, among
those women who changed their mind . . . I don’t know how many, but 11
of them indicated that – baseline, that they preferred to have a baby, . . . so
11 of these women – so 4 percent never wanted to – it sounds like that
wasn’t really something they wanted to do in the first place.
Id. at 176-77. Dr. Biggs did not dispute that all of these women wanted to get information, but she
noted that women are “in different stages of their decision-making when they seek care. Some are

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 101 of 136 PageID #: 6609

101a

seeking more information. Some are very decided.” Id. at 177. And “[t]hey are not all necessarily
planning to have an abortion that day when they come in.” Id. at 178. If women “want to come
in and gather information” from the abortion provider, they should be able to do that. Id. at 180.
Dr. Biggs conceded that “women can come to a visit, and they can change their mind[s],” but she
stated, “I don’t think they need a waiting-period requirement in order to change their minds.” Id.
at 178.
Dr. Biggs agreed that the study found that “[o]verall, Utah’s 72-hour waiting period
and two-visit requirement did not prevent women who presented for information visits at the study
facilities from having abortions,” but she noted that “the sentence continues, ‘but [it] did burden
women with financial costs, logistical hassles, and extended periods of dwelling on decisions they
had already made.’” Id. at 178-79. On redirect, Dr. Biggs testified that the study on Utah’s waiting
period found that “[o]n average, eight days elapsed between the information visit and the
abortion.” Id. at 228. The authors concluded that “[a]s most women in the cohort were not
conflicted about their decision when they sought care, the 72-hour waiting requirement seems to
have been unnecessary. Individualized patient counseling for the small minority who were
conflicted when they presented for care may have been more appropriate.” Id. Dr. Biggs indicated
that one woman in this study was unable to have an abortion because she was “pushed beyond the
facility’s gestational age limit,” and two women did not have an abortion because they were
“pushed beyond their own personal gestational age limit that they felt in terms of feeling
comfortable.” Id. at 228-29. Dr. Biggs also indicated that “one of the main focuses of the paper
were . . . the burden[s]” of the 72-hour waiting-period law. Id. at 229. She indicated that the paper
“talk[s] about the burden of having to take time off work, the distance traveled to the clinic, lost
times scheduling an appointment, arranging childcare, increased costs, waiting, making travel

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 102 of 136 PageID #: 6610

102a

arrangements, feeling frustrated, feeling physically sick, . . . questioning the decision, feeling
nervous about the procedure.” Id. Dr. Biggs indicated that the findings of this paper do not suggest
that mandatory waiting period laws caused patients to change their minds. See id. at 230.
Dr. Biggs was asked on cross-examination about another study by Roberts on
Utah’s 72-hour waiting period entitled “Do 72-Hour Waiting Periods and Two-Visit Requirements
for Abortion Affect Women’s Certainty?” Id. at 181. Dr. Biggs agreed that the study found that
“[c]hanges in certainty were primarily in the direction of increased certainty, with more women
reporting an increase, 29 percent, than a decrease, 8 percent.” Id. She commented that
[i]n reading these papers and looking at some of the quotes coming from
women, what it shows is . . . women are coming in certain, and then they’re
more certain, so it’s not clear that it’s beneficial because it also is adding
more frustration, more increased cost burden, now they’re at later
gestational age.
So if you are really certain and now you just feel more certain, it’s not clear
to me that that’s better when we look at some of the negative impacts.
Id. at 182. Moreover, Dr. Biggs noted that “if you’re already certain, and now you’re more certain,
that doesn’t mean you have . . . high decisional conflict, so we can’t assume that the women who
become more certain are experiencing decisional conflict.” Id. at 183.
The Court finds Dr. Biggs’ testimony to be fully credible and gives it great weight.
Dr. Biggs testified convincingly that contrary to Dr. Coleman’s opinion on abortion and mental
health, high-quality studies demonstrate, and leading organizations within the scientific
community agree, that abortion does not increase the risk of negative mental health outcomes. Dr.
Coleman’s meta-analysis has serious flaws and can therefore be given no weight, as Dr. Biggs and
others have noted. Dr. Biggs also presented convincing evidence that rebuts Drs. Coleman’s and
Podraza’s opinions that regret is common after an abortion, including studies showing that women
who have an abortion report lower levels of regret post-abortion than women who are unable to

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 103 of 136 PageID #: 6611

103a

have an abortion, and of the women who report regret, 89% still feel that abortion was the right
decision for them; 95% of women are certain of their decisions when accessing care; and 95% of
women feel that abortion was the right decision for them. Based on Dr. Biggs’ testimony and the
evidence she cited, the Court finds that women who have an abortion are no more likely than
women generally to have, in the long run, higher levels of anxiety, depression, suicidal ideation,
and posttraumatic stress symptoms, or lower levels of self-esteem. The evidence shows that a
waiting period does not benefit decision-making, prevent feelings of regret, or cause women to
change their minds; rather, it is harmful because it makes it significantly more difficult to obtain
an abortion by increasing the costs (of the procedure itself and to get to the clinic twice) and the
frustration and anxiety of having to wait for the procedure or missing it altogether.
Instead of having obstetrician/gynecologist Wesley F. Adams testify at trial, the
parties stipulated to submit designations and exhibits from his deposition testimony. In 1980, Dr.
Adams and Gary Boyle, M.D., established Adams & Boyle, P.C. (“Adams & Boyle”), which
provides women’s health services and gynecological care. See Adams Dep. at 17 [docket entry
216-1]. Adams & Boyle operated a facility in Nashville until the facility closed in September
2018, and Adams & Boyle continues to operate a facility in Bristol that Dr. Adams described as
“a doctor’s office” and “not a clinic.” 45 Id. at 17, 111, 135; SAC ¶ 14. The Nashville facility
provided medication abortions through 10 weeks LMP and surgical abortions through 16 weeks
LMP. See SAC ¶ 14. The Bristol office provides medication abortions from 3 to 10 weeks LMP,
and it provides surgical abortions from 6 weeks and 3 days LMP to 13 weeks and 6 days LMP.

45

Dr. Adams indicated that the Nashville clinic closed in 2018 because “[w]e got an offer
we couldn’t refuse on the building out of the blue.” Adams Dep. at 135. Adams & Boyle was
dissolved in 2019 [docket entry 265 ¶¶ 1-2]. Adams & Boyle’s Bristol facility is now operated by
Bristol Regional Women’s Center, P.C., which is owned by Dr. Adams. Id. ¶¶ 3-4.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 104 of 136 PageID #: 6612

104a

See Adams Dep. at 90, 101, 109; see SAC ¶ 14.
Dr. Adams provides all services at the Bristol office, and approximately six other
physicians from other states worked with Drs. Adams and Boyle at the Nashville facility from
2010 until 2018. See Adams Dep. at 19-21. Adams & Boyle hired one additional physician in
Nashville after § 39-15-202(a)-(h) took effect. 46 See id. at 20-21. Adams & Boyle no longer
provides obstetrical care and therefore Dr. Adams refers women who want to carry the pregnancy
to term to another physician. Id. at 114-15. The Bristol office maintains its own adoption referral
list and helps patients find other agencies. See id. at 116-17.
Dr. Adams testified that prior to § 39-15-202(a)-(h) taking effect, Adams & Boyle’s
Tennessee facilities would disclose to patients the state-mandated information listed in subsection
(b) for purposes of providing informed consent. See id. at 35-36. The informed consent process
would occur after an ultrasound was performed to determine gestational age. See id. at 38-39.
Adams & Boyle “had group counseling for years,” id. at 39, and physicians were not involved in
the counseling process. See id. at 36. At the Nashville facility, the informed consent disclosure
would be provided by various individuals, including counselors, the director, and the registered
nurse, who would use an informed consent form. See id. Counselors would use notes to ensure
they covered everything. See id. at 36-37. Dr. Adams estimated that the informed consent process
would take between fifteen and twenty-five minutes: five or ten minutes to go through the forms
“and another ten minutes or fifteen minutes for the group counseling by the individual.” Id. at 39.

46

Dr. Adams testified that hiring physicians to work at the facility “has been a problem”
because trained physicians who “believe in the procedure” do not “want to put up with the hassle,
the picketing, the protesters, the picketing [at] their residence and things like that.” Adams Dep.
at 103-04. In addition, it has always been difficult to hire and retain staff given the nature of the
work that they do. See id. Dr. Adams testified that he has received threatening letters and that
protesters yell negative things outside of his office “on a daily basis.” Id. at 104.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 105 of 136 PageID #: 6613

105a

Before the statute was enacted, patients at Adams & Boyle would sometimes
“change their mind, mostly teenagers being coerced by parents.” Id. at 121. Dr. Adams has had
patients take the first medication abortion pill but then decide not to take the second. See id. at
110. He indicated that “[a]s soon as we hear that someone doesn’t want to do [the abortion], we
tell them to leave immediately” and “come back when they [a]re more certain.” Id. at 121-23.
After § 39-15-202(a)-(h) took effect, patients at their first appointment at the
Nashville facility are counseled through a video 47 that they watch in a group (between three and
twenty people) or individually. See id. at 37, 118-19. Physicians are not involved in presenting
the video to patients and are not in the room during its viewing. See id. at 37, 118. Dr. Adams is
not aware of any changes made to the video counseling after § 39-15-202(a)-(h)’s enactment. See
id. at 39-40. After patients watch the video, they are counseled as a group by a physician, who
uses an informed consent form. See id. at 38, 118. Patients have their own copy of the form that
they use to follow along with the physician and that they sign. See id. at 38, 45, 118-19. After
covering the information in the form, the physician answers questions individually. See id. at 119.
The physician’s group consultation lasts between ten and sixteen minutes. See id. Patients go
through the informed consent process alone, i.e., unaccompanied by a partner or husband, unless
the patient is a minor, in which case a parent or legal guardian is asked to be present. See id. at
122. Dr. Adams explained that for adults, “[i]t’s strictly one on one, so there’s no coercion.” Id.
At the second appointment Dr. Adams asks patients if they have any questions and
asks them about their certainty, their understanding of the procedure, and their feelings regarding
coercion. Id. at 119-20. Dr. Adams and his staff will “stop everything immediately” and has

47

Dr. Adams indicated that there is one video for medical abortion and another video for
surgical abortion. See Adams Dep. at 145. If the patients in a group have the option to do either
procedure, then the group will watch both videos. See id. at 145-46.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 106 of 136 PageID #: 6614

106a

patients wait if they detect any ambivalence, conflict, or uncertainty. Id. at 151-52. Dr. Adams
will not perform a procedure for patients who are being coerced to have it done. See id. at 15253. This has been his practice for the last thirty years, and it is his current practice. See id. Adams
& Boyle does not follow up with patients who need more time to consider their options. See id. at
123. It also does not follow up with patients who attend a first appointment but do not return for
a second (after § 39-15-202(a)-(h) took effect) because that would be an invasion of their privacy.
See id. at 123-24.
Following § 39-15-202(a)-(h)’s enactment, the only change Adams & Boyle made
to its informed consent form was to add a page that addressed the mandatory waiting period. See
id. at 99, 101. Dr. Adams stated, “We’ve had a multitude of patients ask us to and bribe us, beg,
plead. ‘I’ll do anything,’ actually pull money out of their pocketbook. ‘I’ve got to get this done,’
but we have not done that.” Id. at 106. He testified that patients complain about having to wait
“every single day” and that the issue “comes up all day long,” including in “a dozen phone calls a
day.” Id. at 126. He elaborated on cross-examination that patients complain about it
[e]very day. They complain about it when they hear about it on the phone.
They complain about it when they get there. They verbalize having to pay
extra money, extra distance, the extra time, and most importantly, they don’t
like the idea of someone else telling them how to manage their lives on
something that they consider so personal.
Id. at 151. Dr. Adams testified that abortion patients have “[n]ever” expressed to him or his staff
that the waiting period benefitted them. Id.
After § 39-15-202(a)-(h)’s enactment, a first visit at the Nashville facility took “as
long as three or four hours and sometimes . . . six hours.” Id. at 46. Dr. Adams did not know the
duration of a second visit at the Nashville facility, but he indicated that a second visit at the Bristol
office lasts thirty to forty-five minutes. See id. at 47-48. The duration of the second visit depends

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 107 of 136 PageID #: 6615

107a

on the patient volume, the time it takes to do the paperwork, and the type of procedure. See id. at
53-54. Dr. Adams indicated that after the waiting period was implemented, he spends almost twice
as much time with each individual abortion patient. See id. at 106. Prior to the statute’s enactment,
a medication abortion required two trips. See id. at 109-110. After its enactment, a medication
abortion requires three trips. See id. at 110.
At the first visit, Adams & Boyle charges patients a counseling fee ($50) and an
ultrasound fee ($150), and the latter is deducted from the cost of the procedure. See id. at 49. The
counseling fee is refunded if the patient “is not pregnant based on the ultrasound, if she’s too far
along based on the ultrasound or if she changes her mind based on the ultrasound . . . because the
counseling basically did not ever take place.” Id. Dr. Adams indicated that financial aid to obtain
an abortion was available to patients at the Nashville facility through the National Abortion
Federation and is available to patients at the Bristol office through agencies from Virginia and
Tennessee. 48 See id. at 50-52. The Nashville facility had a student discount, and the Bristol office
has a student discount, a military discount, and a mileage discount “especially since the law went
into effect.” Id. at 146-47. The mileage discount was “[i]ndirectly” implemented in response to,
or as a result of, § 39-15-202(a)-(h) “because people were driving further.” Id. at 147. Dr. Adams
stated that after the Nashville facility closed, its calls were forwarded to the Bristol office, which
was then
getting an average of 12, 15, 18 phone calls a day from a patient requesting
services and actually finding out there’s a long waiting period, days or
weeks[,] in Nashville for Planned Parenthood. 49 So we’re getting a not
48

Dr. Adams explained that the Bristol office is not a member of the National Abortion
Federation because it is smaller, has fewer employees, and has a lower patient volume, which do
not “justify us jumping through hoops to become a member.” Adams Dep. at 51, 141.
49

Dr. Adams indicated that he has referred patients to Planned Parenthood of Nashville or
PPMET, including after § 39-15-202(a)-(h) took effect. See Adams Dep. at 135.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 108 of 136 PageID #: 6616

108a

insignificant number of patients driving four and a half hours each way
times three to come to Bristol.
Id. at 136. He testified that “to be honest, we felt sorry that they were being inconvenienced, and
we were trying to help them with their expenses. So the further they came, the more of a discount
we offered.” Id. at 147.
Before § 39-15-202(a)-(h) was enacted, appointments for abortion services at
Adams & Boyle were made by telephone. See id. at 40. After its enactment, the process for
scheduling appointments did not change; however, now a patient only schedules the first
appointment by telephone because the second appointment depends on the type of procedure she
is having, her availability, and the office’s availability. See id. at 40-41. Dr. Adams indicated that
the cancellation rate for the first appointment is “[a]nywhere from 20 to 40 percent.” Id. at 42.
Women who are further along based on the date they report over the telephone as their last
menstrual period “would generally need to get in as soon as possible,” id., and are “encouraged to
come in as soon as possible or . . . the next possible opening business day.” Id. at 44. Dr. Adams
stated that a woman seeking abortion care can be seen for her first appointment “within 24 hours
unless we’re closed or I’m out of town or at a meeting or a vacation.” Id.
Dr. Adams “believe[s] nobody should have to wait [for an abortion], period.” Id.
at 56. He opined that waiting does not benefit a patient’s decision-making process “because
they’ve already waited before they came in, and they’ve already made their decision. I have not
personally seen it benefit anybody.” Id. He stated, “I think all patients experience some stress and
anxiety just by being pregnant, whether they’re going to continue the pregnancy or not, and those
that are forced to wait should not be made to wait, period.” Id. at 78. He stated that experiencing
stress and anxiety could complicate a medical condition and risk causing substantial psychological
harm. See id. at 78-79. He testified that “at essentially every visit” he sees “patients [who] are

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 109 of 136 PageID #: 6617

109a

visibly upset because they have to wait,” and he believes being visibly upset is indicative of
psychological harm. Id. at 79. He stated that patients who are pushed beyond the gestational age
limit for a medication abortion because of the required waiting period and due to additional delays
caused by weekends all suffer emotional distress from not being able to get the type of abortion
they prefer. See id. at 80.
After § 39-15-202(a)-(h) was enacted, the Nashville facility increased its hours of
operation to see more patients and to accommodate those affected by the mandatory 48-hour wait,
but no changes were made to the Bristol office’s hours. See id. at 44-45, 117-18, 126-27. Around
the time that the waiting period was implemented, the prices at the Nashville facility were raised
to cover the cost of hiring extra help to clean the office, the cost of hiring extra physicians to
counsel patients, and the cost of seeing “extra patients . . . on . . . days they had not been seen on
before.” Id. at 127-28, 142.
The Court finds Dr. Adams’ testimony to be fully credible and gives it great weight.
He testified convincingly that Adams & Boyle made only minor changes to its informed consent
process following § 39-15-202(a)-(h)’s enactment to address the mandatory waiting period.
Otherwise, Adams & Boyle already covered the information that subsection (b) requires patients
to receive.

No abortions are performed by this provider for patients who are ambivalent,

conflicted, uncertain, or being coerced to have the procedure. For patients who are already certain,
and for patients who will be pushed beyond the gestational age limit for a medication abortion
when they return for the procedure, the requirement to wait causes them to suffer psychological
harm.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 110 of 136 PageID #: 6618

110a

IV.

Legal Standards and Conclusions of Law
A.

Standing
The Supreme Court has “long permitted abortion providers to invoke the rights of

their actual or potential patients in challenges to abortion-related regulations.” June Med. Servs.
L. L. C. v. Russo, 140 S. Ct. 2103, 2118 (2020). Moreover, the Supreme Court has “generally
permitted plaintiffs to assert third-party rights in cases where the ‘enforcement of the challenged
restriction against the litigant would result indirectly in the violation of third parties’ rights.’” Id.
at 2118-19 (emphasis in original) (quoting Kowalski v. Tesmer, 543 U.S. 125, 130 (2004)). As the
Supreme Court has explained, “[i]n such cases, . . . ‘the obvious claimant’ . . . is the party upon
whom the challenged statute imposes ‘legal duties and disabilities.’” Id. at 2119 (quoting Craig
v. Boren, 429 U.S. 190, 196-97 (1976)) (internal citations omitted).
In light of Supreme Court precedent, plaintiffs in the instant matter have standing
to challenge the constitutionality of § 39-15-202(a)-(h), an abortion regulation, on behalf of
themselves and their patients. The statute regulates plaintiffs’ conduct, and subsection (h) subjects
physicians to criminal and professional penalties for non-compliance, which “eliminates any risk
that their claims are abstract or hypothetical.” Id. Plaintiffs may also seek relief on behalf of their
patients who are plainly affected by the challenged statute as well.
B.

The Law Applicable to Abortion Restrictions
The Supreme Court recently reiterated the legal standards courts must apply in a

case such as this in which plaintiffs challenge the constitutionality of a legal restriction on a
woman’s right to have an abortion. In Russo, 140 S. Ct. at 2112, the Court stated:
In Whole Woman’s Health v. Hellerstedt, 579 U.S. —, 136 S. Ct. 2292, 195
L.Ed.2d 665 (2016), we held that “‘[u]nnecessary health regulations that
have the purpose or effect of presenting a substantial obstacle to a woman
seeking an abortion impose an undue burden on the right’” and are therefore

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 111 of 136 PageID #: 6619

111a

“constitutionally invalid.” Id., at —, 136 S. Ct., at 2300 (quoting Planned
Parenthood of Southeastern Pa. v. Casey, 505 U.S. 833, 878, 112 S. Ct.
2791, 120 L.Ed.2d 674 (1992) (plurality opinion); alteration in original).
We explained that this standard requires courts independently to review the
legislative findings upon which an abortion-related statute rests and to
weigh the law’s “asserted benefits against the burdens” it imposes on
abortion access. 579 U.S., at —, 136 S. Ct., at 2310 (citing Gonzales v.
Carhart, 550 U.S. 124, 165, 127 S. Ct. 1610, 167 L.Ed.2d 480 (2007)).
The Supreme Court “cautioned that courts must review legislative factfinding under a deferential
standard” without “plac[ing] dispositive weight on those findings, for the courts retai[n] an
independent constitutional duty to review factual findings where constitutional rights are at stake.”
Id. at 2120 (internal citations and quotation marks omitted). “The right of the woman to choose to
have an abortion before viability and to obtain it without undue interference from the State” is
weighed against the State’s “legitimate interests from the outset of the pregnancy in protecting the
health of the woman and the life of the fetus that may become a child.” Casey, 505 U.S. at 846.
See also EMW Women’s Surgical Ctr., P.S.C. v. Friedlander, 960 F.3d 785, 795 (6th Cir. 2020)
(“As explained by the Supreme Court in Whole Woman’s Health . . . we answer this [undue burden]
question by weighing ‘the burdens a law imposes on abortion access together with the benefits
those laws confer.’”).
A challenged statute is unconstitutional if
“it will operate as a substantial obstacle to a woman’s choice to undergo an
abortion” in “a large fraction of the cases in which [it] is relevant.” 505
U.S. at 895, 112 S. Ct. 2791 (majority opinion). In Whole Woman’s Health,
we reaffirmed that standard. We made clear that the phrase refers to a large
fraction of “those women for whom the provision is an actual rather than an
irrelevant restriction.” 579 U.S., at — (slip op., at 39) (quoting Casey, 505
U.S. at 895, 112 S. Ct. 2791; brackets omitted).
Russo, 140 S. Ct. at 2132. The Sixth Circuit has held that the “large fraction” required by Casey,
while “more conceptual than mathematical,” means more than 12% of those affected by the statute
in question. Cincinnati Women’s Servs., Inc. v. Taft, 468 F.3d 361, 374 (6th Cir. 2006).

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 112 of 136 PageID #: 6620

112a

In Casey, the Supreme Court considered a Pennsylvania statute that required a
woman seeking an abortion to receive certain information from the abortion provider at least 24
hours beforehand, thereby requiring her to “make at least two visits to the doctor.” Casey, 505
U.S. at 886. The Court found that “[i]n theory, at least, the waiting period is a reasonable measure
to implement the State’s interest in protecting the life of the unborn, a measure that does not
amount to an undue burden.” Id. at 885. However, the Court went on to say:
Whether the mandatory 24-hour waiting period is nonetheless invalid
because in practice it is a substantial obstacle to a woman’s choice to
terminate her pregnancy is a closer question. The findings of fact by the
District Court indicate that because of the distances many women must
travel to reach an abortion provider, the practical effect will often be a delay
of much more than a day because the waiting period requires that a woman
seeking an abortion make at least two visits to the doctor. The District Court
also found that in many instances this will increase the exposure of women
seeking abortions to “the harassment and hostility of anti-abortion
protestors demonstrating outside a clinic.” 744 F. Supp., at 1351. As a
result, the District Court found that for those women who have the fewest
financial resources, those who must travel long distances, and those who
have difficulty explaining their whereabouts to husbands, employers, or
others, the 24-hour waiting period will be “particularly burdensome.” Id.,
at 1352.
These findings are troubling in some respects, but they do not demonstrate
that the waiting period constitutes an undue burden. We do not doubt that,
as the District Court held, the waiting period has the effect of “increasing
the cost and risk of delay of abortions,” id., at 1378, but the District Court
did not conclude that the increased costs and potential delays amount to
substantial obstacles. Rather, applying the trimester framework’s strict
prohibition of all regulation designed to promote the State’s interest in
potential life before viability, see id., at 1374, the District Court concluded
that the waiting period does not further the state “interest in maternal health”
and “infringes the physician’s discretion to exercise sound medical
judgment,” id., at 1378. Yet, as we have stated, under the undue burden
standard a State is permitted to enact persuasive measures which favor
childbirth over abortion, even if those measures do not further a health
interest. And while the waiting period does limit a physician’s discretion,
that is not, standing alone, a reason to invalidate it. In light of the
construction given the statute’s definition of medical emergency by the
Court of Appeals, and the District Court’s findings, we cannot say that the
waiting period imposes a real health risk.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 113 of 136 PageID #: 6621

113a

We also disagree with the District Court’s conclusion that the “particularly
burdensome” effects of the waiting period on some women require its
invalidation. A particular burden is not of necessity a substantial obstacle.
Whether a burden falls on a particular group is a distinct inquiry from
whether it is a substantial obstacle even as to the women in that group. And
the District Court did not conclude that the waiting period is such an
obstacle even for the women who are most burdened by it. Hence, on the
record before us, and in the context of this facial challenge, we are not
convinced that the 24-hour waiting period constitutes an undue burden.
Id. at 885-87. As the Sixth Circuit has noted, the record in Casey regarding the 24-hour waiting
period “was sparse.” Taft, 468 F.3d at 372.
C.

Benefits of the Mandatory Waiting Period of § 39-15-202(a)-(h)
Defendants argue that the statute’s mandatory waiting period furthers two state

interests: (1) protecting fetal life “by offering prospective abortion patients an opportunity to make
a different choice,” and (2) benefitting women’s mental and emotional health “by allowing for
more . . . [decisional] certainty.” Rieger, Tr. 9/23/19 (Vol. 1) pp. 29-30 (opening statement). For
the reasons explained below, the Court finds that defendants have not shown that § 39-15-202(a)(h) actually furthers either of these interests.
Defendants have not demonstrated that § 39-15-202(a)-(h) advances the asserted
state interest of protecting fetal life. Defendants rely on data from plaintiffs’ records and testimony
from plaintiffs’ experts showing that after the statute’s enactment some patients who attended a
first appointment with an abortion provider did not return for a second appointment with that
provider. Defendants’ calculation appears to be that “since the enactment of the waiting period,
approximately 2,365 patients had a first appointment and received informed consent and then did
not come back to have an abortion at that facility.” 50 Id. at 28 (referencing a PPGMR interrogatory

50

The record reflects that between July 1, 2015, and January 31, 2018, approximately 729
patients obtained an abortion-related ultrasound at PPGMR but did not obtain an abortion there,

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 114 of 136 PageID #: 6622

114a

response).
The evidence does not support defendants’ argument that these abortions were not
performed (and therefore fetal life was protected to this extent) because these women changed
their minds after further reflecting for at least 48 hours. Plaintiffs do not track the reasons for “noshows” or cancellations of appointments due to privacy concerns and because it is irrelevant to
patients’ medical care. Further, plaintiffs’ experts testified that there are many possible reasons
why a patient may not attend a second appointment. Reasons include seeking care elsewhere, no
longer seeking abortion care, decisional uncertainty, an inability to return to the clinic because of
logistics, a scheduling conflict, and ineligibility for abortion care (due to miscarriage, ectopic
pregnancy, no pregnancy, or too advanced pregnancy). The Court accepts Dr. Wallett’s testimony
that “[i]t’s impossible to know why patients no-show[]” for an appointment, Wallett, Tr. 9/23/19
(Vol. 1) pp. 85-86, and that there is not a direct correlation between the number of patients who
express uncertainty at their first appointment but do not return for their second. See id. at 145-46.
Defendants’ expert Dr. Podraza agreed that a patient who consulted with him about a procedure
but did not return to have the procedure may have sought care elsewhere. He agreed that there are
“multiple reasons” such a patient might not return. Podraza, Tr. 9/26/19 (Vol. 4) pp. 48-49.
The evidence does not support defendants’ argument that these “no-show” patients

see Wallett, Tr. 9/23/19 (Vol. 1) pp. 113-14; see JX53 at 2-3, 10; and that between August 1, 2018,
and December 31, 2018, approximately 309 patients obtained an abortion-related ultrasound at
PPGMR but did not obtain an abortion there. See JX57 at 2-3, 9-10. Between December 1, 2017,
and December 31, 2018, 277 patients “either no-showed, canceled, or didn’t make a second day
appointment after receiving informed consent” at Choices. Terrell, Tr. 9/24/19 (Vol. 2) pp. 12,
14-16; see also JX28 at 2; JX30 at 2; JX41; JX43; JX45. Between July 1, 2015, and January 31,
2018, approximately 982 patients who received an abortion-related ultrasound at PPMET did not
return for an abortion. See Young, Tr. 9/24/19 (Vol. 2) pp. 134-35; see also JX54 at 2, 10. The
evidence shows that approximately 2,297 patients did not return for a second appointment,
approximately the number defendants state.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 115 of 136 PageID #: 6623

115a

– or any of them – did not return for a second appointment because they changed their minds and
did not obtain an abortion as a result of either the waiting period or the information required by §
39-15-202(a)-(h). The evidence shows, and the Court finds, that the vast majority of patients
seeking an abortion are certain of their decisions by the time they first appear at a clinic, and
therefore the most likely reason they do not appear for a second appointment is that they cannot
overcome the financial and logistical barriers the 48-hour waiting period imposes. Defendants’
evidence to the contrary is scant. They rely primarily on a paper by Roberts on Utah’s 72-hour
waiting period to show that the statute at issue in this case has caused women to change their minds
to have an abortion. In the Roberts study, 8% of the 309 women (out of 500 participants recruited
at the first appointment) who completed follow-up interviews by telephone three weeks after the
first appointment “were no longer seeking an abortion,” and 71% of the 34 women who were still
pregnant at follow up (or 8% of the women overall) indicated that they had changed their minds.
Biggs, Tr. 9/26/19 (Vol. 4) pp. 171-72, 176. The study noted that “change of mind,” an answer to
closed-ended questions, “may best describe” women who indicated at the first appointment that
they preferred to have an abortion and were not conflicted but then decided to carry their
pregnancies; however, “[s]ome women who reported changing their minds were conflicted at the
information visit.” The participants in this study reported numerous other reasons for not having
the abortion. Answers to open-ended questions include “just couldn’t do it”; financial reasons;
“other people came through”; too far along, sometimes for their own comfort; and “logistics.”
Answers to closed-ended questions include the cost of the procedure; others opposed to the
abortion; needing to keep the appointment secret from family, employers, or partners; travel costs;
and difficulty arranging logistics. Those who reported they “just couldn’t do it” tended to be
“conflicted to begin with” before deciding not to have the abortion. Ultimately this study found

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 116 of 136 PageID #: 6624

116a

that “women reported little conflict about the abortion decision” and concluded that because “most
women were not conflicted about their decision when they sought care, the 72-hour waiting period
requirement seems to have been unnecessary.”
Defendants have not shown that the percentages from this study of women who
were no longer seeking an abortion or who changed their minds may be applied to the instant case,
which involves a 48-hour waiting period in a different state. Even if the Court were to apply these
percentages, defendants have not shown that the women who “were no longer seeking an abortion”
changed their minds because of the mandatory waiting period. As noted, there are many other
reasons why a woman may not appear for a second appointment following a mandatory waiting
period. Dr. Biggs indicated, and the Court accepts, that the Roberts paper’s findings relate largely
to the numerous burdens imposed by the 72-hour waiting period and do not suggest that mandatory
waiting periods cause patients to change their minds as a result of having been required to take
additional time to reconsider their decisions.
Defendants have likewise failed to show that § 39-15-202(a)-(h) benefits women’s
mental and emotional health by affording them additional time to increase their decisional certainty
and avoid feelings of regret later. The evidence clearly shows that almost all women are quite
certain of their decisions by the time they appear for their first appointment and that they do not
benefit, emotionally or otherwise, from being required to wait before undergoing the procedure.
Defendants rely on another study by Roberts on Utah’s 72-hour waiting period that found that
“[c]hanges in certainty were primarily in the direction of increased certainty, with more women
reporting an increase, 29 percent, than a decrease, 8 percent.” Id. at 181. Again, defendants have
not shown that these percentages may be applied to women in Tennessee, at least 95% of whom
are sure of their decisions when they seek an abortion. Even if the percentages from the Roberts

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 117 of 136 PageID #: 6625

117a

study did apply, there is no indication that the women in the study who reported greater certainty
previously experienced decisional uncertainty, as Dr. Biggs noted. See id. at 183. The Court
agrees with Dr. Biggs that there is no benefit in making women who are already certain of their
decision when they appear for their first appointment be even more certain some number of days
or weeks later.
In a further effort to show that the challenged statute is beneficial to women’s
health, defendants point to Dr. Coleman’s testimony that whether to have an abortion is a stressful
and emotional decision; that stress and emotions compromise decision-making and result in more
“emotionally based,” “hurried,” and “less rational” decisions; that short time limits hinder
decision-making; and that abortion is associated with negative mental health outcomes. Dr.
Coleman claims that between 25% and 75% of women “feel some level of guilt” after the
procedure, which may lead to feelings of regret, id. at 52-53, and that between 25% and 50% of
women experience decisional ambivalence or distress, see id. at 32-33, 45, which she identified as
a risk factor for poor post-abortion adjustment. See id. at 57. She opined that the statute at issue
is beneficial because giving women more time to evaluate the state-mandated information and to
consider their options allows them to make “a good decision” and reduces the likelihood of adverse
consequences. Id. at 43, 78.
The Court rejects these opinions because they are flatly contradicted by the credible
record evidence and are supported only by studies (including her own) which, as plaintiffs’ experts
showed, are irrelevant or deeply flawed and deserve no serious consideration. Prior to the passage
of the statute, all of plaintiffs’ patients went through an extensive and individualized informed
consent process. Patients did not have only five or ten minutes to make a decision, as Dr. Coleman
contends, because they began considering their options long before they arrived at the clinic and

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 118 of 136 PageID #: 6626

118a

plaintiffs gave them as much time as they needed to make a decision (in addition to the numerous
hours spent at the clinic). Plaintiffs’ experts testified that based on their electronic health records,
experience, and research, abortion patients had very high levels of decisional certainty both before
and after § 39-15-202(a)-(h)’s enactment. 51 There is no indication in this record, or in the
legislative history, that prior to § 39-15-202(a)-(h) taking effect abortion patients lacked the
information or time necessary to make an informed, voluntary, and uncoerced decision. Requiring
patients to take additional time confers no benefit because at least 95% of women are already
confident in their decisions when they attend an appointment with an abortion provider. See
Wallett, Tr. 9/23/19 (Vol. 1) p. 71 (stating that any delay is not medically necessary and has no
medical benefit); Goodman, Tr. 9/23/19 (Vol. 1) p. 188 (stating that a delay has no benefit “that I
can think of”); Terrell, Tr. 9/23/19 (Vol. 1) p. 292-93, 296-97 (“I don’t know of any benefit.”);
Young, Tr. 9/24/19 (Vol. 2) p. 57 (stating that the statute at issue “does not provide any benefits
to patients”); Huntsinger, Tr. 9/25/19 (Vol. 3-B) pp. 20-21 (“[F]orcing a person to think longer
will provide no benefit.”), and pp. 37-41; Adams Dep. at 56 [docket entry 216-1] (“I have not
personally seen [waiting] benefit anybody.”).
In addition, plaintiffs showed that post-abortion regret is uncommon. See Wallett,

51

The evidence demonstrates that between November 2013 and December 2018, 97.4% to
99.9% of patients at PPGMR were certain of their decisions; and between October 2014 and May
2018, 96% to 99.8% of patients at PPMET were certain of their decisions. See PDX1 (referencing
JX53 at 8, JX56 at 12, JX57 at 8); PDX17 (referencing JX54 at 8-9, JX56 at 12-13). See also
Wallett, Tr. 9/23/19 (Vol. 1) pp. 52-53 (stating that most of the patients at the Memphis health
centers “were very, very clear about their decision” when they arrived at the clinic), and p. 71
(stating that in her experience “most women are very confident of their decision when they come
in to have an abortion”); Young, Tr. 9/24/19 (Vol. 2) pp. 57, 75 (stating that in her experience
patients “were very certain” about their decisions prior to making an abortion appointment); Biggs,
Tr. 9/26/19 (Vol. 4) p. 96 (“We have clear evidence that most women are very certain of their
decisions.”), and pp. 133-34 (citing studies that found that 95% of women were certain of their
decisions upon arrival at the clinic and that “the vast majority” of women were certain at the time
of accessing care).

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 119 of 136 PageID #: 6627

119a

Tr. 9/23/19 (Vol. 1) p. 57 (stating that she has treated thousands of abortion patients and none has
expressed regret after the procedure); Young, Tr. 9/24/19 (Vol. 2) p. 169 (stating that studies show
that regret “is not common after abortion”); Biggs, Tr. 9/26/19 (Vol. 4) p. 96 (“I definitely don’t
agree that most women regret their abortions.”), and p. 134 (stating that data from the Turnaway
Study indicates that 95% of women reported that abortion was the right decision), and pp. 138-39
(referencing papers that found that women in the Turnaway Study who had an abortion reported
lower levels of regret than women who were turned away from the abortion and that “among the
women who reported regret as an emotion that they were feeling, 89 percent of those women still
stated that they felt that abortion was the right decision for them”), and pp. 202, 224 (stating that
regret is not “a common experience”). Dr. Biggs testified that she sees no indication that a
mandatory waiting period would benefit women “in any way” or prevent them from feeling regret.
Id. at 95-96, 139. The Court fully credits plaintiffs’ experts’ testimony and rejects Dr. Coleman’s
contrary opinions.
As for Dr. Coleman’s testimony that emotions interfere with decision-making,
plaintiffs’ expert Dr. Huntsinger persuasively discredited this view as well by showing that Dr.
Coleman has no expertise in the area of judgment and decision-making and has misinterpreted and
misrepresented the research on this topic. He further discredited her opinion about the benefits of
§ 39-15-202(a)-(h) because studies show that stress and emotions have a positive influence on
decision-making and that people are generally good at determining how much time they need to
make a decision. The influence of stress on decision-making is “varied” in the sense that whether
it makes people think faster or more hurriedly “depends on the particular decision context.”
Huntsinger, Tr. 9/25/19 (Vol. 3-B) p. 26. Forcing people to think more about their decisions and
to analyze their options “lead[s] them to make suboptimal decisions, decisions that won’t make

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 120 of 136 PageID #: 6628

120a

them happy,” or decisions they later regret. Id. at 20-21, 33. Dr. Huntsinger testified convincingly
that a mandatory waiting period would not benefit people experiencing ambivalence or decisional
distress, and Dr. Coleman conceded that she has not researched the psychology of decision-making
generally (separate from the topic of abortion) or the amount of time it takes to make a stressful
decision or to achieve decisional certainty. She also conceded that she is not an expert in the
brain’s physiological functions tied to decision-making. She acknowledged that the studies she
identified on stress and decision-making do not “directly apply” and are not “directly analogous”
to 48-hour waiting periods. Coleman, Tr. 9/25/19 (Vol. 3-A) pp. 107, 110-12.
Plaintiffs also thoroughly impeached Dr. Coleman regarding her opinions
concerning abortion and mental health. Dr. Biggs testified that the data on this topic “clearly
shows that abortion does not increase women’s risk of . . . experienc[ing] negative mental health
outcomes.” Biggs, Tr. 9/26/19 (Vol. 4) pp. 95, 104. The “general consensus within the scientific
community” among leading scientific, psychiatric, and mental health organizations is that abortion
does not increase women’s risk of negative mental health outcomes. Id. at 104-05. Dr. Biggs
identified serious flaws in the studies Dr. Coleman relied on, and in her own meta-analysis, that
concluded that women who obtain an abortion are at an increased risk of negative mental health
outcomes. Dr. Biggs explained, and the Court finds, that the reliable research on this subject
clearly demonstrates that undergoing an abortion does not increase the risk that patients will
experience negative mental health consequences.
In sum, defendants have not demonstrated that § 39-15-202(a)-(h) advances the
asserted state interests of protecting fetal life or benefitting women’s mental and emotional health.
Fetal life is not protected because there is no evidence that patients who do not return to an abortion
provider for the second appointment (i.e., for the procedure) fail to do so because the challenged

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 121 of 136 PageID #: 6629

121a

statute causes them to change their minds about having an abortion. And women’s mental and
emotional health is not benefited because the mandatory waiting period does nothing to increase
the decisional certainty among women contemplating having an abortion. Further, the evidence
demonstrates that at least 95% of women are certain of their decisions, post-abortion regret is
uncommon, and abortion does not increase women’s risk of negative mental health outcomes.
D.

Burdens Imposed by the Mandatory Waiting Period of § 39-15-202(a)-(h)
The Court finds and concludes that the mandatory waiting period required by § 39-

15-202(a)-(h) substantially burdens women seeking an abortion in Tennessee. Plaintiffs have
demonstrated conclusively that the statute causes increased wait times, imposes logistical and
financial burdens, subjects patients to increased medical risks, and stigmatizes and demeans
women. These burdens are especially difficult, if not impossible, for low-income women to
overcome, and the evidence clearly shows that the vast majority of women seeking abortions in
Tennessee are low income. Further, plaintiffs have shown that the statute undermines the doctorpatient relationship and imposes operational and financial burdens on abortion providers.
Plaintiffs’ experts Dr. Wallet, Ms. Terrell, and Dr. Young testified, and the Court
finds, that since § 39-15-202(a)-(h) has been in effect, wait times for abortion appointments have
increased significantly and are often much greater than 48 hours. Plaintiffs have presented clear
evidence that patients in Tennessee must wait significantly longer than 48 hours between their first
appointment and the day of the procedure. See Wallett, Tr. 9/23/19 (Vol. 1) p. 74 (stating patients
wait one to two weeks between the first and second appointments); Terrell, Tr. 9/24/19 (Vol. 2)
pp. 277-78, 281 (stating patients wait three days to more than fourteen days between
appointments); Young, Tr. 9/24/19 (Vol. 2) pp. 97, 99 (stating patients who have attended a first
appointment wait two to twenty-three days for a medication abortion, often over one week for a

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 122 of 136 PageID #: 6630

122a

surgical abortion, and in some cases patients wait two to four weeks for the second appointment).
Some patients must wait several days or weeks before the first appointment, and then another
several days or weeks between the first and second appointments. For obvious reasons, abortion
is a time-sensitive procedure, and the window during which it can be performed is narrow.
Increased wait times affect patients’ eligibility for a medication abortion, the method strongly
preferred by a majority of patients and the medically preferred option in some cases. These
increased wait times can and do cause patients to miss the short cutoff date for a medication
abortion (10 weeks LMP), thereby requiring them to undergo a more invasive and undesirable
surgical abortion, or even to miss the cutoff date in Tennessee for the latter procedure (19 weeks
and 6 days LMP). As surgical abortions are available at only five providers in Memphis, Nashville,
Knoxville, and Bristol, patients who miss the cutoff date for a medication abortion also face the
increased costs and difficulties associated with traveling to these few and, for many patients,
distant locations. Of these providers, only two – one in Nashville and one in Memphis – provide
surgical abortions up to 19 weeks and 6 days LMP. The others have gestational age cutoffs
between 13 weeks and 6 days LMP and 15 weeks LMP. The testimony also shows that patients
who miss these time-sensitive deadlines may resort to illegal or unsafe abortions. Those who miss
the deadline for having an abortion, and therefore must carry their pregnancies to term, face the
risks attendant with pregnancy and childbirth (both of which are significantly riskier than
abortion), as well as financial instability after the baby is born.
Moreover, data from PPGMR, PPMET, and the TDOH show that after the statute’s
enactment the gestational age at which abortions are performed has increased, including an
increase in second trimester abortions; since the statute’s enactment, the number of medication
abortions has decreased. The Court finds that these changes are largely attributable to the increased

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 123 of 136 PageID #: 6631

123a

wait times caused by the mandatory 48-hour waiting period. As gestational age increases, an
abortion becomes lengthier, more invasive, more painful, and riskier for the patient. Delays in
abortion care negatively affect the health of patients with certain medical conditions and cause
patients to suffer emotionally and psychologically. Victims of rape or incest, as well as women
who have a fetal anomaly, find it particularly traumatizing that, because of the mandatory waiting
period, they must remain pregnant for days or weeks longer than they wish. The medical
emergency exception is exceedingly narrow and applies only to extreme medical emergencies,
which, according to the undisputed record evidence, very rarely occur.
Plaintiffs proved that the statutory waiting period burdens the majority of abortion
patients with significant, and often insurmountable, logistical and financial hurdles. Dr. Wallett,
Ms. Terrell, and Dr. Young testified convincingly that by having to attend two in-person
appointments at least 48 hours apart, patients must take time off from work, arrange childcare, and
find transportation on two different occasions. These hurdles are exacerbated for those patients
who must travel long distances, and the evidence shows that most patients must do so because of
the small number and geographical distribution of abortion providers in the state. Dr. Young
testified that Tennessee has just eight clinics in four cities: Memphis, Nashville, Knoxville, and
Johnson City. 52 Ninety-six percent of Tennessee counties do not have an abortion clinic, and 63%
of women live in a county without an abortion provider. As Terrell testified, long distances are “a
huge barrier.” Terrell, Tr. 9/23/19 (Vol. 1) p. 286. It is especially difficult for victims of intimate
partner violence to attend two appointments and doing so jeopardizes their safety.
The evidence demonstrates conclusively that patients face significant financial

52

The parties later stipulated that as of October 3, 2019, Tennessee has eight clinics in five
cities: one in Bristol, one in Mount Juliet, two in Knoxville, three in Memphis (one of which was
no longer providing abortions), and one in Nashville.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 124 of 136 PageID #: 6632

124a

barriers to accessing care because the waiting period requires patients to visit a clinic twice and to
therefore pay twice for travel and (for the two-thirds of patients who have at least one child already)
childcare. The cost of an abortion has increased as a result of § 39-15-202(a)-(h)’s enactment,
pushing the procedure further out of reach for low-income patients. In addition, the cost of an
abortion increases as gestational age increases, and the large majority of patients do not have the
funds or health insurance to cover the procedure. The evidence shows that women lose wages,
and risk being discharged, when taking time off work to attend appointments because most work
at low-wage, hourly jobs that do not allow for paid time off or time off on demand.
The evidence further shows that the logistical and financial obstacles caused by the
mandatory waiting period are particularly burdensome for low-income women, who make up the
majority of abortion patients in Tennessee. The large majority of plaintiffs’ patients live in
poverty. Dr. Young testified that “although nationally[] abortion trends are declining, over the
past decade, abortion trends have increased for our lowest-income women.” Young, Tr. 9/24/19
(Vol. 2) pp. 92, 94-95. Nationally, 75% of abortion patients have low or very low incomes, i.e.,
incomes under 200% of the federal poverty guideline. As of July 2014, 42% of women obtaining
abortions had incomes below 100% of the federal poverty level and 27% of women obtaining
abortions had incomes between 100% and 199% of the federal poverty level. See DX5 at 170. In
Tennessee, “the overwhelming majority of women seeking an abortion . . . are already mothers
and are either poor or near low-income.” Katz, Tr. 9/24/19 (Vol. 2) p. 227. Dr. Katz testified
persuasively that women living under 200% of the federal poverty guideline have great difficulty
meeting their own basic needs and those of their household, and an unexpected expense “puts the
family at grave risk” of these needs being unmet.
The evidence further shows that low-income women have difficulty accessing

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 125 of 136 PageID #: 6633

125a

abortion care because those with low-income jobs are considered expendable workers, are not
given paid time off or paid sick leave, and have no control over their work schedules, which are
unpredictable and irregular. Low-income people’s access to resources such as a car, reliable public
transportation, disposable income for gas or a bus ticket, or internet and a credit card to reserve a
hotel room are scarce or nonexistent. Even patients who live in a county with an abortion provider
face significant financial burdens involving transportation, childcare, lost wages, and raising the
funds for the procedure. Tennessee’s mandatory 48-hour waiting period is devastating for lowincome patients because it requires them to travel to a clinic for a second appointment, thereby at
least doubling these costs. These additional expenses, as the evidence demonstrates, place abortion
beyond the reach of many low-income patients. Many of those who are able to make the
arrangements and cover the expenses for a second appointment put themselves, and their families,
at risk by spending money in this way, as many will go without basic necessities, take out predatory
loans, or borrow money from abusive partners or ex-partners.
In addition to these significant logistical and financial burdens, the mandatory
waiting period is also gratuitously demeaning to women who have decided to have an abortion.
As Dr. Young testified, the waiting period – which Tennessee does not apply to any medical
procedures men may undergo – demeans women by implicitly questioning their decision-making
ability. Dr. McClelland testified similarly that this mandatory waiting period reinforces and
perpetuates the stigmatizing stereotype that women are overly emotional and incapable of making
rational decisions and must therefore be given an arbitrary “time out” or “cooling off period” to
further consider the gravity of their situations. The Court accepts her testimony that the stigma
flowing from such stereotypes has negative health implications and a detrimental effect on the
physical and psychological health of those affected, namely, all women in Tennessee who seek

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 126 of 136 PageID #: 6634

126a

abortion care.
The Court further concludes, based primarily on the testimony of Drs. Goodman
and Young, that the challenged statute undermines patient autonomy and self-determination, the
doctor-patient relationship, and the informed consent process by interjecting an unnecessary
waiting period and predetermining the information, which may or not be relevant in particular
cases, that must be provided in all cases.
In addition to the burdens placed on patients, the evidence presented at trial clearly
shows that the challenged statute also places significant burdens on the clinics themselves. Dr.
Wallett, Ms. Terrell, Dr. Young, and Dr. Adams testified regarding their efforts to address
operational difficulties caused by the statute’s requirement that clinics must see patients twice (not
once as was the case previously). As a consequence, plaintiffs have had to open an additional
clinic, expand the clinics’ schedules, modify the counseling and informed consent process, hire
additional physicians and staff, increase gestational age cutoffs, and raise prices (which, in turn,
further burdens low-income patients). Hiring additional physicians in Tennessee is difficult
because local abortion providers face stigma and harassment at work and in their communities.
Dr. Wallett, Ms. Terrell, and Dr. Young indicated that the operational changes made by PPGMR,
Choices, and PPMET have not, despite their best efforts, restored wait times to pre-statute
durations. Further, patients continue to miss the gestational age cutoffs despite the operational
changes.
E.

The Burdens Imposed by the Mandatory Waiting Period of § 39-15-202(a)-(h)
Outweigh its Benefits
In analyzing the constitutionality of the mandatory waiting period required by § 39-

15-202(a)-(h), the Court must determine whether it imposes an undue burden by weighing its
“‘asserted benefits against the burdens’ it imposes on abortion access.” Russo, 140 S. Ct. at 2112

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 127 of 136 PageID #: 6635

127a

(quoting Whole Woman’s Health, 136 S. Ct. at 2310). Having carefully considered the extensive
evidence in the record, the Court concludes that the statutory waiting period provides no
appreciable benefit to fetal life or women’s mental and emotional health. On the contrary, the
statute imposes numerous burdens that, taken together, place women’s physical and psychological
health and well-being at risk. The burdens especially affect low-income women, who comprise
the vast majority of those seeking an abortion, and substantially limit their access to this medical
service. The mandatory waiting period is unconstitutional because it clearly imposes an undue
burden on women’s right to obtain a pre-viability abortion in Tennessee and has no countervailing
benefit.
Defendants argue that “Tennessee’s waiting period is not a sub[]stantial obstacle,
and certainly not an undue burden,” because plaintiffs “cannot demonstrate that patients are being
denied abortions by the wait period[]” imposed by the statute. Rieger, Tr. 9/23/19 (Vol. 1) pp. 26,
28-29 (opening statement). This misstates the applicable legal test and misrepresents the record
evidence. The Supreme Court has “repeatedly reiterated [since Casey] that the plaintiff’s burden
in a challenge to an abortion regulation is to show that the regulation’s ‘purpose or effect’ is to
‘plac[e] a substantial obstacle in the path of a woman seeking an abortion of a nonviable fetus.’”
Russo, 140 S. Ct. at 2133 (quoting Casey, 505 U.S. at 877). Whether the abortion regulation makes
it “nearly impossible” for a woman to obtain an abortion is irrelevant. Id. For the reasons
explained above, plaintiffs have met their burden of showing that the “purpose or effect” of the
statute is to place “a substantial obstacle in the path of a woman seeking an abortion of a nonviable
fetus.”
Defendants rely on Casey and Taft, cases in which the Supreme Court and the Sixth
Circuit upheld 24-hour waiting periods, to support their contention that Tennessee’s 48-hour

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 128 of 136 PageID #: 6636

128a

waiting period is constitutional. As noted, the Supreme Court commented in Casey that “[i]n
theory, at least, the waiting period is a reasonable measure to implement the State’s interest in
protecting the life of the unborn, a measure that does not amount to an undue burden. Whether the
mandatory 24-hour waiting period is nonetheless invalid because in practice it is a substantial
obstacle to a woman’s choice to terminate her pregnancy is a closer question.” Casey, 505 U.S. at
885. The Sixth Circuit characterized the record in Casey as to the 24-hour waiting period as
“sparse.” Taft, 468 F.3d at 372. The court of appeals also noted that
[t]he sum of the evidence before the Casey Court concerning the twentyfour-hour notification requirement was as follows:
The findings of fact . . . indicate that because of the distances many
women must travel to reach an abortion provider, the practical
effect will often be a delay of much more than a day because the
waiting period requires that a woman seeking an abortion make at
least two visits to the doctor. [I]n many instances this will increase
the exposure of women seeking abortions to “the harassment and
hostility of anti-abortion protestors demonstrating outside a
clinic.” As a result, . . . for those women who have the fewest
financial resources, those who must travel long distances, and
those who have difficulty explaining their whereabouts to
husbands, employers, or others, the 24-hour waiting period will be
“particularly burdensome.”
Id. at 885-86, 112 S. Ct. 2791. On the basis of these facts, . . . the Supreme
Court declined to find an undue burden.
Id. In Casey, the Supreme Court did “not doubt that, as the District Court held, the waiting period
has the effect of ‘increasing the cost and risk of delay of abortions,’ . . . but the District Court did
not conclude that the increased costs and potential delays amount to substantial obstacles.” Casey,
505 U.S. at 886 (internal citation omitted). It went on to state that “the District Court did not
conclude that the waiting period is [a substantial] obstacle even for the women who are most
burdened by it. Hence, on the record before us, and in the context of this facial challenge, we are
not convinced that the 24-hour waiting period constitutes an undue burden.” Id. at 887.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 129 of 136 PageID #: 6637

129a

The present case has what was lacking in Casey: a fully developed record that
clearly shows the extent to which the mandatory waiting period places a substantial obstacle in the
way of women who seek an abortion. Plaintiffs in the present case have proven with overwhelming
evidence that the 48-hour waiting period (in addition to serving no legitimate purpose) severely
burdens the majority of women seeking an abortion. As noted above, the waiting period has this
effect because it significantly delays this time-sensitive medical procedure, and also makes it so
time-consuming, costly, and inconvenient to obtain that the predominantly low-income population
seeking the service must struggle to access it, if they can access it at all. Another important
difference between Casey and the present case concerns the number of abortion providers. When
Casey was decided, Pennsylvania had eighty-one such providers, fully ten times as many as
Tennessee has currently. Obviously, this dramatic difference in two states of comparable size, see
supra note 24, dramatically affects the extent to which the service was available to Pennsylvanians
in 1992 as compared to Tennesseans in 2020.
F.

Large Fraction Test
Plaintiffs in this matter seek facial relief. “Facial relief is available when a

challenged law places a substantial obstacle in the path of an individual’s access to abortion prior
to viability in ‘a large fraction of cases in which [the provision at issue] is relevant.’” Friedlander,
960 F.3d at 808 (alteration in original) (quoting Whole Woman’s Health, 136 S. Ct. at 2320). In
making this determination, “the relevant denominator is ‘those [women] for whom [the provision]
is an actual rather than an irrelevant restriction.’” Whole Woman’s Health, 136 S. Ct. at 2320
(alterations in original) (quoting Casey, 505 U.S. at 895). The relevant numerator is then “what
portion of this population would be unduly burdened by [the provision].” Friedlander, 960 F.3d
at 809 (alteration added). The Sixth Circuit has “explained that ‘a challenged restriction need not

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 130 of 136 PageID #: 6638

130a

operate as a de facto ban for all or even most of the women actually affected,’ but ‘the term ‘large
fraction’ which, in a way, is more conceptual than mathematical, envisions something more than .
. . 12 out of 100 women . . . .’” Id. at 810 (quoting Taft, 468 F.3d at 374).
Plaintiffs have demonstrated that the large fraction test is met. The Court concludes
that the mandatory 48-hour waiting period required by § 39-15-202(a)-(h) is an actual restriction
for women in Tennessee who are certain of their decisions when they seek abortion services. The
evidence clearly shows, and the Court finds, that at least 95% of women who attend an appointment
at an abortion clinic fall within this category.
The challenged statute unduly burdens all women who are certain of their decisions
at the time they access abortion care because all of these women are forced to wait much longer
than 48 hours after the first appointment to obtain the procedure (between three days and four
weeks). For these women, the additional wait has no benefit; rather, it subjects them to increased
medical risks; lengthier, more painful, and more expensive procedures; and stigma, which has
harmful health consequences.
Additionally, all low-income women who seek an abortion are unduly burdened by
the mandatory waiting period because it requires them to make a second trip to a provider. As
plaintiffs demonstrated, the costs and inconvenience of the second trip are, for the 60% to 80% of
patients who are low-income, either insurmountable or surmounted with great difficulty. This
plainly meets the large fraction test.
G.

Requirements of § 39-15-202(a)-(h) Regarding State-Mandated Information
and Delivery of that Information Only by a Physician
In addition to the mandatory waiting period, plaintiffs challenge the provisions of

§ 39-15-202(a)-(h) that require the referring physician or the physician who intends to perform the
abortion to provide every patient with a specified list of information. While defendants argue that

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 131 of 136 PageID #: 6639

131a

these provisions protect fetal life and benefit women’s health, this is not supported by the evidence.
The state-mandated information includes information regarding the availability of “public and
private agencies and services” that can assist a woman during pregnancy and after the child is born
“if she chooses not to have the abortion,” the risks and benefits of an abortion and continuing the
pregnancy to term, and a general description of the abortion method and instructions to follow
after the procedure. See Tenn. Code Ann. § 39-15-202(b), (c). There is no indication in the record,
however, that plaintiffs did not provide this information to patients prior to the statute’s
enactment. 53

Requiring that the specified information be given is, at best, a purposeless

redundancy and, at worst, an interference with the informed consent process which, as the evidence
also clearly shows, is best accomplished when tailored to the needs and circumstances of each
individual patient.
Nor is there any evidence that patients are more likely to change their minds or

53

Before § 39-15-202(a)-(h) took effect, PPGMR provided patients with information
regarding abortion, options, and counseling and community resources. See Wallett, Tr. 9/23/19
(Vol. 1) pp. 48-49. Physicians ensured that patients “understood the risks, benefits, and all the
alternatives of proceeding.” Id. at 51. Patients received “an extensive packet” of written materials,
which described medication and surgical abortions, addressed options besides abortion, and gave
detailed instructions to follow before and after the procedure. Id. at 49; see also PX1. This packet
contains a referral list with resources for prenatal care, adoption, and social services. See PX1. A
one-page form entitled “Patient Acknowledgement of Physician Counseling” was the only addition
to this packet of written materials after the statute took effect. See Wallett, Tr. 9/23/19 (Vol. 1)
pp. 61-62, 70; see also PX1. Terrell testified that the only portion of the state-mandated
information Choices did not provide to patients related to possible viability after a certain
gestational age (22 weeks since conception or 24 weeks LMP). See Terrell, Tr. 9/23/19 (Vol. 1)
p. 266; see Tenn. Code Ann. § 39-15-202(b)(3). This information is irrelevant to Choices’ patients
because of its 15-week LMP cutoff. See Terrell, Tr. 9/23/19 (Vol. 1) p. 266. Choices maintains a
list of referrals and resources that it shares with patients. See id. at 259-60; see also PX10. Prior
to the statute’s enactment, PPMET discussed pregnancy options with patients and provided
information to them on the procedures for which they were eligible and the risks and benefits of
the procedures. See Young, Tr. 9/24/19 (Vol. 2) p. 69. Dr. Adams testified that prior to § 39-15202(a)-(h) taking effect, Adams & Boyle’s Tennessee facilities disclosed to patients the statemandated information listed in subsection (b). Adams Dep. at 35-36.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 132 of 136 PageID #: 6640

132a

make more thoughtful and informed decisions about having an abortion if the information is
delivered to them during an in-person meeting with a physician instead of trained staff, as was
plaintiffs’ practice before the statute was enacted. The testimony from Drs. Goodman and Young
was that all of the information provided to patients can be communicated effectively by means
other than in person and by clinic personnel other than a physician. See Goodman, Tr. 9/23/19
(Vol. 1) pp. 183-87; Young, Tr. 9/24/19 (Vol. 2) p. 85; see also DX5 at 143 (Terrell’s testimony
before the legislature). Requiring that a physician do so, and in person, serves no purpose any
witness could explain, but the harms it causes are plain: it drives up the clinics’ costs, which must
be passed on to their patients, by needlessly assigning to physicians a task others can perform. See
Terrell, Tr. 9/23/19 (Vol. 1) pp. 274-75.
Nonetheless, while both of these requirements serve no legitimate purpose, the
Court is unable to find that they unduly burden women’s access to abortion. The trial evidence
indicated that the state-mandated information requirement may confuse patients insofar as the
required information does not pertain to them and that the “a physician must provide it”
requirement is one reason why plaintiffs have had to hire more physicians, thereby driving up
costs. See Wallett, Tr. 9/23/19 (Vol. 1) pp. 78, 80; Terrell, Tr. 9/23/19 (Vol. 1) pp. 265, 274-75.
However, the evidence does not establish to the Court’s satisfaction that either requirement has
“the purpose or effect of presenting a substantial obstacle to a woman seeking an abortion.” Russo,
140 S. Ct. at 2112 (quoting Whole Woman’s Health, 136 S. Ct. at 2300). The Court notes that in
Casey, the Supreme Court upheld the portions of the statute at issue in that case requiring
physicians to inform patients of specific information before performing an abortion. 54 See Casey,

54

The Supreme Court upheld the state-mandated information requirement in Casey
because it determined that

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 133 of 136 PageID #: 6641

133a

505 U.S. at 881-85. Plaintiffs have not provided sufficient evidence in this matter for the Court to
deviate from the Supreme Court’s decision in Casey with respect to § 39-15-202(a)-(h)’s
requirements that patients receive specific information and that the information be delivered only
by a physician.
H.

Equal Protection Claim
Plaintiffs’ equal protection claim is that § 39-15-202(a)-(h) discriminates on the

basis of sex by limiting women’s, but not men’s, ability to make medical decisions based on
stereotypes about women’s purported inability to make rational decisions. The Court agrees that
this difference in the treatment of men versus women in the context of medical decision-making
is unjustifiable. There is no evidence to suggest that women are any less capable than men of
making rational decisions in this or any other context. Nor is there any evidence to suggest that
women make better decisions (i.e., ones they are less likely to regret) if required to hear statemandated information from a physician and to wait for a required period of time before proceeding.
Defendants’ suggestion that women are overly emotional and must be required to cool off or calm
down before having a medical procedure they have decided they want to have, and that they are
constitutionally entitled to have, is highly insulting and paternalistic – and all the more so given

requiring that the woman be informed of the availability of information
relating to fetal development and the assistance available should she decide
to carry the pregnancy to full term is a reasonable measure to ensure an
informed choice, one which might cause the woman to choose childbirth
over abortion. This requirement cannot be considered a substantial obstacle
to obtaining an abortion, and, it follows, there is no undue burden.
Casey, 505 U.S. at 883. With respect to the requirement that the information be delivered by a
physician, the Court concluded: “Since there is no evidence on this record that requiring a doctor
to give the information as provided by the statute would amount in practical terms to a substantial
obstacle to a woman seeking an abortion, we conclude that it is not an undue burden.” Id. at 88485.

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 134 of 136 PageID #: 6642

134a

that no such waiting periods apply to men.
Nonetheless, because the Court concludes that the statutory waiting period is
unconstitutional under the undue burden standard, there is no need for the Court to address
plaintiff’s equal protection claim separately. Further, the Court is inclined to agree with the Eighth
and Ninth Circuits’ view, see Planned Parenthood of Mid-Mo. & E. Kan., Inc. v. Dempsey, 167
F.3d 458, 464 (8th Cir. 1999); Tucson Woman’s Clinic v. Eden, 379 F.3d 531, 544-45 (9th Cir.
2004), that all challenges to abortion restrictions are to be reviewed exclusively under the undue
burden test articulated in Casey.
V.

Conclusion
Defendants in this matter rely largely on Casey to argue that § 39-15-202(a)-(h) is

a valid restriction on women’s constitutional right to obtain a pre-viability abortion. Defendants
overlook that
[i]n reaffirming Roe, the Casey Court described the centrality of “the
decision whether to bear . . . a child,” Eisenstadt v. Baird, 405 U.S. 438,
453, 92 S. Ct. 1029, 31 L.Ed.2d 349 (1972), to a woman’s “dignity and
autonomy,” her “personhood” and “destiny,” her “conception of . . . her
place in society.” 505 U.S., at 851-852, 112 S. Ct. 2791. Of signal
importance here, the Casey Court stated with unmistakable clarity that state
regulation of access to abortion procedures, even after viability, must
protect “the health of the woman.” Id., at 846, 112 S. Ct. 2791.
Gonzales, 550 U.S. at 170 (Ginsburg, J., dissenting). Defendants have failed to show that the
challenged mandatory waiting period protects fetal life or the health of women in Tennessee. It is
apparent that this waiting period unduly burdens women’s right to an abortion and is an affront to
their “dignity and autonomy,” “personhood” and “destiny,” and “conception of . . . [their] place in
society.”
Accordingly,

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 135 of 136 PageID #: 6643

135a

IT IS HEREBY DECLARED that the mandatory waiting period provision of Tenn.
Code Ann. § 39-15-202(a)-(h) is unconstitutional because it violates the Due Process Clause of
the Fourteenth Amendment of the United States Constitution.

IT IS FURTHER ORDERED that defendants are permanently enjoined from
enforcing Tenn. Code Ann. § 39-15-202(a)-(h) to the extent it imposes a mandatory 48- or 24-hour
waiting period for those seeking abortion care.

Dated: October 14, 2020
Detroit, Michigan

s/Bernard A. Friedman
BERNARD A. FRIEDMAN
SENIOR UNITED STATES DISTRICT JUDGE
SITTING BY SPECIAL DESIGNATION

Case 3:15-cv-00705 Document 275 Filed 10/14/20 Page 136 of 136 PageID #: 6644

136a

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
ADAMS & BOYLE, P.C., et al.,
Plaintiffs,

Civil Action No. 3:15-cv-00705

vs.

HON. BERNARD A. FRIEDMAN

HERBERT H. SLATERY, III, et al.,
Defendants.
_____________________________/
JUDGMENT
The Court in this matter has issued its Findings of Fact and Conclusions of Law.
In accordance therewith,
IT IS ORDERED AND ADJUDGED that judgment be and is hereby granted for
plaintiffs and against defendants.
IT IS FURTHER ORDERED AND ADJUDGED that defendants are hereby
permanently enjoined from enforcing Tenn. Code Ann. § 39-15-202(a)-(h) to the extent it imposes
a mandatory 48- or 24-hour waiting period for those seeking abortion care.
LYNDA M. HILL
CLERK OF COURT
By:
Dated: October 14, 2020

s/Julie Owens
Deputy Clerk

Approved: s/ Bernard A. Friedman
BERNARD A. FRIEDMAN
SENIOR U.S. DISTRICT JUDGE
SITTING BY SPECIAL DESIGNATION

Case 3:15-cv-00705 Document 276 Filed 10/14/20 Page 1 of 1 PageID #: 6645

137a

012345ÿ738347ÿ5273923ÿ 093
255 4ÿ5273923ÿÿ341147744
1872 4ÿ522721
858 7ÿÿ  4ÿÿÿ

ÿ8!"ÿ1"ÿ#$%&&''('%
 1ÿ491895ÿ8ÿ9245 81

49493ÿÿ7 8349ÿ222ÿÿ
5)
******************************+
,-./.,/ÿ1/2ÿ,3243ÿ24/5./6ÿ2474/21/89:
;,8.,/ÿ7,3ÿ1ÿ9815ÿ-4/2./6ÿ1--41<
5)ÿ=ÿ)ÿÿ>""ÿÿ=ÿ>?ÿ"?ÿÿ@ÿA)BÿAAÿC)"!Dÿ?@
EF'Gÿÿ=ÿ?A"))ÿ)ÿ))ÿ=ÿ?A)ÿH?Hÿ"ÿ 5ÿ3ÿ9ÿ(F'ÿ=
"H?ÿ=ÿ)!)ÿ=ÿ>""ÿI="Hÿ"?ÿ?BH>ÿÿ"?ÿ=ÿ?"ÿ)ÿJ"Iÿ=ÿ"H?ÿ=
)@ÿ=ÿ>""
ÿÿ=ÿ>?ÿ!=Bÿ=ÿ!"H"@ÿ"ÿÿ3ÿHÿ3
")ÿ8ÿKÿ#L&%&E'EMN&M=Nÿ=ÿ""Dÿ!ÿ"ÿOH@ÿÿE'%ÿÿH>>?Pÿ=ÿ!=B)
Hÿÿ=B
=?ÿ!">A"$ÿMNÿÿ?QH?ÿ=ÿÿJ"?"ÿAÿ?!
!?ÿ"?>"ÿR"?@ÿ)ÿÿA?"SÿA?"?ÿ"ÿ=?ÿA?"!)H?TÿMEN
ÿ?QH?ÿ=ÿ=ÿ"?>"ÿJÿA?"))ÿJ@ÿR=ÿ)B
A=@!ÿI="ÿÿ"ÿA?"?>ÿ=ÿJ"?"Sÿ"?ÿR=ÿ???B
A=@!STÿ)ÿM#Nÿÿ)@ÿ=ÿAÿ?">ÿ=BÿÿJ"?"
RHÿÿIBÿA?")ÿ"ÿ"?@&B=ÿMUFNÿ="H?ÿ=ÿA)ÿ?ÿ=
)BÿA=@!ÿ"?ÿ???BÿA=@!ÿ=ÿA?"))ÿ=
"?>"ÿ?QH?)ÿCJ@ÿ=ÿHGSÿ3ÿ ")ÿ8ÿK
#L&%&E'EMJNÿM)NMN
ÿÿOHÿELÿE'E'ÿ=ÿ"H?ÿB?)ÿAVÿH"AA")ÿ>""ÿ"ÿ?A!ÿ8)>ÿ
"@ÿÿI=ÿ?"ÿ9B"ÿW">Vÿ?ÿÿC)"!Dÿ?@ÿEX(Gÿÿ


YZ[\ÿ^_`abcdbeefeaÿÿÿghcij\klÿmnfÿÿÿopq\rÿ̀ms̀tsmeÿÿÿuZv\ÿ̀ÿhwÿxÿuZv\ygÿz_ÿxf`n
138a

012345ÿ789ÿ38 9ÿ07 ÿÿ9ÿÿ4ÿ28ÿÿ11ÿ11814ÿ45ÿ514ÿ3814!
221ÿ3ÿ334ÿ4ÿ"144111ÿ45ÿÿ#31ÿ1ÿ$3114ÿ78145814!ÿ%1ÿ321ÿ45
&ÿ31234ÿ 19ÿÿ"1ÿ3'ÿÿ51234ÿÿ1ÿ1ÿÿ423434ÿ45ÿ4
4(4234ÿ14(344'ÿÿ143218149
%4'ÿÿ3)5ÿ142ÿÿ4ÿ01181ÿ*+,-.ÿ1ÿ1ÿ11415ÿ1#51421ÿ34
3ÿ1/ÿ,ÿ11ÿ0ÿ1-),2)*+*)ÿ21ÿ4ÿ451ÿ514ÿ34ÿ1ÿ'ÿ3ÿ3814ÿ3ÿ34
ÿ1)#ÿ334.ÿ45ÿ*ÿ11ÿ1ÿ214'15ÿ1ÿ52841ÿ'4ÿ3814ÿ34ÿ1
ÿ3ÿ13ÿ45ÿ'1451ÿ11319ÿÿ"1ÿ3ÿ15ÿÿ454'ÿ3ÿ2ÿ45ÿ234234ÿ3ÿ
34ÿ4231ÿ,.ÿ*+*+ÿ553261ÿ14ÿ*789ÿ94ÿÿ,17)'1ÿ3434.ÿ1ÿ3ÿ15ÿÿ1ÿ3)1')
3ÿ51ÿ11814ÿ4211ÿ1ÿ6ÿ3ÿ4ÿ311ÿ1ÿ8152ÿ32151.ÿ1'14
442ÿ45ÿ3'2ÿ1ÿ3ÿ334ÿ221.ÿ1351ÿ14ÿ3438ÿ45ÿ1ÿ24)14
134.ÿ45ÿ51814ÿ3814!ÿ51234)864'ÿ21.ÿ1ÿ3#54'ÿ43ÿ8 3#1814
3ÿ4ÿ15ÿ3ÿ43815ÿ23414ÿ3219ÿÿ:;;ÿ4 434ÿÿ,**.ÿ,*9ÿÿ"1ÿ3ÿ1ÿ345
ÿ5811ÿ514ÿ1ÿ112ÿ52.ÿÿ43ÿ8 31.ÿ3ÿ3 )42381ÿ3814ÿ3ÿ3#12381.
45ÿ1ÿ1#51421ÿ21ÿ3 ÿÿ1ÿ#ÿ8(3ÿ3ÿ3814ÿ1164'ÿ334ÿ4ÿ"144111ÿ1
3 ÿ423819ÿÿ=>?ÿÿ,**9ÿÿ"1ÿ 3ÿ2342515ÿÿ581ÿ8453ÿ 4'ÿ135ÿ
423434ÿ121ÿÿ21ÿ8 31ÿ4ÿ451ÿ514ÿ34ÿ 3814!ÿ'ÿ3ÿ34ÿÿ1)
#ÿ334ÿ4ÿ"144111ÿ45ÿÿ43ÿ2341#4'ÿ1419ÿ=>9ÿ"1ÿ3ÿÿ18414
14(3415ÿ511454ÿ38ÿ14324'ÿ1ÿ8453ÿ4'ÿ135ÿ3ÿ31ÿ1164'ÿ4ÿ3349*ÿ
ÿ"1ÿ3.ÿ3 1#1.ÿ55ÿ43ÿ45ÿÿ1ÿ11814ÿ1'54'ÿ1)84515
43834ÿ45ÿ51#1ÿ3ÿÿ43834ÿÿÿ24ÿ3ÿ2341ÿ451ÿ514ÿ34
334ÿ221.ÿ511ÿ454'ÿÿ11ÿ11814ÿ1#1ÿ43ÿ1'81ÿ319ÿÿ4 434
ÿ,119ÿÿ"1ÿ3ÿ3ÿ345ÿÿ44121ÿ3ÿ1ÿ34ÿ4!ÿ1ÿ31234ÿ28.ÿÿ
*
*

@ABCÿEFGHIJKILLMLHÿÿÿNOJPQCRSÿTUMÿÿÿVWXCYÿGTZG[ZTLÿÿÿ\A]CÿTÿO^ÿ_ÿ\A]CǸÿaFÿ_MGb
139a

0121345367ÿ2914ÿ61ÿ9376536ÿ 693ÿ5 3ÿ96ÿ619ÿ3691ÿ2ÿ515ÿ 67ÿ37941
61ÿ2 93ÿ2ÿ2567ÿ 13ÿ419493ÿ5ÿ 693ÿ6ÿ765ÿ53ÿ933693ÿ13493ÿ515ÿ
ÿ 161ÿ61ÿ765ÿ59536ÿ57ÿ541ÿ5ÿ763ÿ7 93ÿ656ÿ1ÿ97
91ÿ6ÿ7114ÿ3ÿ61ÿ 1967ÿÿ 161ÿ61ÿ59536ÿ9ÿ1
9155ÿ9314ÿ57136ÿ5ÿ765ÿÿ 161ÿ977531ÿ2ÿ61ÿ765ÿ9
77653695ÿ931ÿ61ÿ61ÿ56917ÿ936117614ÿ93ÿ61ÿ11493ÿ534
!ÿ 11ÿ61ÿ9ÿ9361176ÿ917ÿ" 13ÿ1#55693ÿ6171ÿ2567ÿ2
53ÿ5114ÿ376966935ÿ#95693$ÿ61ÿ919 4ÿ2ÿ7177ÿ3ÿ61
1967ÿ2613ÿ9ÿ1ÿ61ÿ4161 93569#1ÿ256ÿ% 97ÿ97ÿ7ÿ1571ÿÿÿ
61ÿ97717ÿ2ÿ9ÿ9361176ÿ534ÿ5 ÿ6ÿ61ÿ17169#1ÿ56917ÿ51
41134ÿ3ÿ61ÿ37696693596ÿ2ÿ61ÿ76561ÿ5693
&'()*+(,ÿ./ÿ0123,1$ÿ454ÿ64ÿ78!$ÿ789ÿ:6ÿ9ÿ88ÿ936135ÿ;656937ÿ534ÿ9656937ÿ 96614ÿ
<5#93ÿ3794114ÿ6171ÿ2567ÿ93ÿ96ÿ2ÿ61ÿ1=61379#1ÿ695ÿ1#94131ÿ534ÿ61ÿ11#536ÿ571ÿ5$ÿ61
 6ÿ3417ÿ656ÿ61ÿ1;17614ÿ765ÿ 4ÿ36ÿ1ÿ59561
6976$ÿ4121345367ÿ5#1ÿ36ÿ541ÿ5ÿ763ÿ7 93ÿ656ÿ61ÿ51ÿ91ÿ6ÿ7114ÿ3
61ÿ1967ÿ0121345367ÿ51ÿ656ÿ697ÿ 6ÿ5914ÿ61ÿ9316ÿ7653454ÿ93ÿ293493ÿ61ÿ%13317711
765661ÿ3376966935ÿÿ" 91ÿ697ÿ 6ÿ5914ÿ61ÿ6176ÿ69314ÿ93ÿ61ÿ596ÿ9393ÿ93ÿ>?,1
@1A/ÿB1C.+/ÿD/D/E/ÿ./ÿF?++($ÿ!8ÿGÿ6ÿ8ÿ88$ÿ5ÿ771;136ÿ97714ÿG9=6ÿ996ÿ9393
4161 9314ÿ656ÿ 912ÿH7691ÿI 167J7ÿ3131ÿ97$ÿ9376154$ÿ61ÿ 493ÿ2ÿ656ÿ571ÿÿB11ÿK@L
L()1,M+ÿB?CN3OPQÿERC/ÿ./ÿSC31AQP,A1C$ÿ497ÿ64ÿ!7$ÿ! ÿ:6ÿ9ÿ88ÿÿ0121345367ÿ51ÿ656
341ÿ61ÿI 167ÿ7653454$ÿ61ÿ59693ÿ194ÿ97ÿ376966935ÿ0127JÿT 6ÿ56ÿU9ÿ< 1#1$ÿ5714
3ÿ61ÿ2567ÿ1713614ÿ56ÿ695$ÿ61ÿ 6ÿ29347ÿ967ÿ9393ÿ6ÿ593ÿ96ÿ61ÿG1 1ÿ 6J7ÿ9393
93ÿF?++($ÿ57ÿ1ÿ57ÿ61ÿG9=6ÿ996J7ÿ 1ÿ1136ÿ9393ÿ93ÿK@L/ÿÿ
V 6ÿ61ÿ596ÿ9393ÿ534ÿ 912ÿH7691ÿI 167J7ÿ3131ÿ93ÿF?++(ÿ412931
53ÿW341ÿ413Xÿ57ÿ5ÿ1769693ÿ656ÿ57ÿW61ÿ71ÿÿ12216ÿ2ÿ1713693ÿ5ÿ77653695ÿ7651
234ÿ61ÿ765661ÿ6ÿ1ÿW3376966935ÿ341ÿ61ÿ341ÿ413ÿ7653454XÿÿYAÿ56ÿ5ÿ
Z[\]ÿ_àbcdecffgfbÿÿÿhidjk]lmÿnogÿÿÿpqr]sÿantautnfÿÿÿv[w]ÿ_ÿixÿyÿv[w]zhÿ{ÿ̀ygnf
140a

01ÿ3ÿ41536ÿ78896ÿ36ÿ31016ÿÿÿÿ0ÿ30ÿÿ30ÿ1616!ÿ"#ÿ30ÿ%&ÿ'1807
(ÿ)16) 6 ÿ53ÿ10*ÿ16167ÿ85*37+8ÿ0*30ÿ0*8ÿ6,8ÿ,86ÿ0870ÿ85367ÿ0*30ÿ4*)*
437ÿ87037*8,ÿ6ÿ-./001#ÿ-/21034#ÿ5ÿ617ÿ-/7ÿ87ÿ9/1:ÿ&&ÿ;ÿ<%%ÿ<==ÿ>>ÿÿ611ÿ
ÿÿ0ÿ30ÿÿ30ÿ1616!ÿ"#ÿ30ÿ%&ÿ'1807ÿ(ÿ)16) 6 ÿÿ?*8ÿ536ÿ,@@886)8
804886ÿ0*8ÿ041ÿ16167ÿ7ÿ4*80*8ÿ3ÿ,70)0ÿ)10ÿ7*1,ÿ48 *ÿ0*8ÿ868@07ÿ1@ÿ36ÿ31016
870)016ÿ33670ÿ07ÿ,867ÿÿ611ÿ"#ÿ30ÿ%Aÿ'1807ÿ(ÿ)16) 6 ÿÿB6ÿ0*8ÿ87860ÿ)378ÿ40*
1ÿ40*10ÿ7)*ÿ3ÿ336)6ÿ0870ÿ0*8ÿ?86687788ÿ703008ÿ)16700087ÿ3ÿC7703603ÿ1703)8ÿ01ÿ3ÿ41536
78896ÿ36ÿ31016ÿ36,ÿ0*7ÿ36ÿ6,8ÿ,86ÿÿD7ÿ0*7ÿ10ÿ70308,ÿ6ÿ07ÿ1616ÿC0*8ÿ4306
81,ÿÿÿÿ7 6@)360ÿ,837ÿ0*7ÿ058ÿ78670E8ÿ58,)3ÿ1)8,8ÿ36,ÿ371ÿ53987ÿ0ÿ71ÿ058F
)16756ÿ)170ÿ36,ÿ6)16E86860ÿ01ÿ1036ÿ0*30ÿ0*8ÿ8,156308ÿ14F6)158ÿ13016ÿ78896
0*8ÿ78E)8ÿ570ÿ70 8ÿ01ÿ3))877ÿ0ÿ@ÿ0*8ÿ)36ÿ3))877ÿ0ÿ30ÿ3ÿÿG616ÿ30ÿ%ÿÿ
H8708ÿ0*8ÿ10I7ÿ,8038,ÿ@3)03ÿ@6,67ÿ83,6ÿ0*8ÿ703008I7ÿ,867158ÿ8@@8)0
16ÿ41586ÿ78896ÿ36ÿ31016ÿ,8@86,3607ÿ371ÿ3 8ÿ0*30ÿ0*8ÿ,83ÿ8J 85860ÿ6ÿ0*8ÿ87860ÿ)378
7*1,ÿ8ÿ*8,ÿ8)378ÿ3ÿ753ÿ,83ÿ8J 85860ÿ437ÿ*8,ÿ6ÿ9/1:ÿÿH8@7IÿK10ÿ30ÿAÿ
L148E8ÿ37ÿ0*8ÿ10ÿ85*37+8,
M0N*8ÿ87860ÿ)378ÿ*37ÿ4*30ÿ437ÿ3)96ÿ6ÿ9/1:Oÿ3ÿ@ÿ,8E818,
8)1,ÿ0*30ÿ)83ÿ7*147ÿ0*8ÿ8P0860ÿ01ÿ4*)*ÿ0*8ÿ536,301ÿ4306
81,ÿ3)87ÿ3ÿ7703603ÿ1703)8ÿ6ÿ0*8ÿ43ÿ1@ÿ41586ÿ4*1ÿ7889ÿ36
31016ÿÿÿÿÿÿD610*8ÿ510360ÿ,@@886)8ÿ804886ÿ9/1:ÿ36,ÿ0*8
87860ÿ)378ÿ)16)867ÿ0*8ÿ65 8ÿ1@ÿ31016ÿ1E,87ÿQ*86ÿ9/1:
437ÿ,8),8,ÿR8667E363ÿ*3,ÿ8 *0F168ÿ7)*ÿ1E,87ÿ@ÿ086
0587ÿ37ÿ536ÿ37ÿ?86687788ÿ*37ÿ) 860
G616ÿ30ÿ%ÿÿ?*88@18ÿ0*8ÿ@3)0ÿ0*30ÿ3ÿ536,301ÿ4306ÿ81,ÿ437ÿ@16,ÿ01ÿ8ÿ)167000163
6ÿ9/1:ÿ,187ÿ610ÿ5836ÿ0*30ÿ0*8ÿ7358ÿ@6,6ÿ7ÿ8J 8,ÿ6ÿ0*8ÿ87860ÿ)378ÿÿÿ

STUVÿXYZ[\]^\__`_[ÿÿÿab]cdVefÿgh`ÿÿÿijkVlÿZgmZnmg_ÿÿÿoTpVÿnÿbqÿrÿoTpVsaÿtYÿr`gZ
141a

0121345367ÿ2961ÿ5 91ÿ656ÿ61ÿ96ÿ1 3197ÿ 53614ÿ255ÿ112ÿ57ÿ61
19563ÿ3ÿ91763ÿ44ÿ36ÿ71ÿ53ÿ93491ÿ9413ÿ3ÿ5ÿ5 1ÿ2563ÿ2ÿ61ÿ5717ÿ3ÿ ÿ61
19563ÿ7ÿ11536ÿÿ0127ÿ6ÿ56ÿÿ963ÿ!"#ÿ$%ÿ&'4ÿ56ÿ('()ÿÿ* 7ÿ7ÿ3 16ÿÿ* 1
96ÿ2934ÿ656ÿ+,536227ÿ14ÿ656ÿ61ÿ765696ÿ563ÿ14ÿ94137ÿ61ÿ5-6ÿ2
563ÿ561367ÿ6ÿ732536ÿ534ÿ2613ÿ37993651ÿ765ÿ534ÿ23535ÿ9417ÿ
.33ÿ56ÿ/0(ÿÿ* 7ÿ9413ÿ7ÿ11515614ÿ2ÿ6ÿ732536ÿ534ÿ153ÿ79295637ÿ3
13ÿ ÿ976ÿ651ÿ3ÿ4765317ÿ6ÿ7114ÿ53ÿ563ÿ534ÿ231ÿ13ÿÿ56ÿ56ÿ/0(207ÿ
8125ÿ61ÿ 96ÿ2934ÿ656ÿ+3,316271ÿ1136ÿ2ÿ*13317711ÿ93617ÿ4ÿ36ÿ51ÿ53
563ÿ3ÿ534ÿ9':ÿ2ÿ13ÿ1ÿ3ÿ5ÿ936ÿ696ÿ53ÿ563ÿ41ÿÿ56ÿ56ÿ/0(ÿÿ* 1
96ÿ2961ÿ2934ÿ656ÿ5714ÿ3ÿ61ÿ141ÿ61763ÿ2ÿ1116ÿ6317717ÿ9;:ÿ6ÿ%;:ÿ2ÿ13
 ÿ7114ÿ53ÿ563ÿ3ÿ*13317711ÿ51ÿ231ÿ<==ÿ?6ÿ56ÿ/'/ÿ ÿ67ÿ6ÿ61ÿ35635
561ÿ2ÿ7:ÿÿ@==ÿ?6ÿ56ÿ/07ÿÿ* 171ÿ6ÿ79295637ÿ15ÿ341134136ÿ3766961ÿ5ÿ5-6
534ÿ697ÿ35 95ÿ5ÿ5 1ÿ2563ÿ2ÿ671ÿ71143ÿ6ÿ5177ÿ563ÿ51ÿÿÿ
A31ÿ2ÿ61ÿ1533ÿ6 11ÿ2567ÿ1 7ÿ3ÿ25ÿ2ÿ61ÿ1917614ÿ765ÿÿB7ÿ6ÿ61
7134ÿ256ÿ4121345367ÿÿ36ÿ1ÿ155ÿ3-914ÿ57136ÿ5ÿ765ÿ57ÿ13136ÿ2257ÿ4
36ÿ51ÿ53ÿ16561ÿ361176ÿ3ÿ1323ÿ9337669635ÿ76569617ÿÿ@==ÿCDEFF=6ÿCEG=FHIJJ6
K<<LFÿJMÿN?FO?FFEH?Pÿ5FOQÿRQÿN?HSÿJMÿN?FO?FFEH?ÿ%00ÿ&04ÿ/'$;ÿ/(;;ÿ96ÿÿ/$%)Tÿ"?OIQÿ@HEH=
KUVWN5XÿRQÿYJIF<JFÿAÿ/92//(7(ÿ0;/9ÿZ[ÿ9(;7%'/ÿ56ÿ\0ÿ]0ÿÿ.6ÿ'/ÿ0;/9)ÿ^2ÿ5
7656961ÿ7ÿ9337669635ÿÿ7ÿ61ÿ86561ÿ514ÿÿ36ÿ13ÿ51ÿ6ÿ1321ÿ6_)ÿÿ3171
536227ÿ5695ÿ534ÿ29691ÿ561367ÿÿ1ÿ155ÿ3-914ÿÿ61ÿ779531ÿ2ÿ5ÿ765ÿ^3ÿ54463
6ÿ61ÿ315714ÿ747ÿ534ÿ767ÿ714ÿÿ61ÿ*13317711ÿ76569617ÿ415ÿ191136ÿ6171ÿ561367
ÿ79221ÿ5ÿ15ÿ3231136ÿ2ÿ61ÿ&961136ÿB134136ÿ 67ÿÿB7ÿ61ÿ816ÿ96ÿ57
7
`abcÿefghijkillmlhÿÿÿnojpqcrsÿtumÿÿÿvwxcyÿgtzg{ztlÿÿÿ|a}cÿhÿo~ÿÿ|a}cnÿfÿmtt
142a

0121345ÿ789 3ÿ01112ÿ10ÿ23ÿ1321334ÿÿ2345ÿ3223ÿÿ0ÿ3034ÿ
ÿ!"ÿ#$ÿ%$ÿ&'()*+5ÿ,-.ÿ/04ÿ1205ÿ10,ÿ3,1ÿ4ÿ25627ÿÿ8939035ÿ789 3ÿ2ÿ01112
:21ÿ0ÿ93ÿÿÿÿ13ÿÿ13301ÿ12130ÿÿ;2:ÿ;ÿ 1:3ÿ33;ÿ3203ÿ1ÿ0ÿ2920
ÿ13ÿÿ13301ÿ1ÿ3:31ÿ:21ÿ;ÿ2ÿ21<0ÿ01112ÿ10ÿÿ#$ÿ=$>$ÿ?@A!@ÿB'@+
!ÿCADE$ÿ%$ÿ>A%A@F()!@ÿ=@)G5ÿ.-,ÿ/04ÿ,0,5ÿ,1-ÿ3,1ÿ4ÿ256H7ÿ3I1ÿCAJJ*"ÿ%$ÿ=A)Gÿ!ÿ=A@DA@@)A5
,22ÿ/04ÿH215ÿH15ÿ3,1ÿ4ÿ256577ÿÿK 45
LMÿLNÿOPQRPRQÿ121ÿ43;34210<ÿ1ÿ;ÿ2ÿ012ÿ34ÿ232ÿ0ÿ4334
ÿÿ
ÿÿÿÿ
Q2134ZÿQ333ÿ615ÿ2525
Q3115ÿV 2

ÿÿÿÿÿ0ST324ÿKÿ/342ÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿÿ
ÿÿÿÿÿTRPUKPQÿKÿ/PLRQVKU
ÿÿÿÿÿNRULOPÿWULMRQÿNMKMRNÿQLNMPL4MÿXWQYR

,
[\]^ÿ̀abcdefdgghgcÿÿÿijekl^mnÿophÿÿÿqrs^tÿboubvuogÿÿÿw\x^ÿyÿjzÿyÿw\x^{iÿ|aÿyho`
143a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 1

RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 21a0043p.06

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

BRISTOL REGIONAL WOMEN’S CENTER, P.C.; MEMPHIS
CENTER FOR REPRODUCTIVE HEALTH, on behalf of
itself and its patients, KNOXVILLE CENTER FOR
REPRODUCTIVE HEALTH; PLANNED PARENTHOOD OF
TENNESSEE AND NORTH MISSISSIPPI, formerly known
as Planned Parenthood of Middle and East Tennessee,
and DR. KIMBERLY LOONEY,
Plaintiffs-Appellees,
v.
HERBERT H. SLATERY, III, Attorney General of
Tennessee, GLENN R. FUNK, District Attorney General
of Nashville, Tennessee, AMY P. WEIRICH, District
Attorney General of Shelby County, Tennessee;
BARRY P. STAUBUS, District Attorney General of
Sullivan County, Tennessee, CHARME P. ALLEN, LISA
PIERCEY, Commissioner of the Tennessee Department
of Health, and W. REEVES JOHNSON, JR., M.D.,
President of the Tennessee Board of Medical
Examiners, in their official capacities,
Defendants-Appellants.

┐
│
│
│
│

>

│
│
│
│
│
│
│
│
│
│
│
│
│
│
│
│
│
│
┘

No. 20-6267

On Motion for Stay Pending Appeal
United States District Court for the Middle District of Tennessee at Nashville;
No. 3:15-cv-00705—Bernard A. Friedman, District Judge.
Decided and Filed: February 19, 2021
Before: MOORE, WHITE, and THAPAR, Circuit Judges.
_________________
COUNSEL
ON MOTION AND REPLY: Sarah K. Campbell, Mark Alexander Carver, OFFICE OF
THE TENNESSEE ATTORNEY GENERAL, Nashville, Tennessee, for Appellants.

144a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 2

ON RESPONSE: Autumn Katz, Michelle Moriarty, Rabia Muqaddam, CENTER FOR
REPRODUCTIVE RIGHTS, New York, New York, Maithreyi Ratakonda, PLANNED
PARENTHOOD FEDERATION OF AMERICA, New York, New York, Scott Tift, BARRETT
JOHNSTON MARTIN & GARRISON, LLC, Nashville, Tennessee, Michael J. Dell, Jason M.
Moff, KRAMER LEVIN NAFTALIS & FRANKEL LLP, New York, New York for Appellees.
MOORE, J., delivered the order of the court in which WHITE, J., joined. THAPAR, J.
(pp. 20–33), delivered a separate dissenting opinion.
_________________
ORDER
_________________
KAREN NELSON MOORE, Circuit Judge. “Unfortunately, the teachings of precedent
are not always as clear as we might wish.” Wright v. Spaulding, 939 F.3d 695, 699 (6th Cir.
2019) (Thapar, J.). This bit of wisdom rings particularly true for the resolution of the motion to
stay pending appeal before us today, which targets the district court’s judgment declaring
unconstitutional and permanently enjoining a Tennessee statute that imposes a waiting period of
48 or 24 hours on women seeking an abortion in the state. Defendants1 argue that a stay is
warranted because two precedents, EMW Women’s Surgical Center, P.S.C. v. Friedlander,
978 F.3d 418 (6th Cir. 2020), and Planned Parenthood of Southeastern Pennsylvania v. Casey,
505 U.S. 833 (1992), will compel us to vacate the district court’s judgment and permanent
injunction on appeal. Our dissenting colleague—in his zeal to uphold what appears to be yet
another unnecessary, unjustified, and unduly burdensome state law that stands between women
and their right to an abortion—agrees. We think, however, that this case is not so simple.
Because neither Casey nor EMW has foreclosed Plaintiffs’2 arguments, we must decline
Defendants’ invitation to follow them blindly. After all, we are bound by “complementary
duties: adhering to precedent when an issue has already been decided and considering an issue
with an open mind when it has not.” Wright, 939 F.3d at 702. Assessing the parties’ preliminary

1

The defendants in this case are various Tennessee officials charged with the enforcement of the state’s
waiting period law.
2

Plaintiffs are Tennessee abortion providers.

145a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 3

arguments with the requisite clear eyes, we conclude that a stay is unwarranted. Accordingly, we
DENY the motion for a stay pending appeal.3
I. BACKGROUND
At issue in this case is the constitutionality of Tennessee Code Annotated § 39-15202(a)–(h), which imposes informational and temporal requirements on women seeking an
abortion in Tennessee. These requirements are asserted to “ensure” that the woman’s “consent
for an abortion is truly informed consent.” Tenn. Code Ann. § 39-15-202(b).
3

Our dissenting colleague calls for “immediate correction” of this order. Dissent at 20. Yet we fail to see
how en banc review of this stay order is warranted, or even available. Indeed, despite our dissenting colleague’s
impressive string citation, he fails to reference a single case where this court has assembled en banc to review a premerits stay order. Rather, each involves en banc review of a panel opinion resolving a direct appeal of a preliminary
injunction—something that the court unquestionably has the authority to do, but something that is inapposite in the
context of a stay order. That the dissent fails to reference a case involving en banc review of a stay order—despite
the similarity between the standards for addressing a motion to stay and reviewing a preliminary injunction—is
unsurprising. It is one thing for the en banc court to take on a matter once it has run its course with the merits panel;
it is something else entirely to burden the court and the parties with en banc proceedings on a pre-merits stay order
while the panel and the parties proceed on the merits of the appeal. Such a course of action would be exceedingly
wasteful, especially when the en banc court is able to review the panel’s resolution of the appeal itself in due course.
Here, merits briefing is already underway and is scheduled to conclude in short order. An opinion resolving the
merits will follow thereafter. With the benefit of complete briefing, we may rethink our reasoning and conclusions.
Once an opinion on the merits issues, if either party desires en banc review, they are free to seek it. Any other
approach would be an unwarranted waste of the Parties’ and this court’s resources, and would raise questions as to
why this court was going out of its way to wield en banc review so indiscriminately and unnecessarily. See
generally Neal Devins and Allison Orr Larsen, Weaponizing En Banc (February 9, 2021) (unpublished manuscript)
(on file with authors). Available at SSRN: https://ssrn.com/abstract=3782576.
In any case, this court’s Internal Operating Procedures preclude such a wasteful result. They specify that
only “[p]etitions seeking rehearing en banc from an order that disposes of the case on the merits or on jurisdictional
grounds are circulated to the whole court” with limited exceptions that do not apply here. See 6 Cir. I.O.P. 35(g).
Otherwise, “[p]etitions seeking rehearing en banc from other orders will be treated in the same manner as a petition
for panel rehearing: They will be circulated only to the panel judges.” See 6 Cir. I.O.P. 35(h). This is the approach
that we have previously followed. See Order, No. 12-4264, Serv. Emps. Int’l Union Local 1 v. Husted (6th Cir. Dec.
5, 2012) (treating a petition for rehearing en banc of a stay order as a petition for panel rehearing pursuant to 6th Cir.
I.O.P. 35(g), (h)), ECF No. 48. We see no reason why it should be any different when a judge takes it upon himself
to call for en banc rehearing sua sponte.
As for our dissenting colleague’s call for Defendants to attempt an end run around this court’s ordinary
procedures by seeking initial hearing en banc, we think that Defendants are quite capable of making their own
strategic decisions without our dissenting colleague’s assistance. Suffice it to say, there are good reasons for leaving
our ordinary procedures in place and allowing an appeal to run its course before calling upon the full court to resolve
an issue. The parties soon will have fully briefed the merits, expanding upon their initial arguments here. With the
benefit of more detailed briefing and (if required) oral argument, the resulting opinion(s) will be all the more
informed. Yes, as things stand, we think Defendants are unlikely to succeed on appeal, but that result is not
preordained and will depend on the Parties’ full arguments. The same is true—we hope—for our dissenting
colleague’s opposite conclusion, and we trust that he will keep an open mind.

146a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 4

The informational component of § 39-15-202(a)–(h) prohibits a physician from
performing an abortion unless the woman has been informed, “orally and in person by the
attending physician who is to perform the abortion, or by the referring physician”: (1) that she is
pregnant; (2) of the probable gestational age of the fetus; (3) that the fetus may be viable if
enough time has elapsed since the woman’s last menstrual cycle or the time of conception; (4) of
the “numerous public and private agencies and services [that] are available to assist her during
her pregnancy and after the birth of her child, if she chooses not to have the abortion”; and (5) of
“[t]he normal and reasonably foreseeable medical benefits, risks, or both of undergoing an
abortion or continuing the pregnancy to term.” Tenn. Code Ann. § 39-15-202(b). At the same
time, the attending or referring physician must inform the woman of the “particular risks
associated with her pregnancy and continuing the pregnancy to term, . . . as well as the risks of
undergoing an abortion,” and provide a description of “the method of abortion to be used and the
medical instructions to be followed subsequent to the abortion.” Tenn. Code Ann. § 39-15202(c).
The temporal component of § 39-15-202(a)–(h) establishes a 48-hour waiting period that
begins when the woman receives the mandated information described above. Tenn. Code Ann.
§ 39-15-202(d)(1). The statute provides that the waiting period will be reduced to 24 hours in
the event of a court order “temporarily, preliminarily, or permanently” enjoining enforcement of
the 48-hour waiting period or declaring it unconstitutional. Tenn. Code Ann. § 39-15-202(d)(2).
After the waiting period has ended, but before having the procedure, the woman must sign a
“consent form” acknowledging that she has received the requisite information. Tenn. Code Ann.
§ 39-15-202(d)(1). Because the woman must receive the statutorily mandated information in
person, the effect of the waiting period is that a woman seeking an abortion in Tennessee must
make at least two visits to the clinic where she will receive abortion care.

The statute’s

requirements apply to all abortions in Tennessee, except in cases of medical emergency that
prevent compliance. See Tenn. Code Ann. § 39-15-202(d).
Plaintiffs—suing on their own behalf and on behalf of their patients—brought suit to
challenge, on two grounds, the constitutionality of § 39-15-202(a)–(h). First, Plaintiffs alleged
that the statute imposes an undue burden on the accessibility of abortion in violation of the Due

147a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Process Clause of the Fourteenth Amendment.

Page: 5

Second, they alleged that the statute

discriminates against women on the basis of sex and gender stereotypes in violation of the Equal
Protection Clause of the Fourteenth Amendment.

To remedy the alleged constitutional

violations, Plaintiffs sought declaratory relief and a permanent injunction prohibiting the
enforcement of § 39-15-202(a)–(h).
On October 14, 2020, following five years of litigation and a four-day bench trial, the
district court issued a comprehensive, 136-page opinion setting forth the findings of fact and
conclusions of law that supported its ultimate conclusion that § 39-15-202(a)–(h)’s waiting
period (whether 48 or 24 hours) violates the Due Process Clause of the Fourteenth Amendment.
Adams & Boyle, P.C. v. Slatery, --- F. Supp. 3d ----, No. 3:15-cv-00705, 2020 WL 6063778
(M.D. Tenn. Oct. 14, 2020).4 Accordingly, the district court declared the statute’s waiting period
unconstitutional and permanently enjoined its enforcement.

Because its conclusion as to

Plaintiffs’ due process claim was sufficient to enjoin the waiting period’s enforcement, the
district court declined to rule on Plaintiffs’ equal protection claim.
Defendants filed their notice of appeal on November 4, 2020. The same day, Defendants
filed in the district court a motion to stay the judgment and the permanent injunction pending
appeal. After the district court denied a stay, R. 287 (Op. & Order) (Page ID #6718–23),
Defendants filed a motion for the same relief in this court. See Fed. R. App. P. 8(a).
II. DISCUSSION
The issuance of a stay pending appeal is a matter of our discretion, not a matter of right.
Nken v. Holder, 556 U.S. 418, 433 (2009). To determine whether to exercise our discretion, we
consider four familiar factors: (1) “whether the stay applicant has made a strong showing that he
is likely to succeed on the merits”; (2) the likelihood that, absent a stay, “the applicant will be
irreparably injured”; (3) “whether issuance of the stay will substantially injure the other parties
interested in the proceeding”; and (4) the public interest. Id. at 434 (quoting Hilton v. Braunskill,
481 U.S. 770, 776 (1987). However, in constitutional cases like this one, the likelihood of
4

appealed.

The district court upheld the statute’s informational components, a determination that Plaintiffs have not

148a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 6

success on the merits is typically determinative. See Commonwealth v. Beshear, 981 F.3d 505,
508 (6th Cir. 2020) (order) (per curiam). The party seeking a stay bears the burden of showing
that we should exercise our discretion in its favor. See Nken, 556 U.S. at 433–34. Defendants
have not met that burden here.
A.
Most importantly, Defendants have not persuaded us that they are likely to succeed on
the merits. Various standards of review will govern Defendants’ appeal of the district court’s
grant of a permanent injunction: “we review factual findings for clear error, legal conclusions de
novo, and the scope of injunctive relief for abuse of discretion.” Gibson Guitar Corp. v. Paul
Reed Smith Guitars, LP, 423 F.3d 539, 546 (6th Cir. 2005). Yet at this stage, Defendants have
not endeavored to demonstrate any clear error in the district court’s fact finding, and do not
challenge the scope of the injunction except to the extent that they believe no injunction should
have issued at all. Rather, Defendants attribute their likelihood of success entirely to legal error.
Specifically, they contend that: (1) the district court applied the wrong standard for determining
whether a state abortion restriction is invalid because it is an “undue burden” on the right under
Casey, 505 U.S. at 877 (plurality opinion)5; (2) as a matter of law, the district court’s factual
findings do not establish that the waiting period law unduly burdens the right to abortion; and
(3) not enough women are unduly burdened by the waiting period for it to be facially invalid.
None of these arguments are likely to succeed.
1.
Defendants’ first argument—that they are likely to succeed on appeal because the district
court applied the wrong undue burden standard—rests on an overly narrow view of our role as
appellate jurists. Our dissenting colleague here stumbles into the same mistake as Defendants.
To understand Defendants’ first argument—and our reasons for rejecting it—a truncated
history is in order. All agree that the “undue burden” standard announced in 1992 by a plurality
of the Supreme Court in Casey governs the constitutionality of state abortion restrictions under
5

All further references to Casey are to the plurality opinion.

149a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 7

the Due Process Clause. As that plurality held, a state abortion restriction violates the Due
Process Clause if it places an “undue burden” on a woman’s right to choose to terminate her
pregnancy. 505 U.S. at 878. Under Casey, “[a]n undue burden exists, and therefore a provision
of law is invalid, if its purpose or effect is to place a substantial obstacle in the path of a woman
seeking an abortion before the fetus attains viability.” Id. This standard preserves the state’s
“interest in potential life” and its interest in protecting the health of the mother, but only to the
extent that the restrictions expressing those interests do not run afoul of the undue burden
standard. Id.
Fast forward some twenty years and disagreement had arisen as to the proper application
of Casey’s undue burden standard (as the Casey plurality itself predicted that it would, see id.).
In Whole Woman’s Health v. Hellerstedt, a majority of the Court endeavored to remedy that
disagreement by clarifying that the undue burden standard “requires that courts consider the
burdens a law imposes on abortion access together with the benefits those laws confer.” 136 S.
Ct. 2292, 2309 (2016) (citing Casey, 505 U.S. at 887–901)). Applying this “balancing” test, id.,
to Texas laws requiring that an abortion provider have admitting privileges at a hospital within
thirty miles of its facility and that its facility meet the minimum standards for surgical centers
under state law, the Court held that the laws were invalid. Id. at 2300. As for the admittingprivileges law, the Court concluded that it unduly burdened abortion access because its
burdens—the law would have closed about half of the state’s existing abortion facilities,
increasing wait time, crowding, and the distance women needed to travel in order to receive an
abortion—outweighed its benefits, which were essentially nonexistent given the evidence
demonstrating that abortion complications requiring hospitalization are exceedingly rare. Id. at
2313–14. As for the surgical-center requirement, the Court concluded that it unduly burdened
abortion access because it would further reduce the number of abortion providers in the state to
the point where the remaining facilities would be unable to meet the existing demand for
abortion services, and again offered no meaningful health benefits. Id. at 2314–18.
Despite Whole Woman’s Health’s offer of clarity, the waters muddied again with the
Court’s splintered decision in June Medical Services L.L.C. v. Russo, 140 S. Ct. 2103 (2020).
Addressing a Louisiana admitting-privileges law that was nearly identical to the Texas law

150a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 8

invalidated in Whole Woman’s Health, a four-justice plurality balanced the burdens and benefits
of the Louisiana law and concluded that it unduly burdened abortion access in violation of the
Due Process Clause. Id. at 2112–13. The Chief Justice concurred, but on stare decisis grounds,
noting the need to “treat like cases alike” and the similarity between the Louisiana law and its
burdens and those at issue in Whole Woman’s Health. Id. at 2133–34. He went on, however, to
criticize the balancing test employed by the plurality (and the majority in Whole Woman’s
Health) as untethered from Casey. Id. at 2135–39. According to the Chief Justice, the benefits
of a law are irrelevant to a determination of whether a state abortion restriction “has the purpose
or effect of placing a substantial obstacle in the path of a woman seeking an abortion of a
nonviable fetus” under Casey. Id. at 2135–36 (quoting Casey, 505 U.S. at 877). To the Chief
Justice, “[l]aws that do not pose a substantial obstacle to abortion access are permissible, so long
as they are ‘reasonably related’ to a legitimate state interest.” Id. at 2135 (quoting Casey, 505
U.S. at 878). Four dissenting justices would have held the Louisiana admitting-privileges law
constitutional.
A few months after the Supreme Court issued June Medical—and before this court had
addressed that decision—the district court issued its findings of fact and conclusions of law,
declaring Tennessee’s waiting period unconstitutional under Casey and permanently enjoining its
enforcement. Adams & Boyle, 2020 WL 6063778, at *67. In doing so, the district court
followed the approach taken by the plurality in June Medical and the majority in Whole
Woman’s Health, balancing the burdens of the waiting period against its benefits. Id. at *63–64.
The district court did not address the Chief Justice’s concurrence, apparently believing that it did
not displace a balancing approach as the appropriate means for determining whether a state
abortion restriction constitutes an undue burden under Casey. Finding that the waiting period
risked women’s health and substantially limited access to abortion without any “countervailing
benefit,” the district court concluded that the waiting period amounted to an undue burden under
Casey and thus was invalid. Id. at *63–64.
Two short days later, this court issued a decision in EMW, which involved a Kentucky
law requiring that abortion providers obtain transfer and transport agreements with local
hospitals and ambulance services. Unlike the district court here, a two-judge majority conducted

151a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 9

a lengthy analysis to determine which of the June Medical opinions was controlling given that
none had attracted the support of a majority of the Court. 978 F.3d at 430–31. Bemoaning the
“‘vexing task’ of deciding which opinion controls” when the Supreme Court issues a decision
without a majority opinion, the EMW majority selected the Chief Justice’s concurrence (and its
rejection of a balancing approach to the undue burden standard), reasoning that it was the
narrower opinion and thus controlling under the doctrine set forth in Marks v. United States,
430 U.S. 188 (1977). EMW, 978 F.3d at 431, 433. That discussion may have been much ado
about nothing, however, when the majority concluded that the district court clearly erred in
finding that the transfer and transport laws would cause the closure of both of Kentucky’s two
abortion providers, which had been the plaintiffs’ only asserted “basis for concluding that the
challenged provisions impose a substantial obstacle” and thus were an undue burden under
Casey. Id. at 440, 446. As Judge Clay pointed out in dissent, the majority’s conclusion rendered
“apparently unnecessary” its prolonged analysis of the competing opinions in June Medical
because without a burden supported by the record, the Kentucky transfer and transport law
would have been valid under either approach. Id. at 454 n.2. For his part, Judge Clay would
have followed the Whole Woman’s Health majority, concluding that even if the Chief Justice’s
concurrence in June Medical were the controlling opinion from that case—a proposition that
Judge Clay disputed but deemed unnecessary to resolve, id. at 454 n.3—the Chief Justice’s
critique of the balancing approach was dicta because his opinion was based on stare decisis. Id.
at 455. Applying this understanding of Casey and concluding that the district court’s findings
were free of clear error, Judge Clay would have held the Kentucky laws unconstitutional because
their burdens outweighed their benefits. Id. at 470.
Our discussion of EMW leads us back to Defendants’ argument that they are likely to
succeed on the merits because the district court applied the wrong undue burden standard to hold
the state’s waiting period unconstitutional.

According to Defendants, EMW—including its

endorsement of the Chief Justice’s full June Medical concurrence—is binding precedent.
Because the district court balanced burdens and benefits when it should have considered only the
burdens under EMW, Defendants argue that we are required (at the very least) to vacate the
injunction and remand for reconsideration under the correct undue burden standard. Defendants

152a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 10

are wrong. Even assuming that the district court erred in balancing burdens and benefits to hold
Tennessee’s waiting period unconstitutional, the error would not warrant reversal here.
As a general matter, Defendants are correct that a lower court’s application of an
incorrect legal standard to grant injunctive relief may be grounds to vacate the injunction and
remand for reconsideration. See Hamad v. Woodcrest Condo. Ass’n, 328 F.3d 224, 234 (6th Cir.
2003). However, there is no hard and fast rule that appellate courts must remand a case in such
circumstances. See, e.g., Kos Pharm., Inc. v. Andrx Corp., 369 F.3d 700, 712 (3d Cir. 2004). Of
course, a remand may be the best approach in many cases, for example, where the district court’s
application of an incorrect legal standard leads to a further failure to make pertinent findings of
fact. But in constitutional cases where the issuance of injunctive relief turns largely on the
merits and the district court has already made the relevant findings of fact, a remand may well be
unnecessary. That is the case here. After all, “whether particular facts amount to an undue
burden is a question of law we must review de novo.” Dissent at 29–30. That is true whichever
articulation of the undue burden standard applies, and no one contends that the district court’s
factual findings would (or could) change upon remand.6
In any event, Defendants may well have overstated the precedential value of EMW,
drawing into question whether the district court committed any error at all in applying the undue
burden standard as the Court explained it in Whole Woman’s Health. Where a panel of this court
is faced with two different standards for addressing a particular issue, but choosing between
them would not change the outcome of the case due to the nature of the underlying facts, the
panel’s choice between the two standards is dicta because it is not “necessary to the
determination of the issue on appeal.” United States v. Hardin, 539 F.3d 404, 410–11, 413 (6th
Cir. 2008) (holding an earlier opinion to be dicta insofar as it chose between a probable cause
6
Indeed, a remand would be particularly inappropriate here, where the district court has already stated that
it would have resolved the case in the very same way had it applied the undue burden standard as Defendants
understand it. When Defendants sought a stay of the district court’s declaratory judgment and permanent injunction,
they raised essentially the same argument that they do here with respect to the district court’s purportedly incorrect
legal standard. See R. 281 (Mem. at 3–4) (Page ID #6661–62). But the district court rejected that argument in
denying a stay, reasoning that “with or without . . . a balancing test, the Tennessee [waiting period] statute
constitutes a ‘substantial obstacle to a woman seeking an abortion’ and, thus, an undue burden.” R. 287 (Op. &
Order at 4) (Page ID #6721). Even if we assume that the district court applied the wrong standard when it first ruled
Tennessee’s waiting period unconstitutional, it would make little sense and waste considerable resources to remand
for reconsideration when the district court has already said that it would not change anything.

153a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 11

and a “lesser reasonable belief standard” for the quantum of proof needed for police officers to
enter a residence and execute a search warrant where the facts of the earlier case were such that
either standard would have been satisfied). That rule would apply here if Judge Clay were
correct in his EMW dissent that it was unnecessary for the EMW majority to choose between the
competing June Medical opinions and their distinct takes on Casey’s undue burden standard.
See EMW, 978 F.3d at 454 n.2 (Clay, J., dissenting). At this stage, however, we need not resolve
the issue of EMW’s precedential value, let alone the questions that would follow as to which
understanding of Casey’s undue burden standard controls. As explained above, even if EMW
were to compel this panel to apply the Chief Justice’s June Medical concurrence, it would not
warrant reversal because the district court’s findings of fact enable us to conduct our review. As
we will explain in the next section, we think it likely that, based on the district court’s
unchallenged findings of fact, Tennessee’s waiting period amounts to an undue burden under
Casey, and is thus invalid, with or without balancing.
2.
Defendants’ next argument is that they are likely to succeed on the merits because the
district court’s factual findings are insufficient to support its conclusion that Tennessee’s waiting
period law unduly burdens access to abortion in the state. Defendants are wrong. As we have
just suggested, we are likely to uphold the district court’s legal conclusion under either of the
competing articulations of Casey’s undue burden standard.
First, we set forth a summary of the district court’s findings of fact, which Defendants
have not challenged in seeking a stay. The district court found “that the statutory waiting period
burdens the majority of abortion patients with significant, and often insurmountable, logistical
and financial hurdles.” Adams & Boyle, 2020 WL 6063778, at *62. In order to attend the two
in-person visits required by the statute, “patients must take time off from work, arrange
childcare, and find transportation on two different occasions.” Id. These costs are particularly
significant in Tennessee because the state had just eight abortion providers in only four cities,
forcing many women to travel significant distances to attend an appointment. See id. (noting that
63% of Tennessee women live in a county without an abortion provider). For low-income
women especially, who make up the majority of women seeking an abortion in Tennessee, these

154a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 12

costs make obtaining an abortion almost prohibitively expensive, putting them to an impossible
choice between the abortion and its attendant costs and providing for their own and their
household’s “basic needs.” Id. at *62–63.7 Crediting the testimony of a plaintiffs’ witness, the
district court found that under Tennessee’s abortion regime the significant and unexpected costs
of an abortion put low-income women and their families at “grave risk” of having to sacrifice
necessities like food, housing, and healthcare. Id. at *34, *62.
These logistical and financial hurdles, the district court found, caused delays between
appointments that were “significantly longer” than the 48 hours required by § 39-15-202(d),
sometimes as much as four weeks, presenting further obstacles for women seeking an abortion in
Tennessee. Adams & Boyle, 2020 WL 6063778, at *61. Medically, as gestational age increases,
“an abortion becomes lengthier, more invasive, more painful, and riskier for the patient.” Id. at
*62. The district court found that the delays caused by Tennessee’s waiting period “can and do
cause” women to miss the deadline for an abortion entirely (19 weeks and 6 days from the first
day of the woman’s last menstrual period), or at least the deadline for the strongly preferred,
safer, and far less invasive medication abortion (10 weeks from the first day of the woman’s last
menstrual period).

Id. at *61.

Indeed, the district court found the waiting period to be

responsible for the increase in medically riskier second-trimester abortions in Tennessee after the
statute’s passage. Id. at *62. Missing the deadline for a medication abortion further complicates
patients’ logistical challenges because only five of Tennessee’s eight abortion providers offer
surgical abortions. Id. at *61–62. Financially, abortion becomes more expensive the later into a
pregnancy it takes place, and the district court found that the cost of an abortion in Tennessee has
increased significantly since 2013. Id. at *18 & n.20, *62.8 This increased cost compounds the
7

An example puts the financial difficulty in perspective. The district court found that the “large majority of
plaintiffs’ patients live in poverty” and that “the overwhelming majority of women seeking an abortion [in
Tennessee] . . . are already mothers and are either poor or near low-income.” Adams & Boyle, 2020 WL 6063778, at
*62 (quoting the trial testimony of Sheila Katz, Ph.D.) (second alteration original). For a single mother of one, the
poverty line sits at approximately $17,000 per year. See id. at *30 n.30. The cost of a surgical abortion is
approximately $900, meaning that this single mother would have to spend almost her entire monthly income to
receive the procedure, and that does not even account for the travel, childcare, and other expenses she would incur.
See id. at *18 & n.20. The additional burdens and expenses caused by the statutory waiting period could well place
the abortion process out of reach.
8

For example, the district court credited the testimony of Rebecca Terrell, executive director of Choices
Memphis (a Tennessee abortion provider), who testified that due to the statute’s two-visit requirement, her clinic

155a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 13

already significant financial burdens on women who must forgo wages and pay for travel and
childcare on multiple occasions in order to receive an abortion under Tennessee law. Id. at *61–
62.
Ultimately, the district court considered these logistical, financial, and medical hurdles
caused by Tennessee’s waiting period and concluded that the waiting period is a substantial
obstacle to abortion access in Tennessee. Adams & Boyle, 2020 WL 6063778, at *64. Finding
that these hurdles stemmed largely from the need to attend two in-person appointments rather
than the waiting period’s express duration, the district court concluded that even a 24-hour
waiting period would constitute a substantial obstacle. Id. at *34, *61, *67.
We think that the facts found by the district court likely satisfy either of the available
articulations of Casey’s undue burden standard. First, we consider the Chief Justice’s approach,
which would have us inquire into whether the waiting period has the “purpose or effect of
placing a substantial obstacle in the path of a woman seeking an abortion of a nonviable fetus”
without balancing the law’s benefits against its burdens in order to determine whether it unduly
burdens access to abortion. June Medical, 140 S. Ct. at 2135 (quoting Casey, 505 U.S. at 877).9
That standard is satisfied here. The burdens imposed by Tennessee’s waiting period mirror (if
not surpass) those in Whole Woman’s Health, where an admitting-privileges law led to “fewer
doctors, longer waiting times, and increased crowding,” while also significantly increasing the
amount of travel time needed to get to an abortion facility. 136 S. Ct. at 2313. Whatever else it
may have done, the Chief Justice’s concurrence in June Medical did not upset Whole Woman’s
Health’s conclusion that those kinds of burdens, where substantial enough, can render a state
abortion law unconstitutional. Indeed, the Chief Justice emphasized the very same sorts of
burdens in ruling Louisiana’s admitting-privileges law unconstitutional in June Medical, at least
under stare decisis principles. See 140 S. Ct. at 2140–41.

increased the costs charged for a surgical abortion from between $425 and $525 in 2013 to between $800 and
$1,000 for the same procedure in 2019. Adams & Boyle, 2020 WL 6063778, at *18 & n.20.
9

Because we conclude that the waiting period is likely unduly burdensome, it is of no consequence whether
it is “‘reasonably related’ to a legitimate state interest.” June Medical, 140 S. Ct. at 2135 (Roberts, C.J., concurring)
(quoting Casey, 505 U.S. at 878).

156a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 14

Turning to the balancing test that the district court actually employed, Defendants—who
bear the burden of persuasion here—have not argued that the district court’s conclusion was
unwarranted if that test in fact applies. Under Whole Woman’s Health, Casey “requires that
courts consider the burdens a law imposes on abortion access together with the benefits those
laws confer,” and balance those considerations to determine whether the law unduly burdens the
right to an abortion. 136 S. Ct. at 2309; see June Medical, 140 S. Ct. at 2120 (plurality op.).
Compounding the severe burdens imposed by the waiting period, the district court found that
there was no evidence that the waiting period furthered the state’s interest in potential life or its
interest in the health of the mother. Adams & Boyle, 2020 WL 6063778, at *58–61. As for the
state’s interest in potential life, the district court found that “there is no evidence that patients
who do not return to an abortion provider for the second appointment (i.e., for the procedure) fail
to do so because the challenged statute causes them to change their minds about having an
abortion.” Id. at *61. Likewise, “women’s mental and emotional health is not benefited because
the mandatory waiting period does nothing to increase the decisional certainty among women
contemplating having an abortion.” Id. To the contrary, the district court found that “at least
95% of women are certain of their decisions [to have an abortion when seeking care], postabortion regret is uncommon, and abortion does not increase women’s risk of negative mental
health outcomes.” Id. In short, whatever limited benefits Tennessee’s waiting period may
provide, they are “vastly outweighed” by its burdens. See EMW Women’s Surgical Ctr., P.S.C.
v. Friedlander, 960 F.3d 785, 808 (6th Cir.), reh’g en banc dismissed, 831 F. App’x 748, 753
(6th Cir. 2020), petition for cert. filed (Oct. 30, 2020).
To summarize, we think it likely that the district court’s factual findings compel the
conclusion that Tennessee’s waiting period unduly burdens women’s abortion rights, whether
analyzed under the Chief Justice’s understanding of Casey, or the understanding articulated by
the majority in Whole Woman’s Health and the plurality in June Medical. Defendants—who
bear the burden of persuading us that a stay is warranted—have not so much as attempted to
challenge those factual findings for clear error. Thus, we reject Defendants’ argument that they
are likely to succeed on the merits because the waiting period is not an undue burden on abortion
rights.

157a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 15

Our dissenting colleague disagrees. Primarily, he points to Casey, and accuses us of
turning a blind eye to Supreme Court precedent. Not so—if anything, Casey supports our
conclusion. In Casey, one of the Pennsylvania abortion restrictions that the Supreme Court
addressed was a 24-hour waiting period that operated similarly to Tennessee’s here.
Acknowledging that such a waiting period “[i]n theory . . . does not amount to an undue
burden,” the Court went on to examine whether the waiting period amounted to a substantial
obstacle “in practice” based on the district court’s findings of fact. Casey, 505 U.S. at 885
(emphasis added).

Calling it a “closer question,” the Court concluded that the delay and

increased costs associated with the waiting period did not amount to a substantial obstacle, even
for those—like poor women or those who lived furthest from clinics—for whom the burden was
the most significant. Id. at 886. The Court was careful, however, to note that its conclusion was
based on “the record before [it],” id. at 887, a record that this court has since characterized as
“sparse,” Cincinnati Women’s Servs., Inc. v. Taft, 468 F.3d 361, 372 (6th Cir. 2006). As
explained above, the record here is substantial—with specific and comprehensive findings as to
the logistical, financial, and medical obstacles created by § 39-15-202(a)–(h) that substantially
limit the accessibility of abortion in Tennessee—far more so than the record in Casey. Indeed,
the district court specifically found that Tennessee’s waiting period “significantly delays this
time-sensitive medical procedure, and also makes it so time-consuming, costly, and inconvenient
to obtain that the predominantly low-income population seeking the service must struggle to
access it, if they can access it at all.” Adams & Boyle, 2020 WL 6063778, at *64; cf. Casey, 505
U.S. at 886 (noting the district court’s failure to “conclude that the increased costs and potential
delays amount to substantial obstacles”).

Furthermore, as the district court here noted,

Pennsylvania had 81 abortion providers at the time that Casey was decided, compared to just
eight in comparably sized Tennessee, which illustrates the waiting period’s disproportionate
impact on women seeking an abortion in Tennessee. Adams & Boyle, 2020 WL 6063778, at *24
n.24, *64.10 Thus, if anything, Casey supports our conclusion that the waiting period of § 39-15202(a)–(h)—whether 48 or 24 hours—is likely unconstitutional.

10

Our dissenting colleague challenges this finding regarding the comparative availability of abortion
facilities. Yet Defendants have stopped short of challenging this finding for clear error. Instead, in a footnote, they
mention that the availability of Pennsylvania abortion providers was not mentioned in Casey and assert that it was

158a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 16

Nor does Casey categorically preclude logistical and financial obstacles from establishing
undue burden, as our dissenting colleague contends. To the contrary, the Court’s failure to
disregard those sort of burdens out of hand and its repeated references to the district court’s
failure to find that they amounted to a substantial obstacle suggest that it had no intention of
making such a sweeping rule. See 505 U.S. at 885–87. Whole Woman’s Health, where the Court
found such kinds of burdens sufficient in portions of its opinion unaffected by the Chief Justice’s
June Medical concurrence, only underscores the point. See Whole Woman’s Health, 136 S. Ct.
at 2313.11
In sum, our dissenting colleague dramatically overstates Casey in criticizing our
purported failure to “treat like cases alike,” Dissent at 28 (quoting June Medical¸ 140 S. Ct. at
2133–34 (Roberts, C.J., concurring)). The fact is that these cases are not alike: although both
involve superficially similar waiting period laws, the burdens imposed here are substantially
more severe, even if generally the same in kind. In Casey, the Court took pains to avoid a
categorical ruling on the constitutionality of waiting period laws—it is not for an intermediate
court such as ours to write such a holding into that case over a quarter-century later. See Wright,

improper for the district court to consider it. Mot. Stay at 16 n.4. We disagree. The district court relied on record
evidence to determine the relative availability of abortion services in Pennsylvania when Casey was decided. See
Adams & Boyle, 2020 WL 6063778, at *24 n.24. The district court acknowledged testimony that the Pennsylvania
figure likely included types of facilities not counted in Tennessee, but nevertheless found that the evidence
established that abortion services were far less available in Tennessee than in Pennsylvania when the Court decided
Casey. See id. This evidence helps to explain why the burdens in this case are more severe than those established in
Casey, and Defendants’ cursory footnote has not given us reason to think otherwise.
11

Cincinnati Women’s Services, which the dissent also relies on, does not compel a different result. In that
case, a panel of this court interpreted Casey to require that courts “determine whether a large fraction of the women
‘for whom the law is a restriction’ will be ‘deterred from procuring an abortion as surely as if the [government] has
outlawed abortion in all cases.’” Cincinnati Women’s Services, 468 F.3d at 370 (emphasis added) (quoting Casey,
505 U.S. at 894). Latching onto the emphasized portion of the quoted language, the dissent would uphold any state
abortion restriction so long as it remains at all possible for women to receive abortion services, no matter the
difficulty they would face in doing so. Dissent at 29. Yet, under Whole Woman’s Health and June Medical, that
cannot be the test. In Whole Woman’s Health, the Court invalidated a Texas admitting-privileges law that—like the
waiting period law at issue here—imposed severe financial and logistical burdens upon women seeking an abortion.
136 S. Ct. at 2310–14. These burdens were enough to render the law invalid, despite the fact that women could still
(though with great difficulty) receive an abortion with the law in place. See id. June Medical only underscores the
import of Whole Woman’s Health in this regard. Indeed, in June Medical, the Court specifically rejected a similar
formulation of the undue burden test. See 140 S. Ct. at 2133 (“[T]he State argues that Act 620 would not make it
‘nearly impossible’ for a woman to obtain an abortion. But, again, the words ‘nearly impossible’ do not describe the
legal standard that governs here.”) (plurality op.); id. at 2139 (Roberts, C.J., concurring).

159a

Case: 20-6267

939 F.3d at 702.

Document: 38-2

Filed: 02/19/2021

Page: 17

If Casey stood for the proposition that waiting period laws are always

constitutional, then it would have said so.
3.
Defendants’ final argument is that they are likely to succeed on the merits because the
district court misapplied the “large fraction” test that determines whether an abortion restriction
is facially invalid. Under Casey, a state abortion restriction is facially invalid if it is an undue
burden “in a large fraction of the cases in which [the restriction] is relevant.” 505 U.S. at 895.
In Cincinnati Women’s Services, we explained that this test “is more conceptual than
mathematical,” but requires that the restriction at issue impose a substantial obstacle for
“something more” than 12.5% of women for whom it is relevant. Cincinnati Women’s Services,
468 F.3d at 374. We think that the district court is likely correct that the test is met here.
The district court concluded that, at the very least, Tennessee’s waiting period imposes a
substantial obstacle on the 60% to 80% of women seeking an abortion who qualify as “lowincome,” and concluded that this satisfied the large fraction test. Adams & Boyle, 2020 WL
6063778, at *65. As explained above, we agree that Tennessee’s waiting period is an undue
burden for at least those women who qualify as low-income and risk going without basic
necessities in order to cover the increased costs that the district court attributed to the waiting
period. Thus, even assuming that the denominator for the fraction would be “all women seeking
an abortion,” the test would be well satisfied here. See Cincinnati Women’s Services, 468 F.3d at
374 (noting that the “challenged restriction need not operate as a de facto ban for all or even
most” of the relevant population to be facially invalid).
In any case, the denominator is smaller than that. Casey directs us to compare the
number of women unduly burdened by the law at issue (the fraction’s numerator) against the
number of women for whom the law “is an actual rather than an irrelevant restriction.” 505 U.S.
at 895. This relevance requirement means that the denominator is “a class narrower than ‘all
women,’ ‘pregnant women,’ or even ‘the class of women seeking abortions identified by the
State.’” Whole Woman’s Health, 136 S. Ct. at 2320 (quoting Casey, 505 U.S. at 894–95). Here,
we think that the class of women for whom the waiting period is relevant would be those women

160a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 18

who were certain that they wanted an abortion when they sought out the service—about 95% of
all women seeking an abortion in Tennessee, according to the district court. Adams & Boyle,
2020 WL 6063778, at *65. For those women, the waiting period is relevant because it forces
them to delay their abortion when they otherwise would not have; for women who were
uncertain whether they wanted to have an abortion, it is possible that the waiting period is
irrelevant because they may have chosen to take time to consider their decision before returning
to have the procedure (or not). Thus, the pertinent “large fraction” is modestly larger than the
60% to 80% of women seeking an abortion in Tennessee who qualify as low income—either
way the fraction is large enough.12
On this point, our dissenting colleague essentially reissues his opinion that Tennessee’s
waiting period law does not amount to an undue burden for any woman and thus fails the large
fraction test. We have already rejected that argument and will not repeat ourselves here.
B.
Turning to the remaining stay factors, we conclude that this is the ordinary constitutional
case where likelihood of success on the merits is determinative on the issue of whether to grant a
stay pending appeal. See Beshear, 981 F.3d at 508, 511. Insofar as § 39-15-202(a)–(h) is likely
unconstitutional, neither the state nor anyone else will be harmed by the state’s inability to
enforce it. See Planned Parenthood Ass’n of Cincinnati, Inc. v. City of Cincinnati, 822 F.2d
1390, 1400 (6th Cir. 1987).

In contrast, staying the injunction and leaving a likely

unconstitutional waiting period in place would harm women seeking an abortion while we
consider the parties’ full arguments on appeal. As for the final factor—the public interest—it
should go without saying that the public has no interest in the enforcement of an unconstitutional
law. Deja Vu of Nashville, Inc. v. Metro. Gov’t of Nashville & Davidson Cnty., 274 F.3d 377,
400 (6th Cir. 2001) (“[I]t is always in the public interest to prevent violation of a party’s

12

The district court also concluded that the waiting period is an undue burden for all of the 95% of women
seeking an abortion in Tennessee who are certain of their decision to have an abortion, satisfying the large fraction
test. Adams & Boyle, 2020 WL 6063778, at *65. However, we need not address that conclusion here because even
using the smaller of the two fractions identified by the district court—60% to 80%, which qualifies as a large
fraction—Defendants are unlikely to succeed on the merits.

161a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 19

constitutional rights.”) (quoting G & V Lounge, Inc. v. Mich. Liquor Control Comm’n, 23 F.3d
1071, 1079 (6th Cir. 1994)).
III. CONCLUSION
For the foregoing reasons, we DENY the motion for a stay pending appeal. The appeal
will proceed on the previously determined briefing schedule.

162a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 20

_________________
DISSENT
_________________
THAPAR, Circuit Judge, dissenting.

Since Casey, no federal appellate court has

successfully struck down an abortion waiting period. Why? Because the Supreme Court says
that waiting periods are constitutional. Planned Parenthood of Se. Pa. v. Casey, 505 U.S. 833,
881–87 (1992) (plurality opinion). Indeed, both the Supreme Court and our court have upheld
such laws. But here the majority, like the district court before it, decides to chart its own course.
In doing so, the majority ignores Supreme Court and Sixth Circuit precedent, as well as
the correct legal standard. Given the weighty interests involved in this case, the majority’s
failure to issue a stay merits immediate correction either by our court or a higher one. After all,
“it is not our place to ignore precedent and push our own agenda.” United States v. Navarro,
986 F.3d 668, 675–76 (6th Cir. 2021) (Moore, J., dissenting).1

1

The majority insists that Tennessee cannot seek en banc review of today’s decision because it is
preliminary. I disagree. See Fed. R. App. P. 35(b) (noting that any “party may petition for a hearing or rehearing en
banc”). Our court has often granted petitions to review non-merits rulings. See, e.g., Preterm-Cleveland v. Acton,
No. 18-3329 (6th Cir. argued March 11, 2020) (en banc); In re Ohio Execution Protocol, 860 F.3d 881 (6th Cir.
2017) (en banc); City of Pontiac Retired Emps. Ass’n v. Schimmel, 751 F.3d 427 (6th Cir. 2014) (en banc); Warshak
v. United States, 532 F.3d 521 (6th Cir. 2008) (en banc); Deja Vu of Cincinnati, L.L.C. v. Union Twp. Bd. of Trs.,
411 F.3d 777 (6th Cir. 2005) (en banc). Of course, these are preliminary-injunction cases. But there is no material
difference between a preliminary-injunction case and a stay case: Courts apply the same test in both.
At best, the rules are confusing on whether a party may seek en banc review of a stay order. What is not
confusing, however, is that there are at least two other options in this setting: (1) any active judge may seek sua
sponte en banc review, and (2) a party may seek initial hearing en banc on the merits.
First, Rule 35 says a majority of a circuit’s judges “may order that an appeal or other proceeding be heard
or reheard by the court of appeals en banc.” Fed. R. App. P. 35(a) (emphasis added). And the United States Code
provides that a majority of active circuit judges may hear any “case or controversy” en banc. 28 U.S.C. § 46(c).
Finally, our operating procedures say that any active judge may request a poll sua sponte. 6th Cir. I.O.P. 35(e).
When that occurs, “the clerk will immediately circulate voting forms to the en banc court.” Id.
Second, if Tennessee chose to file a petition for initial hearing en banc on the merits, our court could grant
it. Both opinions herein comprehensively discuss the merits, and nothing more will be added by an additional panel
decision. The majority has already concluded that the law appears to be “unnecessary, unjustified, and unduly
burdensome.” Maj. Op. 2. And if the en banc court grants review, it would have jurisdiction over the entire case
and could consider any motion for reconsideration Tennessee might file.

163a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 21

I.
Tennessee’s legislature enacted a waiting-period law in 2015. The law requires doctors
to give women certain information at least 48 hours before performing an abortion (except in
cases of medical emergency). Tenn. Code Ann. § 39-15-202(a)–(h). That information includes
the age of the unborn child, the alternatives to abortion, and the medical risks and benefits of
abortion and pregnancy. Id. The law also provides that a 24-hour waiting period will take effect
if a court enjoins the 48-hour waiting period. Id.
In June 2015, a group of abortion providers sued. They alleged that Tennessee’s waitingperiod law burdens abortion and is facially unconstitutional. They did not seek a preliminary
injunction, and the law went into effect in July 2015. For five years, the law remained in force.
And for five years, women continued to obtain abortions in Tennessee: Abortion rates remained
above 10,000 per year both before and after passage of the law.
Four years later, the district court held a bench trial. But it did so using the wrong legal
standard: balancing the law’s benefits against its alleged burdens. Adams & Boyle, P.C. v.
Slatery, --- F. Supp. 3d ---, No. 3:15-CV-00705, 2020 WL 6063778, at *63 (M.D. Tenn. Oct. 14,
2020). This approach directly conflicts with our published precedent and the standard set forth
in the Chief Justice’s controlling opinion in June Medical. See EMW Women’s Surgical Ctr.,
P.S.C. v. Friedlander, 978 F.3d 418 (6th Cir. 2020). Applying the wrong standard, the district
court then said that the law “provides no appreciable benefit.” Adams & Boyle, 2020 WL
6063778, at *63. It also found that the law “causes increased wait times, imposes logistical and
financial burdens, subjects patients to increased medical risks, and stigmatizes and demeans
women.” Id. at *61. Thus, the district court held that the law unduly burdens abortion. Id. at
*63–64.
Although the Casey Court held that nearly identical burdens did not render
Pennsylvania’s waiting period unconstitutional, the district court distinguished the case in just
two paragraphs.

It claimed that the “fully developed record” here enabled it to reach a

conclusion contrary to Casey: that Tennessee’s waiting period “severely burdens the majority of

164a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 22

women seeking an abortion.” Id. at *64. The district court permanently enjoined enforcement of
the law.
Tennessee then sought a stay pending appeal from the district court. It pointed out that
the district court’s decision conflicted with Supreme Court and Sixth Circuit precedent governing
waiting periods. See Casey, 505 U.S. at 871–76; Cincinnati Women’s Servs., Inc. v. Taft, 468
F.3d 361, 366, 372–74 (6th Cir. 2006). It also flagged that the Sixth Circuit had recently held
that a benefits-burden test does not apply in the abortion context. EMW, 978 F.3d 418. Even so,
the district court refused to issue a stay pending appeal.
Tennessee now seeks a stay in this court.
II.
Courts consider four factors when determining whether to grant a stay pending appeal:
“(1) whether the stay applicant has made a strong showing that he is likely to succeed on the
merits; (2) whether the applicant will be irreparably injured absent a stay; (3) whether issuance
of the stay will substantially injure the other parties interested in the proceeding; and (4) where
the public interest lies.” Nken v. Holder, 556 U.S. 418, 434 (2009). In constitutional cases, the
propriety of a stay largely hinges on the likelihood of success on the merits. Coal. to Defend
Affirmative Action v. Granholm, 473 F.3d 237, 252 (6th Cir. 2006).
Tennessee is likely to prevail on the merits for three reasons. First, the district court
impermissibly balanced the benefits and burdens of the law in violation of controlling precedent.
Second, the district court failed to apply rational basis review to the State’s basis for enacting the
law. And third, the district court improperly held that the law substantially burdens abortion in
Tennessee. Each of these errors will require us to reverse the district court’s judgment and
injunction, so Tennessee is entitled to a stay pending appeal.
A.
Start with a foundational problem: The district court applied the wrong legal standard. It
weighed the benefits and burdens of the waiting-period law to find the law unconstitutional.
Adams & Boyle, 2020 WL 6063778, at *58–64. But our circuit has rejected this approach.

165a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 23

EMW, 978 F.3d at 430–34. So too has the Supreme Court. See June Medical Servs. L.L.C. v.
Russo, 140 S. Ct. 2103, 2136–39 (2020) (Roberts, C.J., concurring in judgment) (controlling
opinion). And “a district court by definition abuses its discretion when it makes an error of law.”
Koon v. United States, 518 U.S. 81, 100 (1996).
To be fair, in balancing the benefits and burdens, the district court relied on the fourjustice plurality opinion in June Medical. But as our court recently held, the Chief Justice’s
separate opinion in June Medical—not the plurality opinion—provides the controlling legal rule
in the case. EMW, 978 F.3d at 433; accord Hopkins v. Jegley, 968 F.3d 912 (8th Cir. 2020).
That is because when the Supreme Court decides a case and no rationale garners majority
support, “the holding of the Court” is the position taken by the justice or justices “who concurred
in the judgment[] on the narrowest grounds.” Marks v. United States, 430 U.S. 188, 193 (1977).
In June Medical, that means the Chief Justice’s separate opinion controls.
Under the Chief Justice’s controlling opinion, the undue burden test does not permit
judges to balance the benefits and burdens of an abortion regulation. June Medical, 140 S. Ct. at
2136–39 (Roberts, C.J., concurring in judgment). Instead, an abortion regulation is valid as long
as it: (1) is “reasonably related to a legitimate state interest,” and (2) doesn’t place “a substantial
obstacle in the path of a woman seeking an abortion.” EMW, 978 F.3d at 433–34. “Because the
controlling opinion in June Medical Services clarified that the undue burden standard is not a
balancing test, the district court erred in attempting to weigh the benefits of [the law] against [its]
burdens.” Id. at 437.
What is the majority’s response? It says that our court’s holding in EMW might be
“dicta” and that Tennessee “may well have overstated the precedential value of EMW.” Maj. Op.
9–11. It claims (incorrectly) that the panel may have had an alternative basis for its decision, so
its holding about the correct standard of review is not binding. (Never mind that alternative,
independent holdings are themselves binding. Wright v. Spaulding, 939 F.3d 695, 701 (6th Cir.
2019); Chambers v. United States, 763 F. App’x 514, 522 n.2 (6th Cir. 2019) (Moore, J.,
concurring) (“I am not prepared to question the practice of alternative holdings, and an
alternative holding is still a holding.”).) The majority’s suggestion is premised on a fundamental
misunderstanding of EMW. And its invitation to defy precedent runs counter to the settled rule

166a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 24

of this and every other circuit: that “the holding of a published panel opinion binds all later
panels unless overruled or abrogated en banc or by the Supreme Court.” Wright, 939 F.3d at
700.
A bit of background is necessary to understand the scope of EMW’s holdings. EMW
involved a Kentucky law that requires abortion providers to obtain transfer-and-transport
agreements with local hospitals. 978 F.3d at 438. The district court did not have the benefit of
June Medical and thus applied the balancing test found in Whole Woman’s Health. Id. After a
three-day bench trial, the district court first found that the transfer agreements did not confer “a
substantial medical benefit” and so did not promote “the health of women seeking abortions in
Kentucky.” Id. Second, the district court found that the law imposed a burden on women
seeking abortions because it would result in the closure of clinics. Id. at 426. Balancing the
benefits against the burdens, the district court held that the law was unconstitutional.
Kentucky appealed. The EMW court began with a thorough and careful analysis of the
relevant case law, and of June Medical in particular. That analysis was not easy. Indeed, it
spans nearly ten pages in the Federal Reporter.

Id. at 429–37.

Over the course of this

thoughtful analysis, the majority explained why Chief Justice Roberts’ separate opinion in June
Medical supplied the relevant legal test. And once the majority determined the relevant test, it
applied that test to Kentucky’s transfer-and-transport law.
To understand why that determination mattered, one must look at the arguments plaintiffs
made in EMW. The plaintiffs advanced two independent arguments.
First, the plaintiffs argued that the law was unconstitutional because the district court
found that the law offered no benefits—even if it did not pose a substantial obstacle to abortion.
Id. at 438. Our court disagreed. Id. Importantly for present purposes, we rejected the notion
that a district court gets to independently determine whether a law has benefits. Id. Why?
Because under June Medical it is not “the role of courts to objectively assign weight to the
State’s interests in passing regulations on abortion.” Id. (cleaned up). Instead, we “are only to
ascertain” whether the legislature had a rational basis to act. Id.

167a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 25

Second, the plaintiffs argued that Kentucky’s law posed a substantial obstacle to abortion
and so was unconstitutional for that reason too. Id. at 440–41. The district court agreed and
found that the law would cause all of Kentucky’s abortion clinics to close. This time, we
reversed based on clear error. We concluded that the district court lacked a sound evidentiary
basis for finding that clinics would be forced to close. Id. at 441–46. Thus, we held that the law
did not pose a substantial obstacle to abortion.
My colleagues in the majority suggest they may not be bound by EMW’s analysis of June
Medical because it was not “necessary to the determination of the appeal.” Maj. Op. 9–10
(quoting United States v. Hardin, 539 F.3d 404, 410–11 (6th Cir. 2008)). Because the EMW
court held that the district court clearly erred in its substantial-obstacle finding, the majority says
that EMW’s benefits-burden holding was potentially “unnecessary” and “much ado about
nothing.” Id. at 9–11. Not so.
In EMW, the plaintiffs argued that—even in the absence of a substantial obstacle—an
abortion regulation could be unconstitutional based on its lack of benefits. 978 F.3d at 438 (“The
plaintiffs contend that, even after June Medical Services, the district court’s findings establish
that the challenged provisions are ‘not reasonably related to a legitimate purpose’ and are
therefore unconstitutional even if they do not impose a substantial obstacle.”). If this argument
were correct, it would have been an independent basis for affirming. But the EMW court applied
the Chief Justice’s opinion in June Medical to reject the argument. Id. at 438–40. Under the
Chief Justice’s opinion, courts must defer to legislative judgments about the benefits conferred
by a law regulating abortion (so long as the law survives rational basis review); district court
findings to the contrary are irrelevant.
As this discussion shows, EMW’s application of June Medical plainly “contribute[d] to
the judgment.” Wright, 939 F.3d at 701. So it constitutes a binding holding of this court. And
since the district court abused its discretion by applying the wrong legal standard, Tennessee is
likely to succeed on the merits of its appeal.2

2

The majority notes that defendants “have not argued that the district court’s conclusion was unwarranted if
the [Whole Woman’s Health] test in fact applies.” Maj. Op. 14. The reason no one presses this argument is because

168a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 26

B.
But the district court’s errors didn’t stop there. It also concluded that Tennessee’s
waiting-period law serves “no legitimate purpose.” Adams & Boyle, 2020 WL 6063778, at *58–
64. This conclusion is deeply flawed.
In determining whether abortion regulations “reasonably relate[] to a legitimate state
interest,” courts must apply rational basis review. EMW, 978 F.3d at 433, 438 (citation omitted);
June Medical, 140 S. Ct. at 2135 (Roberts, C.J., concurring in judgment). A rational basis to
regulate abortion exists when there “is a problem at hand for correction and it might be thought
that the particular legislative measure was a rational way to correct it.” EMW, 978 F.3d at 438
(cleaned up). This standard is “highly deferential.” Id. Under it, “legislative choice is not
subject to courtroom factfinding and may be based on rational speculation unsupported by
evidence or empirical data.” FCC v. Beach Commc’ns, Inc., 508 U.S. 307, 315 (1993); see also
Vance v. Bradley, 440 U.S. 93, 110–11 (1979) (holding the same).

Thus, a law remains

constitutional even if it seems to offer “little if any benefit.” EMW, 978 F.3d at 438 (citation
omitted). All that matters is whether the legislature had a rational basis to act.
Here, the Tennessee legislature plainly did. In Casey, the Supreme Court held that
waiting-period laws are rationally related to two legitimate state interests. First, they are “a
reasonable measure to implement the State’s interest in protecting the life of the unborn.”
505 U.S. at 885. And second, they are a reasonable means of ensuring that women’s consent is
“informed and deliberate.” Id. Just as these rationales justified Pennsylvania’s 24-hour waiting
period, so too do they justify Tennessee’s 48-hour waiting period. Thus, Tennessee had (as a
matter of law) a rational basis for enacting its waiting-period law.
But the district court apparently believed the reasoning of the Tennessee legislature (and
the Supreme Court) was not good enough. So it decided to engage in freewheeling factfinding of
the Whole Woman’s Health test does not apply after June Medical and EMW. But if that test did apply, the law
would almost certainly remain constitutional. As the Supreme Court recognized in Casey, abortion waiting periods
play an important role in furthering informed consent and protecting the lives of unborn children. 505 U.S. at 885–
86. And any resulting burden does not amount to a substantial obstacle to abortion for the reasons explained
elsewhere in this dissent. Thus, Tennessee’s waiting period would almost certainly survive benefits-burden
balancing under the (since overruled) Whole Woman’s Health standard.

169a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 27

its own. And based on that factfinding, it held that Tennessee’s waiting period does not “actually
further[]” a legitimate state interest. Adams & Boyle, 2020 WL 6063778, at *58, *63. Yet as
noted above, a district court cannot supplant a legislature’s judgment with “courtroom
factfinding.” Beach Commc’ns, 508 U.S. at 315; see also EMW, 978 F.3d at 438–39. Nor can it
“resolve conflicts in the evidence against the legislature’s conclusion,” reject the legislature’s
findings based on “statistics in the record,” or dismiss the legislature’s judgment because it is
based on “speculation.” Vance, 440 U.S. at 111 (cleaned up). The district court’s opinion
contravenes these key principles of rational basis review. This alone requires vacatur.
But that’s not all. In its frolic and detour, the district court also ignored a key part of the
Supreme Court’s holding in Casey: that abortion waiting periods are reasonably related to
legitimate state interests as a matter of law. 505 U.S. at 885. Because the district court “failed to
perform traditional rational-basis review,” and because it failed to apply controlling precedent,
Tennessee is likely to succeed on the merits of its appeal. EMW, 978 F.3d at 439–40.
C.
All of this is reason enough to stay the district court’s decision. But the district court
committed another fundamental error: It held that Tennessee’s waiting-period law poses a
substantial obstacle to abortion for almost all women in Tennessee. Once again, the district
court’s holding defies Supreme Court and Sixth Circuit precedent. It also badly misapplies the
large-fraction test, which is used to determine whether abortion regulations are facially valid.
1.
A law is unconstitutional if it places “a substantial obstacle in the path of a woman
seeking an abortion of a nonviable fetus.” June Medical, 140 S. Ct. at 2138 (Roberts, C.J.,
concurring in judgment) (cleaned up). “Under the law of our circuit, a woman faces a substantial
obstacle when she is ‘deterred from procuring an abortion as surely as if the [government] has
outlawed abortion in all cases.’” EMW, 978 F.3d at 434 (quoting Cincinnati Women’s Servs.,
468 F.3d at 370). Here, the plaintiffs failed to show that Tennessee’s law imposes such a burden.

170a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 28

Begin with precedent. In Casey, the Supreme Court held that Pennsylvania’s 24-hour
waiting period was not a substantial obstacle to abortion. It acknowledged that the law would
often cause delays of “much more than a day” given the need to schedule two appointments. 505
U.S. at 886. It recognized that the effects of the law would be “particularly burdensome” for
“those women who have the fewest financial resources, those who must travel long distances,
and those who have difficulty explaining their whereabouts to husbands, employers, or others.”
Id. It noted that the delays might result in women experiencing additional “harassment” or
“hostility.” Id. And it “did not doubt” that the law had “the effect of increasing the cost and risk
of delay of abortions.” Id. (cleaned up). Still, the Supreme Court held that these findings were
not enough to “demonstrate that the waiting period constitutes an undue burden.” Id. This was
true even for the women most affected by the law, such as those with low incomes. Id. at 886–
87.
Likewise, in Cincinnati Women’s Services, our court held that Ohio’s 24-hour waiting
period did not pose a substantial obstacle to abortion for most women it affected. 468 F.3d at
373–74. We recognized that the waiting period might have the “effect of delaying abortions up
to two weeks.” Id. at 366. But even still, we held that the law was constitutional.
So how did the district court get around this precedent? It claimed that a more “fully
developed record” allowed it to part from those decisions and find that Tennessee’s waiting
period poses a substantial obstacle to abortion. Adams & Boyle, 2020 WL 6063778, at *64. But
the burdens the district court identified are generally the same as those rejected as insufficient in
Casey:

“logistical and financial hurdles” caused “by having to attend two in-person

appointments.” Id. at *62; see also Karlin v. Foust, 188 F.3d 446, 486 (7th Cir. 1999).
Courts have an obligation to “treat like cases alike.” See June Medical, 140 S. Ct. at
2133–34. And they cannot circumvent that duty by dressing up departures from precedent in the
garb of judicial factfinding. Since this case is nearly identical to Casey, the law compels the
same conclusion.
Beyond these financial and logistical issues, the district court pointed to a few more
potential burdens. But all fall well short of being a substantial obstacle to abortion.

171a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 29

First, the district court argued that Tennessee’s law is both “demeaning to women who
have decided to have an abortion” and “undermines patient autonomy and self-determination.”
Adams & Boyle, 2020 WL 6063778, at *63. But there is no “constitutional right to abortion on
demand.” Casey, 505 U.S. at 887. What’s more, these findings say nothing about whether
women are deterred from obtaining an abortion “as surely as if the [government] has outlawed
abortion in all cases.” EMW, 978 F.3d at 434 (citation omitted). That is the test. And the
district court didn’t even pretend to satisfy it.
Next, the district court claimed that “as gestational age increases, an abortion becomes
. . . riskier for the patient.” Adams & Boyle, 2020 WL 6063778, at *62. For a health risk to
potentially pose an undue burden, that risk must be at least “appreciable.” Casey, 505 U.S. at
885. Yet at trial, the plaintiffs’ own expert testified that “surgical abortion at all times remains
very safe.” Adams & Boyle, 2020 WL 6063778, at *8; see also id. at *11 (finding this testimony
“fully credible” and giving it “great weight”). To be sure, the district court cites testimony
suggesting that medical risk increases slightly as gestational age increases.

But minimal

increases in risk cannot create appreciable medical risk when, as plaintiffs contend, the
procedure isn’t risky to begin with. See Tucson Women’s Ctr. v. Ariz. Medical Bd., 666 F. Supp.
2d 1091, 1103 (D. Ariz. 2009) (“Plaintiffs cite a 38% increase in risk [from an abortion
procedure], but 38% of a very small number is still a very small number.”). Thus, any slight
increase in risk does not amount to a substantial obstacle to abortion.
Finally, the district court found that Tennessee’s waiting-period law “places significant
burdens on the clinics themselves.” Adams & Boyle, 2020 WL 6063778, at *63. But burdens on
abortion providers are irrelevant unless they unduly burden women’s access to abortion.
Tennessee’s law does not require clinics to close or doctors to stop performing abortions. Cf.
June Medical, 140 S. Ct. at 2133–34 (Roberts, C.J., concurring in judgment); EMW, 978 F.3d at
446. And for the reasons discussed elsewhere in this opinion, the waiting period does not unduly
burden women’s ability to obtain abortions. Thus, this rationale offers no basis for finding that
the law poses a substantial obstacle to abortion.
The majority sees things differently. It suggests that the district court’s factfinding
insulates its undue-burden determination. But whether particular facts amount to an undue

172a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 30

burden is a question of law we must review de novo. Memphis Planned Parenthood, Inc. v.
Sundquist, 175 F.3d 456, 460 n.1 (6th Cir. 1999); see also A Woman’s Choice–East Side
Women’s Clinic v. Newman, 305 F.3d 684, 689 (7th Cir. 2002). Otherwise, there would be
“arbitrary discretion in the courts.” June Medical, 140 S. Ct. at 2134 (Roberts, C.J., concurring
in judgment) (quoting Federalist No. 78); see also Am. Jewish Cong. v. City of Chicago,
827 F.2d 120, 129 (7th Cir. 1987) (Easterbrook, J., dissenting) (“When everything matters, when
nothing is dispositive, when we must juggle incommensurable factors, a judge can do little but
announce his gestalt.”). And reviewed de novo, there is no question that the district court’s
undue-burden determination veered badly off course. Why? Because Casey is dispositive: In
the absence of a medical emergency, requiring a woman to attend two appointments before
obtaining an abortion is not a substantial obstacle.3
2.
An abortion regulation that is unconstitutional in some applications “remains facially
valid so long as it does not impose an undue burden ‘in a large fraction of the cases in which [the
regulation] is relevant.’” EMW, 978 F.3d at 434 (quoting Casey, 505 U.S. at 895). The district
court held that Tennessee’s waiting-period law imposes an undue burden in a large fraction of
cases. It took two shots at explaining why this was the case. Both miss the mark.
3

The district court and majority argue that because Pennsylvania had more abortion clinics when Casey
was decided than Tennessee does today, Casey does not control. This argument has multiple problems. For starters,
Casey did not rely on the number of clinics in Pennsylvania. In fact, no opinion even mentions this statistic. Courts
cannot narrow Supreme Court holdings based on facts the Court did not consider. See Seila Law LLC v. CFPB,
140 S. Ct. 2183, 2200 n.4 (2020) (When interpreting precedent, “what matters is the [evidence] the Court considered
as the basis for its decision, not any latent [evidence] not alluded to by the Court.”).
And even on its own terms, this attempt to distinguish Casey fails. The population of Tennessee in 2020 is
about half of Pennsylvania’s population in 1992. Tennessee has abortion clinics in Nashville, Memphis, Knoxville,
Bristol, and Mount Juliet. Adams & Boyle, 2020 WL 6063778, at *62 n.52. And the vast majority of Tennesseans
live in the metro areas, suburbs, and counties immediately surrounding these cities. Indeed, given the shape of the
State and the distribution of clinics, almost every Tennessean lives within a two-hour drive of an abortion clinic.
Finally, the district court admits that “the calculation of Pennsylvania providers also included smaller
OB/GYNs or hospitals that performed abortions, which were not included in the calculation of Tennessee
providers.” Id. at *23 n.24. Thus, it is far from clear that Tennessee has fewer abortion providers than Pennsylvania
did when Casey was decided, especially on a per capita basis.
The majority criticizes the dissent for discussing this point. It claims that Tennessee “stopped short of
challenging this finding for clear error.” Maj. Op. 15–16 n.10. But Tennessee did challenge the district court’s
flawed use of these figures on page 16 of its stay motion (in footnote 4). And even if it hadn’t, the scope of a
Supreme Court decision is a question of law, not fact, so it is a proper inquiry for appellate judges.

173a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 31

Numerators and Denominators. Large-fraction analysis relies on two key variables. The
first is the numerator. This is the number of women unduly burdened by an abortion regulation.
Casey, 505 U.S. at 894–95. The second variable is the denominator. This is the group of women
for whom an abortion regulation is “an actual rather than an irrelevant restriction.” Id. The
district court erred twice in identifying the relevant numerator.
Women Who Are Certain. The district court first held that Tennessee’s waiting-period
law “unduly burdens all women who are certain of their decisions” to obtain an abortion. Adams
& Boyle, 2020 WL 6063778, at *65. Why? Because these women experience delays that carry
“no benefit.” Id. The district court estimated that 95% of women are certain of their decision to
obtain an abortion and held that Tennessee’s waiting period imposes an impermissible burden on
this entire group.
But the district court did not find that these women “would effectively be barred from
exercising their constitutional right to obtain an abortion.” Cincinnati Women’s Servs., 468 F.3d
at 373 (citing Women’s Medical Prof’l Corp. v. Voinovich, 130 F.3d 187, 201 (6th Cir. 1997)).
And that is the controlling legal question. So, are 95% of women seeking an abortion “deterred
from procuring an abortion as surely as if the [government] has outlawed [it] in all cases?”
EMW, 978 F.3d at 434 (citation omitted). All evidence is to the contrary: Tennessee performed
12,373 abortions the year before the law went into effect, and 11,235 abortions the year after.
Mot. for Stay, Exs. C, E. The district court thus erred by holding that 95% of women are unduly
burdened by Tennessee’s waiting-period law (and using this figure as the numerator in its largefraction analysis).
Low-Income Women. In the alternative, the district court also concluded that “all lowincome women who seek an abortion are unduly burdened by the mandatory waiting period
because it requires them to make a second trip to a provider.” Adams & Boyle, 2020 WL
6063778, at *65. The district court estimated that this group includes 60% to 80% of all abortion
seekers in the State. Id. How are these women burdened? By “the costs and inconvenience of
the second trip,” which may prove “either insurmountable or surmounted with great difficulty.”
Id.

174a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 32

But “inconvenience, even severe inconvenience, is not an undue burden.” Karlin, 188
F.3d at 481. As the Supreme Court explained in Casey, the fact that a law might be “particularly
burdensome” for women with the “fewest financial resources” does not mean the law poses a
substantial obstacle to abortion. 505 U.S. at 886. And given the rate at which abortions continue
to occur in Tennessee, it is implausible that 60% to 80% of women are encountering a substantial
obstacle to abortion in Tennessee, such that they are functionally unable to obtain the procedure.
For these reasons, the district court erred in using the 60% to 80% number as the relevant
numerator in its large-fraction analysis.
Again, this error merits a stay.
D.
The remaining factors also favor a stay pending appeal. For one, Tennessee faces
irreparable injury. “Any time a State is enjoined by a court from effectuating statutes enacted by
representatives of its people, it suffers a form of irreparable injury.” Maryland v. King, 567 U.S.
1301, 1303 (2012) (Roberts, C.J., in chambers) (cleaned up). Although the majority contends
that Tennessee’s law is “unnecessary” and “unjustified,” that is a question for the people of
Tennessee, not unelected appellate judges. Maj. Op. 2. By contrast, a stay will not substantially
injure the plaintiffs. The law remained in force for more than five years while the parties
litigated in the district court. During that time, plaintiffs continued to operate their clinics, and
women in Tennessee continued to obtain abortions. Finally, the public interest supports granting
the stay. For as we have explained, “giving effect to the will of the people by enforcing the laws
they and their representatives enact serves the public interest.” Thompson v. DeWine, 959 F.3d
804, 812 (6th Cir. 2020).
E.
One final point. The effects of today’s ruling will extend far beyond this case. The
majority functionally overrules Casey. In doing so, it calls into question waiting-period laws in
fourteen states.4 It also suggests that district courts (and appellate panels) have free rein to
4

Ariz. Rev. Stat. Ann. § 36-2153(A); Ark. Code Ann. § 20-16-1703(b); Fla. Stat. Ann. § 390.0111(3)(a)(1);
Ind. Code Ann. § 16-34-2-1.1(a); Iowa Code Ann. § 146A.1(1); Ky. Rev. Stat. Ann. § 311.725(1); La. Rev. Stat.

175a

Case: 20-6267

Document: 38-2

Filed: 02/19/2021

Page: 33

disregard controlling precedent and to substitute their preferences for the judgment of the
Supreme Court.
* * *
Abortion may be controversial. Following Supreme Court precedent shouldn’t be.
I dissent.

Ann. § 40:1061.16(B)–(C); Miss. Code Ann. § 41-41-33(1); Mo. Ann. Stat. § 188.027; Ohio Rev. Code Ann.
§ 2317.56(B)(1); S.D. Codified Laws § 34-23A-56; Tex. Health & Safety Code Ann. § 171.012(a)(4), (b); Utah
Code Ann. § 76-7-305(2); Wis. Stat. Ann. § 253.10(3)(c)(1).

176a

